<html>
<title> - NOMINATIONS TO THE DEPARTMENT OF HOMELAND SECURITY, DEPARTMENT OF TRANSPORTATION, AND FEDERAL AVIATION ADMINISTRATION</title>
<body><pre>[Senate Hearing 108-430]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 108-430



                           NOMINATIONS TO THE
                    DEPARTMENT OF HOMELAND SECURITY,
                   DEPARTMENT OF TRANSPORTATION, AND
                    FEDERAL AVIATION ADMINISTRATION

=======================================================================

                                HEARING

                               BEFORE THE

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION

                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 4, 2003

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation



91-361              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

           COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                     JOHN McCAIN, Arizona, Chairman
TED STEVENS, Alaska                  ERNEST F. HOLLINGS, South Carolina
CONRAD BURNS, Montana                DANIEL K. INOUYE, Hawaii
TRENT LOTT, Mississippi              JOHN D. ROCKEFELLER IV, West 
KAY BAILEY HUTCHISON, Texas              Virginia
OLYMPIA J. SNOWE, Maine              JOHN F. KERRY, Massachusetts
SAM BROWNBACK, Kansas                JOHN B. BREAUX, Louisiana
GORDON SMITH, Oregon                 BYRON L. DORGAN, North Dakota
PETER G. FITZGERALD, Illinois        RON WYDEN, Oregon
JOHN ENSIGN, Nevada                  BARBARA BOXER, California
GEORGE ALLEN, Virginia               BILL NELSON, Florida
JOHN E. SUNUNU, New Hampshire        MARIA CANTWELL, Washington
                                     FRANK LAUTENBERG, New Jersey

      Jeanne Bumpus, Republican Staff Director and General Counsel
             Robert W. Chamberlin, Republican Chief Counsel
      Kevin D. Kayes, Democratic Staff Director and Chief Counsel
                Gregg Elias, Democratic General Counsel


                            C O N T E N T S

                              ----------                              

                                                                   Page
Hearing held on March 4, 2003....................................     1
Statement of Senator McCain......................................     1
    Prepared statement...........................................     2
Prepared statement of Senator Lott...............................    49

                               Witnesses

Dole, Hon. Elizabeth, U.S. Senator from North Carolina...........     3
Frankel, Hon. Emil H., Assistant Secretary for Transportation 
  Policy, 
  Department of Transportation...................................    35
    Prepared statement...........................................    36
    Biographical information.....................................    37
Lieberman, Hon. Joseph I., U.S. Senator from Connecticut, 
  prepared 
  statement......................................................     4
McQueary, Dr. Charles E., Advisor, Department of Homeland 
  Security.......................................................     5
    Prepared statement...........................................     6
    Biographical information.....................................     8
Shane, Hon. Jeffrey N., Under Secretary for Policy-Designate, 
  Department of Transportation...................................    14
    Prepared statement...........................................    15
    Biographical information.....................................    17
Sturgell, Robert A., Senior Counsel to the Administrator, Federal 
  Aviation 
  Administration.................................................    26
    Prepared statement...........................................    27
    Biographical information.....................................    28

                                Appendix

Response to written questions submitted by Hon. John McCain to 
  Dr. Charles E. McQueary........................................    59
Response to written questions submitted to Robert A. Sturgell by:
    Hon. Ernest F. Hollings......................................    61
    Hon. Frank Lautenberg........................................    62
    Hon. John D. Rockefeller IV..................................    60

 
   NOMINATIONS TO THE DEPARTMENT OF HOMELAND SECURITY, DEPARTMENT OF 
          TRANSPORTATION, AND FEDERAL AVIATION ADMINISTRATION

                              ----------                              


                         TUESDAY, MARCH 4, 2003

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10 a.m., in room 
SR-253, Russell Senate Office Building, Hon. John McCain, 
Chairman of the Committee, presiding.

            OPENING STATEMENT OF HON. JOHN McCAIN, 
                   U.S. SENATOR FROM ARIZONA

    The Chairman. Good morning. I am pleased to convene this 
hearing to consider the nominations of Dr. Charles McQueary, to 
be Under Secretary of Science and Technology at the Department 
of Homeland Security (DHS); Jeffrey Shane, to be Under 
Secretary of Transportation for Policy at the Department of 
Transportation (DOT); Emil Frankel, to be Assistant Secretary 
for Transportation Policy at DOT; and Robert Sturgell, to be 
Deputy Administrator at the Federal Aviation Administration 
(FAA). I am hopeful the Committee and full Senate can work to 
move these nominations quickly.
    The positions for which these individuals have been 
nominated are important. The Department of Homeland Security 
faces a tremendous task in ensuring the safety of the United 
States. Numerous agencies have been moved under the 
Department's umbrella and it is essential that experienced 
personnel be in place to effectuate the goals of DHS. Dr. 
McQueary has been nominated to head the research and 
development program at DHS, and will be in charge of developing 
countermeasures to chemical, biological, radiological, nuclear, 
and other emerging terrorist threats.
    The Department of Transportation has a very busy schedule 
this year, with the reauthorization of the various FAA programs 
and the reauthorization of the highway funding legislation. The 
Administration and Congress face a significant task, given the 
enormity of both these multibillion programs. Confirmation of 
Mr. Shane and Mr. Frankel will ensure a breadth of knowledge 
and provide needed continuity that will be essential to 
developing sound transportation policy on behalf of the 
Administration.
    Finally, should Mr. Sturgell be confirmed, the FAA will 
have its first Deputy Administrator in almost 6 years. Given 
the many-faceted functions of the FAA, it is essential that the 
Administrator have a deputy in place to assist her in carrying 
out her many duties to promote a safe and efficient air 
transportation system. I have been critical of the fact that 
this position has not been filled for such an extended period, 
and am pleased we are moving forward on this nomination.
    I would like to take this opportunity to thank the nominees 
for being here today. I know your nomination is a great honor, 
and that your families are very proud. I want to welcome all of 
you and your family members who are with you in the audience 
today. We will have a number of questions for you, and I look 
forward to hearing from you to learn about your views.
    [The prepared statement of Senator McCain follows:]

                Prepared Statement of Hon. John McCain, 
                       U.S. Senator from Arizona

    I am pleased to convene this hearing to consider the nominations of 
Dr. Charles McQueary, to be Under Secretary of Science and Technology 
at the Department of Homeland Security (DHS); Jeffrey Shane, to be 
Under Secretary of Transportation for Policy at the Department of 
Transportation (DOT); Emil Frankel to be Assistant Secretary for 
Transportation Policy at DOT; and Robert Sturgell to be Deputy 
Administrator at the Federal Aviation Administration (FAA). I am 
hopeful the Committee and full Senate can work to move these 
nominations quickly.
    The positions for which these individuals have been nominated are 
important. The Department of Homeland Security faces a tremendous task 
in ensuring the safety of the United States. Numerous agencies have 
been moved under the Department's umbrella and it is essential that 
experienced personnel be in place to effectuate the goals of DHS. Dr. 
McQueary has been nominated to head the research and development 
program at DHS and will be in charge of developing countermeasures to 
chemical, biological, radiological, nuclear, and other emerging 
terrorist threats.
    The Department of Transportation has a very busy schedule this year 
with the reauthorization of the various FAA programs and the 
reauthorization of the highway funding legislation. The Adminstration 
and Congress face significant tasks given the enormity of both of these 
multi-billion dollar programs. The confirmations of Mr. Shane and Mr. 
Frankel will ensure a breadth of knowledge and provide needed 
continuity that will be essential to developing sound transportation 
policy on behalf of the Administration.
    Finally, should Mr. Sturgell be confirmed, the FAA will have its 
first Deputy Adminstrator in almost six years. Given the many-faceted 
functions of the FAA, it is essential that the Administrator have a 
Deputy in place to assist her in carrying out her many duties to 
promote a safe and efficient air transportation system. I have been 
critical of the fact that this position has not been filled for such an 
extended period and am pleased that we are moving forward on this 
nomination.
    I would like to take this opportunity to thank the nominees for 
being here today. I know your nomination is a great honor, and that 
your families are very proud. I want to welcome you all and invite you 
to introduce any family members who are with you in the audience today.
    We will have a number of questions to ask each of you today and I 
look forward to hearing from you to learn more about your philosophies. 
After we hear from any of my colleagues who may have opening comments, 
I will first call Dr. McQueary.

    The Chairman. First, I would like to call on Dr. McQueary. 
Welcome, Dr. McQueary. Please proceed. Obviously, all of your 
written statements will be made a part of the record.
    I am sorry, Senator Dole just came. Senator, would you join 
us to make any comment you would like to make? Welcome, Senator 
Dole, and thank you for coming this morning on behalf of this 
fine nominee.

               STATEMENT OF HON. ELIZABETH DOLE, 
                U.S. SENATOR FROM NORTH CAROLINA

    Senator Dole. Thank you very much, Mr. Chairman. It is a 
pleasure today to introduce President Bush's nominee for the 
position of Under Secretary for Science and Technology at the 
Department of Homeland Security, Dr. Charles E. McQueary. Dr. 
McQueary, known as Chuck to friends, is uniquely qualified to 
serve as the Under Secretary for Science and Technology due to 
his extensive background and personal experience, and I am sure 
that you and the Committee are aware of his very impressive 
resume, and he served first at AT&T Bell Laboratories as 
department head, and then director, and then AT&T Lucent 
Technologies vice president, then president from 1987 to 1997, 
and then as president, General Dynamics Advanced Technology 
Systems from 1997 to 2002.
    America was built and made strong by people who believed in 
the potential of scientific and technological innovation. As we 
confront new realities associated with the war on terror, it is 
clear that America must once again rely on its best minds and 
its innovative spirit to help protect our communities from the 
grim possibilities of terrorism within our own borders. I 
believe Dr. McQueary can help lead us toward the kinds of 
policies that fully capture our scientific and technological 
capabilities.
    One of the tasks of the Under Secretary for Science and 
Technology is ensuring that we will have the technology in 
place to prevent the importation of nuclear materials and 
detecting and preventing chemical or biological attacks. Dr. 
McQueary is a leader in the field of advanced technology 
systems. His background in the different facets of science and 
technology, from academic and research to development and 
deployment of new technology, makes him the clear choice for 
this position. These assets, combined with his demonstrated 
leadership qualities, his abilities to work within budgets, and 
his dedication to public service, are truly what make him 
uniquely qualified for the position.
    In addition, Dr. McQueary and his wife, Cheryl, have been 
invaluable members of our community in Greensboro, North 
Carolina, with a commitment to charitable work and educational 
opportunities for our children. Dr. McQueary is joined today by 
his wife and strong partner, Cheryl, who spent many successful 
years with Lucent Technologies and now leads an active civic 
life while serving on numerous boards and committees. I know 
both to be dedicated to whatever tasks they undertake.
    He is also accompanied by his daughter, Joanna, son-in-law 
Donnie, and granddaughter Carley, and it is my privilege, Mr. 
Chairman, to present Dr. Charles McQueary.
    The Chairman. Thank you very much, Senator Dole. We thank 
you for being here on behalf of this fine nominee, and we know 
you have other things on your busy schedule, and we thank you 
for stopping by. Thank you, Senator Dole.
    Senator Dole. Thank you.
    The Chairman. Before we move to Dr. McQueary, I would like 
to submit for the record a statement in support of the 
nomination of Emil Frankel to Assistant Secretary of 
Transportation from Senator Joe Lieberman on your behalf, Mr. 
Frankel. Without objection, that statement will be made a part 
of the record.
    [The prepared statement of Senator Lieberman follows:]

            Prepared Statement of Hon. Joseph I. Lieberman, 
                     U.S. Senator from Connecticut

    Mr. Chairman and members of the Committee, I am pleased to come 
before you today to speak on behalf of the nomination of a longtime 
colleague of mine, Emil H. Frankel. My office and I have had the 
opportunity to work closely with Emil over the years on a wide range of 
transportation policy questions. My experiences with Emil have led me 
to believe he is eminently qualified to serve as the Assistant 
Secretary of Transportation Policy and it is with great pleasure that I 
come before you to strongly support his nomination.
    Since March of last year, Mr. Frankel has worked in the Department 
of Transportation as the Assistant Secretary for Transportation Policy, 
the position for which he now appears before you once again. During 
this past year, Emil has illustrated his talent and capabilities while 
working under the auspices of Transportation Secretary Norman Mineta.
    I first worked closely with Mr. Frankel in his capacity as 
Commissioner of the Connecticut Department of Transportation from 1991-
1995. Throughout his tenure with the Connecticut DOT, Emil was a great 
source of innovative ideas and approaches. As the chief executive 
officer of the state's consolidated transportation agency of over 4,000 
employees, he was responsible for an annual budget of over $1 billion. 
He was also responsible for the construction, rehabilitation, 
maintenance and management of a truly multi-modal transportation 
system. This system included Connecticut's state system of highways and 
bridges, bus and commuter rail services, and airports.
    Mr. Frankel additionally served as Chairman of the Standing 
Committee on the Environment of the American Association of State 
Highway and Transportation Officials (AASHTO) and Vice Chairman of the 
I-95 Corridor Coalition. Throughout his involvement with transportation 
issues, in Connecticut and beyond, Mr. Frankel brought to his various 
positions in-depth understanding of Intelligent Transportation System 
technologies, inter-city rail services, transportation planning and 
managing, and transportation and air quality.
    From my position on the Environment and Public Works committee I 
had the opportunity to work on ISTEA legislation with Emil, who 
provided my office with much thoughtful guidance. He was a strong 
supporter of the innovative features in the bill, including its focus 
on balancing environmental concerns with those of transportation 
infrastructure. After leaving the Connecticut Department of 
Transportation he continued to follow these issues through projects at 
Harvard, Yale, and the University of Connecticut where he has taught 
and written on the issues of transportation planning, and 
transportation and the environment.
    After leaving the Connecticut Department of Transportation, Mr. 
Frankel spent time as an advisor to the Massachusetts Port Authority on 
proposals to reorganize state government and worked on a major 
transportation Joint Feasibility Study for the Massachusetts Turnpike 
Authority and Massachusetts Highway Department. Furthermore, he served 
as counsel to the New York City Partnership and Chamber of Commerce 
regarding Federal surface transportation legislation and he advised the 
Delaware Department of Transportation. I believe Mr. Frankel has a 
strong grasp of transportation, including some exciting areas for 
transportation innovations, and he truly understands state and local 
transportation needs.
    Mr. Frankel also has very strong academic credentials; he graduated 
Phi Beta Kappa from Wesleyan University and was a Fulbright Scholar. 
From 1981 to 1997 he served as a Trustee to Wesleyan. He received his 
law degree from Harvard University Law School and, in 1995, was a 
Fellow at Harvard's John F. Kennedy School of Government. At the 
University of Connecticut, he was an adjunct professor. Mr. Frankel has 
also been a fellow at the Yale School of Management and a Senior Fellow 
at the Yale School of Forestry and Environmental Studies.
    When not occupied by teaching and the law, Emil has also found time 
to serve on a number of non-profit boards, including the National Trust 
for Historic Preservation. While Emil's credentials overwhelmingly 
speak for themselves and demonstrate his high qualification to continue 
serving as the Assistant Secretary of Transportation, I would like to 
emphasize my own personal support. Emil's experience in the public and 
private sector, as well as in academia, allow him to understand the 
complex nature and importance of transportation in today's economy and 
society. He is an innovator and a thinker with great understanding of 
state and local transportation needs. I can think of no better person 
for the job. I hope you will confirm him quickly and I thank the Chair 
and Committee members for their time.
    Thank you.

    The Chairman. Dr. McQueary, please proceed.

        STATEMENT OF DR. CHARLES E. McQUEARY, ADVISOR, 
                DEPARTMENT OF HOMELAND SECURITY

    Dr. McQueary. Thank you, Mr. Chairman. I have submitted a 
more extensive statement, but I would like to excerpt a few 
points from that statement for you this morning. First of all, 
it is an honor for me to appear before you today regarding my 
nomination as Under Secretary for Science and Technology in the 
new Department of Homeland Security. I am honored to have been 
nominated for this position by the President, and I thank him 
for his confidence and support.
    I want to thank Senator Dole, even though she has left at 
this point, for being here this morning, and thank her for her 
kind remarks. North Carolina is very fortunate to have a person 
of her distinction as one of its Senators.
    Now, more than ever, our Nation needs a systematic national 
effort to harness science and technology in support of homeland 
security. The United States possesses a vast, multidisciplinary 
science and technology research development sector made up of 
companies, universities, institutes, and Government labs of all 
sizes. The Science and Technology Directorate will focus this 
national capability on homeland defense by serving as the 
national lead for homeland security research and development 
and by working with private and public entities to assure an 
R&D effort of sufficient size and scope to counter the threats 
of modern terrorism.
    Creating and guiding such an effort is a major undertaking. 
I believe my education and business background provide me with 
a strong base for leading the Science and Technology 
Directorate should I be confirmed. As an engineer and a senior 
executive, I have led large research and development businesses 
that designed, manufactured, installed and supported a wide 
variety of high-technology solutions for national security and 
commercial customers. I understand both the size and the scope 
of work this effort will require.
    If confirmed, I will base my plans on the Department's 
science and technology priorities articulated in the 
President's National Strategy for Homeland Security and on the 
Homeland Security Act. I would engage the industrial base of 
our Nation through the Homeland Security Advanced Research 
Project Agency, an agency that will solicit innovative ideas 
from private and public members of the industry and work to 
develop and demonstrate cutting-edge, high-payoff projects that 
fundamentally improve our ability to protect the United States 
and our citizens.
    The Science and Technology Directorate and HSARPA in 
particular will engage in rapid prototyping, testing, and 
evaluation of technologies that are off-the-shelf, or nearly 
so, and put them in the hands of appropriate users to support 
specific homeland security requirements.
    The S&T Directorate will work with other Federal agencies 
and departments to develop and promulgate standards for 
equipment to be purchased by Federal agencies and State and 
local governments for specific homeland security purposes. A 
key capability of the Science and Technology Directorate will 
be a national laboratory for homeland security, which will 
consist of components from several Department of Energy 
laboratories staffed by a multidisciplinary cadre of scientists 
and engineers who make it their business to understand the 
various facets of homeland security, establish relationships 
with relevant stakeholders, and provide the core internal 
research and systems engineering expertise for the new 
Department's activities.
    All of these capabilities will ultimately be focused on 
providing the Department of Homeland Security, State, local, 
and other Federal agencies with new systems and technologies 
for performing their missions better and making our Nation 
safer. As our customers, they will help define the problems we 
will need to address, and the parameters for deciding our 
success.
    It would be my job to provide a science and technology 
enterprise that is up to this challenge. I will focus on the 
creation of a disciplined and efficient systems engineering 
process that delivers the appropriate homeland security 
capabilities as efficiently as possible and when and where they 
are needed. Should the Senate confirm my appointment, I would 
welcome the opportunity to work with the Congress and this 
Committee in particular to accomplish the important mission of 
homeland security before us.
    Thank you for your consideration of my nomination, and for 
the honor of appearing before you today. I would be happy to 
answer any questions that you might have.
    [The prepared statement of Dr. McQueary follows:]

        Prepared Statement of Dr. Charles E. McQueary, Advisor, 
                    Department of Homeland Security

    Chairman McCain, Senator Hollings and distinguished Members of the 
Committee, it is an honor to appear before you today regarding my 
nomination as Under Secretary for Science and Technology in the 
Department of Homeland Security. I am most honored to have been 
nominated for this position by the President, and I thank him for his 
confidence and support.
    Senator Dole, thank you for being here this morning and thank you 
for your kind remarks.
    This past Saturday, under the very able leadership of Secretary 
Ridge and Deputy Secretary England, the Department assumed operational 
control of the majority of agencies transferred to DHS under the 
Homeland Security Act. This marked the passage of a major milestone in 
the effort to combine these agencies and re-focus their efforts to 
secure and protect the Homeland. Included in this transfer were 
agencies with inherent research and development capabilities, all of 
which the Science and Technology Directorate will now oversee.
    Now, more than ever, our nation needs a systematic national effort 
to harness Science and Technology in support of Homeland Security. 
Today, the United States of America possesses a vast Science and 
Technology enterprise. Companies, Universities, Institutes and 
Government Labs of all sizes conduct Research and Development across a 
very broad range of disciplines.
    The Department of Homeland Security, and specifically the Science 
and Technology Directorate, will serve to focus this national 
capability on the defense of our homeland. It will serve as the 
national lead for homeland security Research and Development, and it 
will work with private and public entities to assure an R&D effort of 
sufficient size and scope to counter the threats of modern terrorism.
    Creating and guiding such an effort is a major undertaking. My 
education and business background provide me a strong base for leading 
the Science and Technology Directorate, should I be confirmed. As an 
engineer and a senior executive, I led a large Research and Development 
business that designed, manufactured, installed and supported a wide 
variety of high technology solutions for national security and 
commercial customers. I understand both the size and scope of work this 
effort will require.
    If confirmed, I will base my plans for the Department's Science and 
Technology work on the priorities articulated in the President's 
National Strategy for Homeland Security.
    As identified in the National Strategy, and as provided for in the 
founding legislation of the Department of Homeland Security, I would 
engage the industrial base of our nation through the Homeland Security 
Advanced Research Projects Agency. It will be the role of this Agency 
to solicit innovative ideas from private and public members of the 
industry. Once identified, the agency will work to develop and 
demonstrate them for appropriate application. The focus will be on 
cutting edge, high payoff projects that fundamentally improve our 
ability to protect the United States and our citizens.
    The Science and Technology Directorate, and HSARPA in particular, 
will engage in rapid prototyping, testing and evaluation of 
technologies that are ``off the shelf', or nearly so, and put them in t 
he h ands of appropriate users to support specific homeland security 
requirements. To accomplish this, the Science and Technology staff will 
work with the Technical Support Working Group that is managed by the 
Departments of State and Defense. This group has for many years 
accomplished this task for our armed forces.
    In addition, should I be confirmed, I would foster pilot 
deployments of the systems and technologies developed by the Science 
and Technology Directorate to refine these capabilities and develop 
operational concepts for direct use.
    The Science and Technology Directorate will work with other 
agencies, such as the National Institute of Science and Technology, and 
Departments, such as Justice, to create a capability for the 
development and promulgation of standards for equipment to be purchased 
by federal agencies and state and local governments for specific 
homeland security purposes. To do this, the S&D Directorate will create 
reference standards, develop certification protocols, and then 
encourage the formation of certification labs that could test this 
specific equipment. This process would support not only the agencies 
that purchase this equipment, but also the businesses that develop and 
produce these capabilities.
    In the founding legislation there is a general mandate to support 
our national leadership in Science and Technology. I feel it 
particularly important to insure that our best minds have the 
opportunity to enter careers and perform research in fields important 
to the homeland security R&D enterprise. To that end, the Science and 
Technology Directorate will fund postgraduate and post doctoral 
fellowship programs and create scholarships in support of this mandate.
    A key capability for the Science and Technology Directorate is a 
National Laboratory for Homeland Security. This laboratory will consist 
of components from several of the Department of Energy laboratories, 
staffed by a multidisciplinary cadre of scientists and engineers who 
make It their business to understand the various facets of homeland 
security; establish relationships with relevant stakeholders; and 
provide the core internal research and systems engineering expertise 
for the new Department's activities.
    The Science and Technology Directorate will need to develop and 
maintain core technical expertise in life sciences research. We will 
exercise our responsibility for assessing the biological, chemical and 
radiological threat and our nation's ability to respond to them with 
appropriate medical countermeasures being developed at the Department 
of Health and Human Services.
    Should I be confirmed, I would work in close collaboration with the 
leadership at DHHS to assure a robust effort in this area as well as 
the other Departments and Agencies I have already mentioned. I will 
also work closely with the Department of Agriculture to protect our 
agricultural infrastructure from terrorist activities with appropriate 
measures.
    All of these capabilities will ultimately be focused on providing 
the Department of Homeland Security, and state, local, and other 
federal agencies with new systems and technologies for performing their 
missions better and making our nation safer. As our customers they will 
help define the problems we will need to address and the parameters for 
defining our success.
    It will be my job to provide a Science and Technology enterprise 
that is up to this challenge. I will focus on the creation of a 
disciplined and efficient systems engineering process that delivers the 
appropriate homeland security capabilities as efficiently as possible, 
when and where they are needed.
    Should the Senate confirm my appointment, I would welcome the 
opportunity to work with the Congress, and this Committee in 
particular, to accomplish the important mission of homeland security 
before us. Thank you for your consideration of my nomination, and for 
the honor of appearing before you today.
    I am happy to answer any questions you may have.

                                 ______
                                 
                      A. BIOGRAPHICAL INFORMATION

    1. Name: Charles Everette McQueary
    Nickname: Chuck
    2. Position to which nominated: Under Secretary for Science and 
Technology in the Department of Homeland Security
    3. Date of nomination: February 14, 2003
    4. Address: (Information not made available to the public).
    5. Date and place of birth: Sept. 1, 1939; Gordon, TX.
    6. Marital status: (Include maiden name of wife or husband's name.) 
Married to Cheryl Lee McQueary
    Wife's maiden name: Bath
    7. Names and ages of children: Joanna Lea Gossett, Age: 40.
    8. Education: (List secondary and higher education institutions, 
dates attended, degree received, and date degree granted.)
    Gordon High School 1954-1958. Diploma May 1958
    University of Texas at Austin 1958-1966; BS Mechanical Engineering 
June 1962; MS Mechanical Engineering August 1964; PhD Engineering 
Mechanics August 1966
    9. Employment record: (List all jobs held since college, including 
the title or description of job, name of employer, location of work, 
and dates of employment.)
    General Dynamics--Consultant: 2002
    General Dynamics--President, Advanced Technology Systems, 1997-2001
    Lucent Technologies--President, Advanced Technology Systems 1995-
1997
    AT&T--President, Advanced Technology Systems 1993-1995
    AT&T--Vice President, Navy Systems 1987-1993
    AT&T--Bell Laboratories:
    Director, Technical Staff 1983-1987
    Department Head, Technical Staff 1971-1983
    Supervisor, Technical Staff 1969-1971
    Member of Technical Staff 1966-1969
    10. Government experience: (List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.)
    (a) Advisor to Department of Homeland Security (part time December 
2002, January 2003)
    (b) Consultant to Department of Homeland Security January 25, 2003 
to present
    11. Business relationships: (List all positions held as an officer, 
director, trustee, partner, proprietor, agent, representative, or 
consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational or other institution.)
    United Way of Greater Greensboro, 1500 Yanceyville Street 
Greensboro, NC 27405; Board Member since 1993; Board Chair 2002/2003
    Action Greensboro, 317 South Elm Street, Greensboro, NC 27401; 
Chair of Action Greensboro Public Education Initiative (since 4/01)
    North Carolina A&T University, 1601 East Market Street, Greensboro, 
NC 27411 Member Board of Trustees (since 1998 est.)
    World Trade Center of North Carolina, 118 South Person Street, 
Raleigh, NC 27601 Board Member (since 11/01)
    Leadership North Carolina, 711 Hillsborough Street, Raleigh, NC 
27603; Board Member (Since 2001 est.)
    Guilford County Educational Network, c/o Community Foundation of 
Greater Greensboro, 100 South Elm Street, Greensboro, NC 27401; Board 
Member (since 9/02)
    National Defense Industrial Association, 2111 Wilson Blvd., #400, 
Arlington, VA 22201; Member until 12/01
    Navy League, 2300 Wilson Blvd., Arlington, VA 22201; Member until 
12/01
    Naval Submarine League, P.O. Box 1146, Annandale, VA 22003 (this 
may be an old address); Member until 12/01
    Greensboro Chamber of Commerce, 330 E. Lindsay Street, Greensboro, 
NC 27401; Member until 2001 (est.)
    A&B Investments, LTD, P.O. Box 77764, Greensboro, NC 27417; 
Technical Manager for ``Vette-N-Vestments''. A Corvette Market Letter. 
(since 3/02 est.) This is an unpaid position. Resigned 1/03
    12. Memberships: (List all memberships and offices held in 
professional, fraternal, scholarly, civic, business, charitable and 
other organizations.)
    Honor societies: Phi Eta Sigma; Pi Tau Sigma; Tau Beta Pi; Phi 
Kappa Phi
    13. Political affiliations and activities:


----------------------------------------------------------------------------------------------------------------
            Contributor                   Occupation            Date           Amount            Recipient
----------------------------------------------------------------------------------------------------------------
McQueary, Cheryl..................  Retired..............      11/19/2002            $535  North Carolina
                                                                                            Republican Executive
                                                                                            Cmte.
McQueary, Charles.................  General Dynamics ATS.       6/25/2002           1,000  Dole, Elizabeth
McQueary, Charles.................  General Dynamics ATS.       6/25/2002           1,000  Dole, Elizabeth
McQueary, Charles.................  General Dynamics ATS.       6/11/2002           1,000  Dole, Elizabeth
McQueary, Cheryl..................  Retired..............        4/4/2002           1,000  Dole, Elizabeth
McQueary, Cheryl..................  Retired..............        4/4/2002           1,000  Dole, Elizabeth
McQueary, Cheryl..................  Retired..............       3/15/2002           1,000  Dole, Elizabeth
McQueary, Cheryl..................  Retired..............        1/6/2001           1,000  Dole, Elizabeth
McQueary; Chuck...................  General Dynamics ATS.        1/6/2001           1,000  Dole, Elizabeth
McQueary, Cheryl..................  Self/                       5/31/2000           1,000  Bush, George W.
                                     Telecommunications.
McQueary, Cheryl..................  Lucent Technologies..        6/8/1999           1,000  Dole, Elizabeth
McQueary, Charles.................  General Dynamics             6/9/1998             500  Faircloth, Lauch
                                     Advanced Tech.
McQueary, Charles.................  Lucent Tech..........        4/8/1997           1,000  Coble, Howard
McQueary, Charles                   AT&T.................      10/20/1992           1,000  Hefner, W G ``Bill''
----------------------------------------------------------------------------------------------------------------

    14. Honors and awards: (List all scholarships, fellowships, 
honorary degrees, honorary society memberships, military medals and any 
other special recognitions for outstanding service or achievements.)
    (a) NASA Fellowship for Graduate Studies 1962-1966
    (b) Tau Beta Pi--Outstanding Senior Engineer at the University of 
Texas 1962
    (c) Distinguished Engineering Graduate, University of Texas--1997
    (d) Bronze Medal from American Defense Preparedness Association 
1996 (est.)
    (e) See item 12
    15. Published writings: (List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.)
    a. Nonlinear Periodic Modes of Oscillation of Elastic Continua 
(technical paper, 1968);
    b. Oscillations of a Circular Membrane on a Nonlinear Elastic 
Foundation (technical paper, 1967);
    c. Bessel-Function Integrals Needed for Two Classes of Physical 
Problems (technical paper, 1967);
    Periodic Oscillations of a Class of Non-Autonomous Non-Linear 
Elastic Continua (technical paper, 1967);
    e. The SPARTAN Missile--A Major Component of the Sentinel System 
(technical paper, 1968)
    f. Recipe for Success in Defense Industry: ``Acquire or Be 
Acquired'', (National Defense article, October 1998)
    g. Industry Interview (Military Information Technology, Vol. 4, 
Issue 5)
    16. Speeches: None
    17. Selection: (a) Do you know why you were selected for the 
position to which you have been nominated by the President?
    I believe I was selected because of my scientific training and 
experience in a Technology based industry. My responsibilities have 
included research, development, test, evaluation, manufacturing and 
fielding of systems for the Government and Commercial Sectors. My 
capabilities are directly applicable to the role of Science and 
Technology, in the Department of Homeland Security.
    (b) What in your background or employment experience do you believe 
affirmatively qualifies you for this particular appointment?
    Since beginning my career in 1966 at AT&T Bell Laboratories, I have 
both worked in and led organizations focused on applying leading edge 
technologies in defense and commercial applications. I have led 
organizations with more than 1,000 people and sales of almost $400M.

                   B. FUTURE EMPLOYMENT RELATIONSHIPS

    1. Will you sever all connections with your present employers, 
business firms, business associations, or business organizations if you 
are confirmed by the Senate?
    Yes
    2. Do you have any plans, commitments, or agreements to pursue 
outside employment, with or without compensation, during your service 
with the government? If so, explain.
    No
    3. Do you have any plans, commitments, or agreements after 
completing government service to resume employment:, affiliation, or 
practice with your previous employer, business firm, association, or 
organization?
    No
    4. Has anybody made a commitnnent to employ your services in any 
capacity after you leave government service?
    No
    5. If confirmed, do you expect to serve out your full term or until 
the next Presidential election, whichever is applicable?
    Yes

                   C. POTENTIAL CONFLICTS OF INTEREST

    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients, or customers.
    I receive a monthly pension from the General Dynamics Corporation 
as a part of my retirement on December 31, 2002. My wife receives a 
retirement pension from Lucent Technologies.
    2. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated.
    I have attached a memorandum for Designated Agency Ethics Official 
Department of Homeland Security which describes the steps that I intend 
to take to avoid any actual or apparent conflict of interest.
    3. Describe any business relationship, dealing, or financial 
transaction which you have had during the last 10 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated?
    None
    4. Describe any activity during the past 10 years in which you have 
engaged for the purpose of directly or indirectly influencing the 
passage, defeat, or modification of any legislation or affecting the 
administration and execution of law or public policy.
    None
    5. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items. (Please provide a copy of any trust or other agreements.)
    The letter attached to item C-2 outlines my planned actions.
    6. Do you agree to have written opinions provided to the Committee 
by the designated agency ethics officer of the agency to which you are 
nominated and by the Office of Government Ethics concerning potential 
conflicts of interest or any legal impediments to your serving in this 
position?
    Yes

                            D. LEGAL MATTERS

    1. Have you ever been disciplined or cited for a breach of ethics 
by, or been the subject of a complaint to any court, administrative 
agency, professional association, disciplinary committee, or other 
professional group? If so, please explain.
    No
    2. Have you ever been investigated, arrested, charged, or held by 
any Federal, State, or other law enforcement authority for violation of 
any Federal, State, county, or municipal law, regulation, or ordinance, 
other than for a minor traffic offense? If so, please explain.
    No
    3. Have you or any business of which you are or were an officer 
ever been involved as a party in an administrative agency proceeding or 
civil litigation? If so, please explain.
    No
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? If so, please explain.
    No
    5. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be disclosed in 
connection with your nomination.
    None

                     E. RELATIONSHIP WITH COMMITTEE

    1. Will you ensure that your department/agency complies with 
deadlines for information set by congressional committees?
    Yes
    2. Will you ensure that your department/agency does whatever it can 
to protect congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures?
    Yes
    2. Will you cooperate in providing the committee with requested 
witnesses, including technical experts and career employees, with 
firsthand knowledge of matters of interest to the Committee?
    Yes
    4. Please explain how if confirmed, you will review regulations 
issued by your department/agency, and work closely with Congress, to 
ensure that such regulations comply with the spirit of the law passed 
by Congress.
    I will endeavor to learn from Senate and House staff the intent of 
Congress as well as review the legislative record. Any proposed 
regulations arising from Science and Technology (S&T) agencies would be 
reviewed by policy experts within the S&T directorate and DHS to assure 
compliance with the intent of the legislation.
    5. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so?
    Yes

                  F. GENERAL QUALIFICATIONS AND VIEWS

    1. How does your previous professional experience and education 
qualify you for the position for which you have been nominated?
    Throughout my career I have worked in and led leading edge 
technical organizations ranging in size from small to more than 1,000 
people and sales of almost $400M. Cost control, schedules and 
performance have always been paramount in my business approach to 
program execution.
    2. Why do you wish to serve in the position for which you have been 
nominated?
    Having grown up in a very small town in Texas (Gordon), I am truly 
indebted to this country for the opportunities that I have had. This is 
my chance to give something back in an area of great importance. The 
opportunity to construct the Science and Technology Directorate to be 
responsive to the needs of the Department of Homeland Security and our 
country is enormously exciting and challenging, and I have the 
experience in building new organizations to do this well.
    3. What goals have you established for your first two years in this 
position, if confirmed?
    First, and foremost is the assembly of a highly skilled technical 
and business management team to operate the Science and Technology 
Directorate. Second, we must gain rapid knowledge of the technologies 
that are currently available in our national and federal labs, 
universities and private industry to be brought to use in a coherent 
and effective manner to support Homeland Security. Third, we must 
stimulate both government and private investments in forward looking 
technologies to be ready to meet threats from enemies who will 
continually become more sophisticated in their approaches to harming 
our country. Fourth, we must have quantifiable metrics to show how well 
we are executing our responsibilities.
    4. What skills do you believe you may be lacking which may be 
necessary to successfully carry out this position? What steps can be 
taken to obtain those skills?
    I will need to become more versed in the technical aspects of 
biological and radiological sciences. My approach to bolstering these 
skills is to assure that members of the Science and Technology 
workforce have such capabilities. Also, I have been having and will 
continue to have technical briefings from experts in these areas.
    5. Please discuss your philosophical views on the role of 
government. Include a discussion of when you believe the government 
should involve itself in the private sector, when society's problems 
should be left to the private sector, and what standards should be used 
to determine when a government program is no longer necessary.
    I believe that the role of government should be a limited one, 
based on the responsibilities laid out in our Constitution. Government 
is better positioned to perform certain necessary functions that the 
private sector either can not or is not willing to perform, for the 
greater public good. National defense and homeland security are clearly 
government functions. Government also enforces safety or health 
standards in the public interest. Yet the government's success in these 
missions involves partnership with the private sector. The vast 
majority of the nation's infrastructure is owned or operated privately, 
so government needs to consider the impact of its actions on the 
private sector entities involved. Further, by leveraging competitive 
market forces and the expertise of private partners, government is able 
to utilize innovative solutions and more efficiently allocate its 
resources.
    In addressing society's problems, volunteer and charitable 
organizations are often better positioned than government to implement 
solutions and meet the community's needs effectively. The government 
needs to step in, again, when the private sector is unable to take on a 
particular problem, such as unemployment assistance and social 
security. Yet, government programs should be assessed on a routine 
basis to ensure they are meeting society's needs effectively and that 
conditions have not changed. I am a firm believer in establishing 
sound, quantifiable metrics to measure how well programs are meeting 
their requirements.
    6. Describe the current mission, major programs, and major 
operational objectives of the department/agency to which you have been 
nominated.
    The Science and Technology Directorate will conduct, stimulate, and 
enable, research, development, test, evaluation, and timely transition 
of homeland security capabilities to federal, state and local 
operational end-users. The major programs will be focused on providing 
new capabilities to counter chemical, biological, radiological, 
nuclear, explosive attacks in the United States; develop standards for 
homeland security technologies; anticipate emerging threats; and 
enhance the conventional missions of Department.
    The major operational objectives will be to partner with end-users 
to identify requirements and field capabilities to counter threats and 
enhance mission operations; engage government, academic and private 
sectors in innovative research, development, test, evaluation, and 
rapid prototyping of technologies and systems; execute a rapid, 
efficient, and disciplined process for systems engineering and 
development; provide the nation with an enduring research and 
development capability dedicated to homeland security.
    7. What do you believe to be the top three challenges facing the 
department/agency and why?
    (a) Assembling a top notch team of professionals and integrating 
the various components of the Science and Technology directorate 
effectively.
    (b) Identifying and putting existing, relevant technologies to best 
use while dispensing with those which are not relevant.
    (c) Assuring that we have obtained the right requirements and 
specifications from the other Homeland Security Directorates to begin 
technology development, and integration.
    8. In reference to question number six, what factors in your 
opinion have kept the department/agency from achieving its missions 
over the past several years?
    The Science and Technology Directorate is a new agency, and so it 
has not yet had the opportunity to meet, or fail to meet, performance 
goals.
    9. Who are the stakeholders in the work of this department/agency?
    Stakeholders include the other operational directorates in Homeland 
Security, employees of the agencies and laboratories transferring in 
private sector technology corporations, universities, federal, state 
and local governments, Congress, and of course, the American people.
    10. What is the proper relationship between the position to which 
you have been nominated, and the stakeholders identified in question 
number nine?
    I view S&T's stakeholders as its client base. An appropriate 
relationship would entail open dialog and frequent communication with 
stakeholders as S&T's policies are developed and programs implemented. 
The Science and Technology Directorate will be accountable to the 
American people through oversight by the Homeland Security Department 
and the Congress.
    11. The Chief Financial Officers Act requires all government 
departments and agencies to develop sound financial management 
practices.
    (a) What do you believe are your responsibilities, if confirmed, to 
ensure that your department/agency has proper management and accounting 
controls?
    I am a firm believer in, and a practitioner of, sound financial 
management systems. Therefore, I will follow the practices established 
by the Under Secretary for Management in consultation with the 
Secretary, should I be confirmed as Under Secretary.
    (b) What experience do you have in managing a large organization?
    I have run a business exceeding 1,000 people and approaching $400M 
in annual sales. For this, I had full financial responsibility and 
accountability.
    12. The Government Performance and Results Act requires all 
government departments and agencies to identify measurable performance 
goals and to report to Congress on their success in achieving these 
goals.
    (a) What benefits, if any, do you see in identifying performance 
goals and reporting on progress in achieving those goals?
    I believe that having meaningful performance goals and reporting on 
them will be essential for ensuring that the mission of the Science and 
Technology Directorate is accomplished. Goals and reporting 
requirements ensure that successful practices can be identified and 
emulated, and potential deficiencies can be identified and corrected 
before they become large problems.
    (b) What steps should Congress consider taking when a department/
agency fails to achieve its performance goals? Should these steps 
include the elimination, privatization, downsizing, or consolidation of 
departments and/or programs?
    Performance goals should be continually evaluated for achievability 
and relevance. If both of these are reasonable, then corrective 
measures, which could include added oversight and reporting 
requirements, management changes, downsizing, consolidation or 
privatization, should be taken if an agency's goals are repeatedly 
missed without cause.
    (c) What performance goals do you believe should be applicable to 
your personal performance, if confirmed?
    I believe that meeting the following personal performance goals 
will result in an S&T Directorate that provides the Nation with an R&D 
capability to counter the threat of modern terrorism.
    Develop and implement a process that partners with operational end-
users to identify requirements, develop and field capabilities to 
counter threats and enhance mission operations.
    Develop and implement processes and organizational constructs to 
engage government, academic and private sectors in innovative research, 
development, rapid prototyping and systems development
    Provide a rapid, efficient, and disciplined process for systems 
engineering and development
    Provide the Department with an enduring research and development 
complex dedicated to homeland security
    13. Please describe your philosophy of supervisor/employee 
relationships. Generally, what supervisory model do you follow? Have 
any employee complaints been brought against you?
    I am a firm believer in both horizontal and vertical communication. 
I personally try to know most, if not all, of the people in an 
organization reporting to me. In briefings, I prefer to hear directly 
from the person(s) who has done the work. Whenever possible I have a 
strategic plan that becomes the guidepost for all people in an 
organization.
    No employee complaints have been brought against me.
    14. Describe your working relationship, if any, with the Congress. 
Does your professional experience include working with committees of 
Congress? If yes, please explain:
    Although I have not had a great deal of interaction the Congress, 
my professional experience has included occasional interactions with 
individual Members of Congress in social, fund raising and professional 
exchanges.
    16. Please explain what you believe to be the proper relationship 
between yourself, if confirmed, and the Inspector General of your 
department/agency.
    Open access and dialog within appropriate security guidelines, for 
all aspects of the Science and Technology Directorate's activities.
    17. In the areas under the department/agency's jurisdiction to 
which you have been nominated, what legislative action(s) should 
Congress consider as priorities? Please state your personal views.
    The Science and Technology Directorate was recently created by 
Congress as a component of the new Department of Homeland Security, and 
is only now beginning to be formed and implement directives set forth 
in the Act. As this process goes forward, I will be better able to 
assess what, if any, legislative priorities should be set, and will 
work with Congress to set them.
    18. Within your area of control, will you pledge to develop and 
implement a system that allocates discretionary spending in an open 
manner through a set of fair and objective established criteria?
    If yes, please explain what steps you intend to take and a time 
frame for their implementation. If not, please explain why.
    I am committed to creating a robust and enduring National R&D 
effort in support of homeland security. The Nation possesses a vast S&T 
enterprise--companies, universities, institutes, and government labs of 
all sizes conduct R&D over a very broad range of disciplines. The 
Department of Homeland Security, and specifically the Science and 
Technology Directorate, will serve to focus this capability on the 
defense of the homeland. It will serve as the federal lead for homeland 
security R&D, and work with private and public entities to assure an 
R&D effort of sufficient size and scope to counter the threat of modern 
terrorism.
    In order to build a national research and development enterprise 
focused on homeland security, it is crucial that the allocation of 
funds, both in practice and perception, be conducted in accordance with 
fair and objective criteria; I pledge to develop and assure the 
implementation of such a system immediately.
    We will engage the private sector and the academic community 
primarily through the HSARPA, and where appropriate, through the 
technology clearinghouse we are developing for rapidly fielding 
available technologies. We must clearly begin that engagement with a 
clearly understood solicitation process, and with well-defined source 
selection criteria. We will assure that the source selection process is 
conducted in an unimpeachable manner, and that awards are made in 
accordance with the Federal Acquisition Regulations.

    The Chairman. Thank you, Doctor.
    Mr. Shane, welcome back.

STATEMENT OF HON. JEFFREY N. SHANE, UNDER SECRETARY FOR POLICY-
            DESIGNATE, DEPARTMENT OF TRANSPORTATION

    Mr. Shane. Thank you, Mr. Chairman. It is always a pleasure 
to appear before you, and never more so than on an occasion 
like this. I want to express my thanks to you for scheduling 
this hearing, and my thanks, of course, to President Bush and 
Secretary Mineta for proposing that I serve as the first Under 
Secretary for Policy at the Department of Transportation.
    As you know, the creation of this new office is intended to 
serve as the foundation for a far more effective approach to 
the formulation of transportation policy at DOT, and I can tell 
you with some confidence that it represents the most 
significant change in the structure of the Office of the 
Secretary of Transportation in many years. That is one of the 
biggest reasons why I am hoping to be confirmed in this new 
position.
    As you will have seen from my resume, I have spent a lot of 
years moving in and out of the Department of Transportation in 
a variety of legal and policy positions. I know a lot about the 
Department, and it is exciting to think I might be able to put 
that knowledge to use in helping Secretary Norm Mineta make it 
a far more effective institution.
    But there are some other reasons as well. First, I have 
known Secretary Mineta for a great many years, and I know that 
on day one, he brought more experience and knowledge of Federal 
transportation programs to the Office of the Secretary than 
anybody in the history of the Department. Our Deputy Secretary, 
Michael Jackson, was a colleague during the first Bush 
Administration at the Department of Transportation, and he is 
one of the most talented people I have ever had the privilege 
to work with. I knew when I was first contacted about this job 
that it would be great run for DOT, and I felt very lucky to be 
asked to be part of it.
    Second, if confirmed, I will have the opportunity to 
oversee the transformation of the way transportation policy is 
made within the Department, in keeping with Secretary Mineta's 
vision. By elevating the policy function and reorganizing it, 
he intends to pull the Department's diverse responsibilities 
together as never before, giving real life to Congress' vision 
of the Department as reflected in the Department of 
Transportation Act of 1966.
    Third, of course, this is a time when we will be working 
with Congress to reauthorize all of our core Federal 
transportation programs, highways, transit, aviation, intercity 
passenger rail service, highway safety. For anybody who has 
devoted a career to transportation law and policy, this is a 
moment not to be missed.
    The original plan was for me to continue practicing law 
until the Under Secretary position was created through 
legislation and until I was nominated by the President and 
confirmed by the Senate. Then, of course, came 9/11. Secretary 
Mineta asked that I come in and help lead one of the teams he 
set up immediately to deal with aviation security, and so I 
began work immediately, first in a consulting capacity and then 
as Associate Deputy Secretary. As a result, I have had the 
privilege of working closely with DOT's leadership and staff 
for the past year-and-a-half. That experience has left me 
feeling even more fortunate at having been tapped for this 
opportunity.
    President Bush and Secretary Mineta have assembled a 
remarkably talented team of managers for the Department's many 
transportation programs. They work together in a spirit of 
cooperation and camaraderie that exceeds anything I have seen 
at the Department in the past. That spirit, together with the 
structural changes that Secretary Mineta has called for, will 
facilitate important changes in the way the Department does 
business.
    As you know, Mr. Chairman, the United States Coast Guard 
and the Transportation Security Administration transferred to 
the Department of Homeland Security 3 days ago. While I know 
that the President is right in wanting all of the agencies with 
homeland security responsibilities to be part of the same 
Cabinet Department, and while I know that the Coast Guard and 
TSA will flourish in their new home, I will confess as a 
personal matter that I was very sad to see them go, but for 
DOT, their departure creates an unparalleled opportunity to 
refocus and rededicate our mission and our people to the core 
objectives spelled out in the Department of Transportation Act 
37 years ago. That will be one of our most important objectives 
going forward, and I look forward to working with Secretary 
Mineta and his team to accomplish it.
    In sum, this is a special time for transportation policy, 
and that is why I am so grateful for the opportunity I will 
have, if confirmed, to help shape the future of these programs. 
Let me conclude by underscoring my commitment, if I am 
fortunate enough to be confirmed by the Senate, to work closely 
with this Committee and its staff, as I have enjoyed doing for 
so many years, in addressing the extraordinary challenges that 
confront our Nation's transportation system today. I look 
forward to answering any questions you may have.
    [The prepared statement of Mr. Shane follows:]

   Prepared Statement of Hon. Jeffrey N. Shane, Under Secretary for 
             Policy-Designate, Department of Transportation

    Chairman McCain, Ranking Member Hollings, and Members of the 
Committee:
    I want to express my thanks to you for scheduling this hearing and 
for providing me the opportunity to testify here today.
    I am extremely grateful to President Bush and Secretary Mineta for 
proposing that I serve as the Department's first Under Secretary for 
Policy at the Department of Transportation.
    As you know, the creation of this new office is intended to serve 
as the foundation for a far more effective approach to the formulation 
of transportation policy at DOT. I can tell you with some confidence 
that it represents the most significant change in the structure of the 
Office of the Secretary of Transportation in many years.
    I base that assessment on many years of experience working at DOT 
in a variety of legal and policy positions. I know you have my c.v., 
but allow me to summarize the most relevant aspects of my background as 
a way of explaining why I am so pleased at the opportunity to serve in 
this new capacity.
    My first tour of duty at the Department of Transportation began in 
the late 1960s, when I served as a trial attorney and later Special 
Assistant for Environmental Affairs in the Office of the General 
Counsel. I represented DOT in a great many regulatory proceedings 
before the Interstate Commerce Commission, the Civil Aeronautics Board, 
and the Federal Maritime Commission, and spent a considerable amount of 
time on the implementation of the National Environmental Policy Act in 
the context of the Nation's transportation programs.
    I left government in 1972 and spent several years traveling and 
working overseas--mostly as an environmental lawyer specializing in the 
environmental management problems of less developed countries. I 
returned to DOT in 1979 as Assistant General Counsel for International 
Law. After four years in that position I moved to the Office of Policy 
and International Affairs as Deputy Assistant Secretary. My immediate 
supervisor was the late Matt Scocozza, a former senior staff member of 
this Committee and a great boss from whom I learned an immense amount. 
My ultimate boss at that time was one of your newest colleagues, 
Senator Elizabeth Dole.
    In 1985 I moved to the Department of State as Deputy Assistant 
Secretary for Transportation Affairs to serve, among other things, as 
chief U.S. aviation negotiator. During my four years at State I also 
taught a seminar in international transportation law as an adjunct 
professor at the Georgetown University Law School.
    In 1989 I returned to the Department of Transportation yet again in 
my first political appointment--Assistant Secretary of Transportation 
for Policy and International Affairs. While in that job I worked for 
Secretaries Samuel Skinner and Andrew Card on the full range of 
transportation issues for which DOT has responsibility.
    After leaving the Department in early 1993 I joined a Washington 
law firm and launched a transportation-based legal practice. I enjoyed 
practicing law a lot and expected to spend the rest of my career doing 
just that. In the summer of 2001, however, I received a call from 
Deputy Secretary of Transportation Michael Jackson. He described 
Secretary Mineta's ideas for reorganizing the policy function, told me 
of the proposed new Under Secretary position, and then asked me if I 
would take the job.
    I confess to a bit of wavering at first. It's not easy to let go of 
a practice you have spent most of a decade building and to say goodbye 
to partners and associates for whom you have developed great affection 
and respect. But in the end I concluded that this was an opportunity I 
simply couldn't pass up.
    First, I had known Secretary Mineta well for many years and I knew 
that he brought to his office on Day One more knowledge and experience 
of Federal transportation programs than anyone in the history of the 
Department. Our Deputy Secretary, Michael Jackson, had been a colleague 
during the first Bush Administration and is one of the most talented 
people I've ever had the privilege to work with. I knew that this would 
be a great run for DOT and I felt very lucky to be asked to be part of 
it.
    Second, if confirmed I would have the opportunity to oversee the 
transformation of the way transportation policy is made within DOT, in 
keeping with Secretary Mineta's vision. By elevating the policy 
function and reorganizing the resources within it, he would make it 
possible to pull the Department's diverse responsibilities together as 
never before--giving real life to Congress's vision of the Department 
as reflected in the Department of Transportation Act of 1966.
    Third, I was being asked to join the Department at a time when we 
would be working with Congress to reauthorize all of our core Federal 
transportation programs--highways, transit, aviation, intercity 
passenger rail service, and highway safety. For anyone who has devoted 
a career to transportation law and policy, this would be a moment not 
to be missed.
    The original plan was for me to continue practicing law until the 
Under Secretary position had been created through legislation, and 
until I had been nominated by the President and confirmed by the 
Senate. Then came 9/11. Secretary Mineta asked that I help lead one of 
the teams he set up to deal with aviation security, and so I began work 
immediately--first in a consulting capacity and then as Associate 
Deputy Secretary. If I am confirmed as Under Secretary, the Associate 
Deputy Secretary position will terminate as a matter of law.
    As a result, I have had the privilege of working closely with DOT's 
leadership and staff for the past year-and-a-half. That experience has 
left me feeling even more fortunate at having been tapped for this 
opportunity. President Bush and Secretary Mineta have assembled a 
remarkably talented team of managers for the Department's many 
transportation programs. Our assistant secretaries and modal 
administrators bring powerful credentials to their jobs. They are 
unparalleled in their commitment to excellence and their determination 
to develop creative approaches to the transportation policy challenges 
that we face today. Equally important, they work together in a spirit 
of cooperation and camaraderie that exceeds anything I've seen at DOT 
in the past. That spirit, together with the structural changes 
Secretary Mineta has called for, will facilitate some important changes 
in the way the Department does business.
    As you know, two of the Department's largest component agencies 
transferred to the Department of Homeland Security three days ago: The 
United States Coast Guard and the Transportation Security 
Administration. As a personal matter, I will confess that I was very 
sad to see them go.
    But the President is right in wanting all of the agencies with 
homeland security responsibilities to be part of the same Cabinet 
department, and I know that the Coast Guard and TSA will flourish in 
their new home at DHS.
    For the Department of Transportation, their departure creates an 
opportunity to refocus and rededicate our mission and our people to the 
core objectives spelled out in the Department of Transportation Act 37 
years ago. That will be one of our most important internal objectives 
going forward, and I look forward to working with Secretary Mineta and 
his team to accomplish it.
    In sum, this is a special time for transportation policy makers, 
and that's why I am so grateful for the opportunity I will have if 
confirmed to help shape the future of these programs. Transportation's 
importance to our Nation's economic well being cannot be overstated, 
and will only increase as business continues to rely more heavily on 
the free flow of goods and people to achieve higher levels of 
productivity. We must provide new solutions to deal with rising demands 
on our transportation system. That will require some creative thinking 
on behalf of both the Department and Congress.
    Let me conclude by underscoring my commitment, if I am fortunate 
enough to be confirmed by the Senate, to work closely with the 
Committee and its staff--as I have enjoyed doing over so many years--in 
addressing the extraordinary challenges that confront our Nation's 
transportation system today. I look forward to answering any questions 
you may have.

                                 ______
                                 
                      A. BIOGRAPHICAL INFORMATION

    1. Name: (Include any former names or nick names used.) Jeffrey N. 
Shane (Nickname: Jeff)
    2. Position to which nominated: Under Secretary of Transportation 
for Policy, Department of Transportation.
    3. Date of nomination: February 11, 2003
    4. Address: (Information not made available to the public).
    5. Date and place of birth: March 27, 1941; New York, NY.
    6. Marital status: (Include maiden name of wife or husband's name.) 
Married--Dzing Jean Wu.
    7. Names and ages of children: (Include stepchildren and children 
from previous marriages.) N/A
    8. Education: (List secondary and higher education institutions, 
dates attended, degree received and date degree granted.)
    High School: Hempstead H.S., Hempstead, NY (9/54-6/57); West 
Hempstead H.S., West Hempstead, NY (9/57-6/58); High School Diploma, 
June 1958
    College: Princeton University Princeton, NJ; A.B., June 1962
    Law School: Columbia Law School New York, NY; LL.B., June 1965
    9. Employment record: (List all jobs held since college, including 
the title or description of job, name of employer, location of work, 
and dates of employment.)
    Turret lathe operator, Sylvania-Corning Nuclear Corporation, 
Hicksville, NY, 6/59-9/59
    Waiter, Frontier Village, Lake George, NY, 6/60-9/60
    Management trainee, New York Telephone Company, Hempstead, NY, 6/
61-9/61
    Counselor, Camp Timber Lake, Phoenicia, NY, 6/62-9/62
    Investigator, Retail Credit Co., New York, NY, 6/63-9/63
    Summer Intern, Voice of America, Washington, DC, 6/64-9/64
    Research Assistant, Columbia University, New York, NY, 9/65-10/65
    Legislative Analyst, Basic Systems, Inc., New York, NY, 3/66-9/66
    Trial Attorney, Federal Power Commission, Washington, DC, 6/66-4/68
    Trial Attorney and Special Assistant to the General Counsel, Dept. 
of Transportation, Washington, DC, 4/68-10/72
    Attorney and special investigator, Dept. of Transportation, 
Washington, DC, 3/74-7/74
    Consultant, Environmental Law Institute, Washington, DC, 7/74-11/75
    Attorney, United Nations Development Programme, Bangkok, Thailand, 
11/75-1/78
    Attorney and consultant (self-employed), Washington, DC, 1/78-12/78
    Project Director, Library of Congress, Washington, DC, 12/78-3/79
    Assistant General Counsel for International Law, Dept. of 
Transportation, Washington, DC, 3/793/83
    Deputy Assistant Secretary for Policy and International Affairs, 
Dept. of Transportation, Washington, DC, 3/83-3/85
    Deputy Assistant Secretary for Transportation Affairs, Dept. of 
State, Washington, DC, 3/85-6/89
    Adjunct Professor of Law, Georgetown University, Washington, DC, 
1985-89
    Assistant Secretary for Policy and International Affairs, Dept. of 
Transportation, Washington, DC, 6/89-1/93
    Counsel, Wilmer, Cutler & Pickering, Washington, DC, 4/93-12/96
    Partner, Wilmer, Cutler & Pickering, Washington, DC, 12/96-4/00
    Partner, Hogan & Hartson L.L.P., Washington, DC, 4/00-3/02
    Advisor to the Secretary of Transportation, 10/01-4/02
    Associate Deputy Secretary, Department of Transportation, 3/02-
present
    10. Government experience: (List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.)
    Member, Architectural and Transportation Barriers Compliance Board, 
1989-93; (Vice-Chairman, 1992-93)
    Vice-Chairman, Advisory Commission on Conferences in Ocean 
Shipping, 1992
    Member, Study Group of Experts on Future Regulatory Arrangements, 
International Civil Aviation Organization, 1993-94.
    11. Business relationships: (List all positions held as an officer, 
director, trustee, partner, proprietor, agent, representative, or 
consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational or other institution.)
    Director, A.A. & S. Real Estate, Inc. (family corporation 
established for estate planning purposes) Member, Shane Family LLC 
(family corporation established for estate planning purposes)
    12. Memberships: (List all memberships and offices held in 
professional, fraternal, scholarly, civic, business, charitable and 
other organizations.)
    Member, D.C. Bar
    Member, American Bar Association
    Chairman, Commission on Air Transport, International Chamber of 
Commerce (Paris), 1994-2001
    Vice President, National Defense Transportation Association, and 
Chairman, NDTA Military Airlift Committee, 1994-2001
    Chair, American Bar Association Forum on Air and Space Law, 2001
    Member, International Aviation Club of Washington (President, 1999-
2000)
    Member, Aero Club of Washington
    Member, Board of Directors, International Institute of Air and 
Space Law, Leiden University, Holland, 1993-95
    Member, Wings Club, 1993-present (Board of Governors, 1994-97)
    Member, Cosmos Club, 1987-present
    Member, Columbia Country Club, 2000-present
    13. Political affiliations and activities: (a) List all offices 
with a political party which you have held or any public office for 
which you have been a candidate.
    None.
    (b) List all memberships and offices held in andservices rendered 
to all political parties or election committees during the last 10 
years.
    None.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee; or similar 
entity of $500 or more for the past 10 years.
    Oberstar, James: (via Friends of James Oberstar); 10/07/1997 
$500.00; 04/21/1999 $500.00; 09/14/1999 $500:00; 02/09/2000 $500.00;
    Allen, George: (via Friends of George Allen): 08/11/2000 $1,000.00;
    Lazio, Rick A.: (via Lazio 2000 Inc.); 09/30/2000 $1,000.00;
    Republican National Committee, RNC; 11/01/2000 $1,000.00;
    Hogan & Hartson Political Action Committee; 10/02/2000 $950.00;
    Dole, Elizabeth: (via Elizabeth Dole for President Exploratory 
Committee Inc.), 03/30/1999 $1,000.00;
    Bush, George W.: (via Bush for President Inc.); 06/30/1999 
$1,000.00;
    Reid, Harry: (via Friends for Harry Reid); 12/28/1997 $1500.00;
    Hogan & Hartson Political Action Committee; 04/23/2001 $1100.00;
    McCain, John S.: (via McCain 2000 Inc.); 02/15/2000 $1,000.00;
    Dole, Elizabeth: (via Friends of Elizabeth Dole, Inc.); 12/23/2002 
$1,000.
    14. Honors and awards: (List all scholarships, fellowships, 
honorary degrees, honorary society memberships, military medals and any 
other special recognitions for outstanding service or achievements.)
    Full-tuition academic scholarship, Princeton University (1958-62)
    New York State Regents' Scholarship, Columbia Law School (1962-65)
    Presidential Meritorious Rank Award, Department of State, 1988
    Senior Executive Service Performance Award, Department of State, 
1987
    Secretary's Medal for Meritorious Achievement, Department of 
Transportation, 1971
    15. Published writings: (List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.)
    ``Aviation Policy: Who Decides?'' LatinCE0, June 2001.
    ``It is Time for Foreign Investors,'' Business Travel News, October 
1998.
    ``The Changing Nature of International Aviation,'' FTL Memorandum 
M89-4, Flight Transportation Laboratory, Massachusetts Institute of 
Technology, December 1989.
    ``Challenges in International Civil Aviation Negotiations,'' U.S. 
Department of State, Bureau of Public Affairs, Washington, D.C., 
February 1988.
    ``Getting to Yes in International Aviation Negotiations: An 
Impossible Dream?'', ITA Magazine No. 37, September 1986.
    ``Environmental Law in the Developing Nations of Southeast Asia,'' 
in Colin MacAndrews and Chia Lin Sien, eds., Developing Economies and 
the Environment: The Southeast Asian Experience (to be published 
November 1978 by McGraw-Hill).
    ``Asian Nations Focus on Environmental Law,'' Environmental Policy 
and Law, Autumn 1978 (to be published November 1978).
    Statement on applicability of National Environmental Policy Act to 
U.S. Government activities abroad, presented to Subcommittee on 
Resource Protection, Senate Committee on Environment and Public Works, 
September 1978.
    ``Environmental Law: Closing the Gap,'' Business in Thailand, 
August 1978.
    ``Coastal Management Legislation in Sri Lanka,'' report to the 
Regional Office for Asia and the Pacific, U.N. Environment Program, 
Bangkok, Thailand, February 1978.
    ``Environmental Law and Technical Cooperation: Agenda for Asia and 
the Pacific,'' paper presented at ESCAP/UNEP Expert Group Meeting on 
Environmental Protection Legislation, December 1977, Bangkok, Thailand.
    ``Environmental Law in Thailand,'' project working paper, U.N. Task 
Force on Human Environment, November 1977.
    ``Legal Aspects of Environmental Protection in Asia,'' paper 
presented at Fifth LAWASIA Conference, Seoul, Korea, August 1977.
    ``Legal Aspects of Environmental Management in Malaysia,'' project 
working paper, U.N. Task Force on Human Environment, January 1977.
    ``The Use of Environmental Impact Statements in the United 
States,'' background paper, U.N. Task Force on Human Environment, 
September 1976.
    NEPA in Action: The Impact of the National Environmental Policy Act 
on Federal DecisionMaking, 1975, book-length report to the U.S. Council 
on Environmental Quality, prepared in association with the 
Environmental Law Institute, Washington, D.C. (principal co-author, 
with Roan Conrad and Susan B. Pondfield).
    ``Enforcement of Water Pollution Controls in California and EPA 
Region IX,'' 1975, a report to the U.S. National Commission on Water 
Quality, prepared in association with the Environmental Law Institute, 
Washington, D.C.
    ``Ecology in Transportation,'' I.C.C. Practitioners Journal, Vol. 
39, p. 808 (1972).
    ``Environmental Litigation in 1971,'' Highway Research Circular No. 
135 (published by the Highway Research Board of the National Research 
Council), May 1972.
    ``Marijuana Law,'' The New Republic, March 28, 1968.
    ``Draft Those Reservists?'' The New Republic, September 17, 1966.
    16. Speeches: Provide the Committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of on topics relevant to the position for which you have been 
nominated.
    Please see accompanying compilation.
    17. Selection: Do you know why you were chosen for this nomination 
by the President?
    I believe it was felt that my fifteen years of experience at the 
Department of Transportation in a variety of legal and policy 
positions, together with four years supervising our international 
transportation negotiations at the Department of State and eight years 
of practicing transportation law in the private sector, provided a 
suitable background for the position.
    What do you believe in your background or employment experience 
affirmatively qualifies you for this particular appointment?
    During my previous government service I had the opportunity to work 
with most of the Department of Transportation's modal administrations 
on a variety of issues. As Assistant Secretary for Policy and 
International Affairs (1989-93) I was involved at a senior level in the 
entire range of policy issues for which DOT has responsibility, both 
domestic and international. My time in the private sector, predictably, 
has enhanced further my understanding of many of those issues. As 
Associate Deputy Secretary during most of the past year, I have been 
privileged to work closely with Secretary Mineta, Deputy Secretary 
Jackson, and their superb team of modal administrators. I believe that 
the sum total of that experience will be invaluable in equipping me to 
assist the Secretary of Transportation and the President in addressing 
the important transportation policy challenges that face our country 
today.

                   B. FUTURE EMPLOYMENT RELATIONSHIPS

    Will you sever all connections with your present employers, 
business firms, business associations or business organizations if you 
are confirmed by the Senate?
    I severed all connections with previous employers, etc., upon my 
appointment as Associate Deputy Secretary--with the exception of two 
small family companies (established solely for estate planning 
purposes) of which I am a director or member. I perform no services for 
either company.
    Do you have any plans, commitments or agreements to pursue outside 
employment, with or without compensation, during your service with the 
government? If so, explain.
    No.
    Do you have any plans, commitments or agreements after completing 
government service to resume employment, affiliation or practice with 
your previous employer, business firm, association or organization?
    No.
    Has anybody made a commitment to employ your services in any 
capacity after you leave government service?
    No.
    If confirmed, do you expect to serve out: your full term or until 
the next Presidential election, whichever is applicable?
    Yes.

                   C. POTENTIAL CONFLICTS OF INTEREST

    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients or customers.
    Please refer to the Deputy General Counsel opinion letter.
    2. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated.
    Please refer to the Deputy General Counsel opinion letter.
    3. Describe any business relationship, dealing, or financial 
transaction which you have had during the last 10 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated?
    Please refer to the Deputy General Counsel opinion letter.
    4. Describe any activity during the past 10 years in which you have 
engaged for the purpose of directly or indirectly influencing the 
passage, defeat or modification of any legislation or affecting the 
administration and execution of law or public policy.
    I have long believed, as a matter of personal conviction, that the 
United States should liberalize restrictions in its laws that impede 
U.S. airlines' access to the global capital market. I have made a great 
many speeches expressing that view, have written articles to that 
effect, and I have, on a few occasions, expressed that view in private 
conversations with Members of Congress and congressional staff members. 
During one period I also expressed the same view on behalf of an 
aspiring foreign investor in the U.S. airline industry who was my 
client.
    In another assignment, I indirectly assisted in the preparation of 
legislative language designed to tighten up U.S. law in connection with 
the ``Fly America'' requirements as applied to foreign military sales 
to Israel.
    Finally, I communicated with agencies of the U.S. Government and 
congressional offices in effort to persuade the Agency for 
International Development to use U.S. airlines for the emergency 
shipment of foodstuffs to Honduras rather than employing a Russian 
airline.
    I have not mentioned a larger number of objectives that I pursued 
on clients' behalf in the context of on-the-record administrative 
proceedings before the Department of Transportation.
    5. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items. (Please provide a copy of any trust or other agreements.)
    Please refer to the Deputy General Counsel opinion letter. A copy 
of my ethics agreement with DOT is enclosed.
    6. Do you agree to have written opinions provided to the Committee 
by the designated agency ethics officer of the agency to which you are 
nominated and by the Office of Government Ethics concerning potential 
conflicts of interest or any legal impediments to your serving in this 
position?
    Yes.

                            D. LEGAL MATTERS

    Have you ever been disciplined or cited for a breach of ethics for 
unprofessional conduct by, or been the subject of a complaint to any 
court, administrative agency, professional association, disciplinary 
committee, or other professional group? If so, provide details.
    The FBI reported to me in late September of this 2001 while 
performing a background check in connection with the appointment I 
presently hold that a complaint was filed against me in February 1994 
with the Public Integrity Section, Criminal Division, Department of 
Justice, alleging that, while earlier employed by the Department of 
Transportation, I entered into negotiations regarding post-government 
employment with a company doing business with the Department. The file 
was apparently closed without action in October 1994. I was never 
interviewed with respect to this complaint and was wholly unaware of it 
until the FBI brought it to my attention during the course of the 
aforementioned pre-appointment background investigation. I have never 
been disciplined or cited for any breach of ethics or unprofessional 
conduct by any government agency or other entity.
    Have you ever been investigated, arrested, charged or held by any 
Federal, State, or other law enforcement authority for violation of any 
Federal, State, county, or municipal law, regulation or ordinance, 
other than a minor traffic offense? If so, provide details.
    See previous answer regarding an apparent Justice Department 
investigation in 1994. I have never been arrested, charged, or held by 
any Federal, State, or other law enforcement authority for violation of 
any Federal, State, county, or municipal law, regulation or ordinance, 
other than minor traffic offenses.
    Have you or any business of which you are or were an officer ever 
been involved as a party in interest in an administrative agency 
proceeding or civil litigation? If so, provide details?
    Since leaving government in early 1993 I have been a partner in two 
major international law firms. I sure that each has been involved from 
time to time as a party in interest in administrative agency 
proceedings and in civil litigation. I have had no direct involvement 
in any such proceedings or litigation.
    Have you ever been convicted (including pleas of guilty or polo 
contendere) of any criminal violation other than a minor traffic 
offense?
    No.
    Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be considered in 
connection with your nomination.
    None.

                     E. RELATIONSHIP WITH COMMITTEE

    1. Will you ensure that your department/agency complies with 
deadlines set by congressional committees for information?
    I will certainly do everything within my power to ensure that such 
deadlines are routinely met.
    2. Will you ensure that your depairtment/agency does whatever it 
can to protect congressional witnesses and whistle blowers from 
reprisal for theiar testimony and disclosures?
    I will do everything within my power to ensure that the Department 
of Transportation protects' congressional witnesses and whistle blowers 
from reprisal.
    3. Will you cooperate in providing the committee with requested 
witnesses, to include technical experts and career employees with 
firsthand knowledge of matters of interest to the committee?
    Yes.
    4. Please explain how you will review regulations issued by your 
department/agency, and work closely with Congress, to ensure that such 
regulations comply with the spirit of the laws passed by Congress.
    My training and experience as aJawyer specializing in 
administrative regulatory issues amply equip me to understand whether a 
:proposed regulation complies not only with the letter, but also with 
the spirit of enabling or other relevant legislation. I am also fully 
aware of Congress's interest in seeing laws implemented promptly. I 
know that Secretary Mineta and Deputy Secretary Jackson are fully 
committed to enhancing the Department's performance and to increasing 
the Department's accountability in this regard. I wholly share that 
commitment, and look forward to joining them in achieving this 
important objective.
    5. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so?
    Yes.

                  F. GENERAL QUALIFICATIONS AND VIEWS

    1. How have your previous professional experience and education 
qualified you for the position for which you have been, nominated.
    I have spent the major portion of my career in public service. Most 
of that time has been devoted to transportation policy issues at the 
federal level. In my current assignment--Associate Deputy Secretary of 
Transportation--I am the senior advisor to the Secretary of 
Transportation on the full range of policy issues for which the 
Secretary has responsibility.
    2. Why do you wish to serve in the position for which you have been 
nominated?
    When this opportunity was first presented, I felt some ambivalence, 
having already enjoyed so many tours of duty in public service, and 
having found a home in a wonderful law firm with a practice that had 
hit its stride. Following a lengthy deliberation, however, I concluded 
that, for someone with my particular background and interests, it would 
be a profound mistake to say no--to forgo the opportunity to spend at 
least a few more years working to rebuild our Nation's transportation 
infrastructure, to address the congestion and gridlock that threaten to 
impede our future economic growth, to help ensure the safety and 
security of our transportation system, and to ensure the maintenance of 
meaningful competition for the benefit of travelers and shippers of 
goods, both domestically and internationally. The extraordinary quality 
of DOT's current leadership--Secretary Norman Mineta and Deputy 
Secretary Michael Jackson--was an essential factor in my decision to 
pursue this position.
    The events of September 11, 2001, dramatically altered DOT's agenda 
for a great many months, but they only served to underscore my 
conviction that this is clearly the right thing for me to do, if the 
Senate agrees. The creation of the new Department of Homeland Security 
and the transfer there of the U.S. Coast Guard and the Transportation 
Security Administration create the opportunity to refocus and 
rededicate the Department of Transportation to the core issues for 
which it was created 36 years ago. I look forward to working with 
Secretary Mineta and Deputy Secretary Jackson to achieve that important 
objective.
    3. What goals have you established for your first two years in this 
position, if confirmed?
    My most immediate personal goal will be to work closely with the 
Secretary, Deputy Secretary, and modal administrators to improve the 
Department's transportation policy making capability. As I noted above, 
because the Coast Guard and the Transportation Security Administration 
will soon move to the new Department of Homeland Security, we find 
ourselves with a special opportunity to rededicate the Department to 
the transportation policy goals for which it was created. I hope to 
help establish new deliberative and decision making mechanisms that 
pull the Department's modal administrations together in a more 
effective way, and thereby to more effectively engender intermodal 
approaches to our transportation needs wherever possible.
    The Nation's surface transportation and aviation programs are up 
for reauthorization during the current Congressional session. I look 
forward to working closely with my DOT colleagues and the Congress to 
build on the important advances that were incorporated in ISTEA, TEA21, 
and AIR-21. We have to ensure the availability of a national 
transportation infrastructure that not merely accommodates, but 
enhances the Nation's economic growth.
    Closely tied with the previous goal is a growing concern about the 
quality of competition in our transportation system. DOT, in 
cooperation with the Department of Justice, must find ways to preserve 
and enhance that competition. Any measures adopted for the enhancement 
of consumer welfare in this regard, however, must be taken without 
compromising deregulation.
    I am concerned about our government's approach to decisions 
affecting the allocation of spectrum resources. Specifically, I do not 
believe that DOT is sufficiently ``at the table'' when key decisions 
are made that could affect the reliability of spectrum-dependent 
safety-of-life navigation systems for which the Department of 
Transportation has responsibility.
    Unless immediate steps are taken to augment DOT's professional 
staff--notably in the areas of transportation policy generally and 
aviation policy in particular--the Department simply will not have the 
wherewithal to carry out its mission. Accordingly, a major goal is to 
launch a concerted and focused response to this problem.
    4. What skills do you believe you may be lacking which may be 
necessary to successfully carry out this position? What steps can be 
taken to obtain those skills?
    I believe my 19 years in a variety of transportation policy 
positions equips me well for the responsibilities I will assume if 
confirmed.
    5. Please discuss your philosophical views on the role of 
government. Include a discussion of when you believe the government 
should involve itself in the private sector, when society's problems 
should be left to the private sector, and what standards should be used 
to determine when a government program is no longer necessary,
    My late father was an entrepreneur--the owner of a chain of retail 
shoe stores in and around New York City. His business collapsed during 
the recession of the late 1950s, but he built it back up again over a 
period of 15 years. To me, he was a typical American success story. He 
was wholly self-reliant and never thought about turning to the 
government for help. My mother had been a registered nurse before her 
marriage. When Dad's business failed, she went back to work and before 
long was put in charge of a local nursing home. I remember her chief 
complaint: She had to spend so much time each day filling out paper 
work for the (then) Department of Health, Education and Welfare that 
there was precious little time to spend with her patients.
    Those were the experiences that shaped my early impressions of 
government.
    Still, I became the first civilian federal employee in my family. I 
had enjoyed studying about economic regulation in law school and, after 
getting my degree, sought work at a classic regulatory agency. I ended 
up at the Federal Power Commission (now FERC), and I specialized in the 
regulation of natural gas pipeline rates. That experience, and my 
subsequent work in transportation following the deregulation of our 
airline, motor carrier, and railroad industries has confirmed for me 
the importance of placing the greatest possible reliance on market 
forces, confining the exercise of government authority to those issues 
unlikely to be correctly addressed without government involvement--
whether financial or regulatory. I believe that an essential 
responsibility of any senior manager in government today is to question 
constantly the purpose and consequence of what we do, ensuring in every 
case that the ``value added'' is readily apparent. That would be true 
in the best of circumstances; in a time characterized by steadily 
diminishing financial resources, the importance of this vigilance 
cannot be overstated.
    6. Describe the current mission, major programs, and major 
operational objectives of the department/agency to which you have been 
nominated.
    The Department of Transportation is charged with providing 
leadership in the development and administration of policies and 
programs that ensure the availability of safe, secure, efficient, 
coordinated, competitive, cost-effective, and environmentally sound 
transportation services as a critical ingredient in the economic health 
of our country. From the Department's inception, the safety of our 
transportation system has been its most important goal; it remains so 
today, particularly in this time of extraordinary challenge to the 
security of our country. A second key objective is the maintenance and 
expansion of the Nation's transportation infrastructure. Third, the 
Department must enhance mobility by ensuring the availability of fully 
accessible, competitive, and affordable transportation services to all 
of our citizens. Fourth, the Department has an obligation to protect 
the quality of our Nation's environmental resources in the course of 
its infrastructure-related responsibilities. Finally, the Department 
roust work with other governments around the world to enhance the 
efficiency, reliability, and security of the international 
transportation system. I have worked with each of the Department's 
modal administration over the years in carrying out the Department's 
mission, and I look forward enthusiastically to continuing in this 
endeavor if I am confirmed.
    7. What do you believe to be the top three challenges facing the 
department/agency and why?
    Renewal and rededication. The Department of Transportation is about 
to lose two of its largest component elements: the United States Coast 
Guard and the Transportation Security Administration. The Department's 
residual components for the most part have been little changed since 
DOT opened its doors in 1967. The Department will experience a massive 
wave of retirements within a few years. In short, it is essential that 
we find ways to refresh the Department's structure, to undertake a 
major effort to bring in younger staff while there are still mentors 
around, and to refocus and rededicate the organization to its critical 
missions.
    Expanding our transportation infrastructure. It is fair to say that 
money for transportation infrastructure investment will be in short 
supply for a while. Taxes on airline tickets produce less money for the 
Airport and Airways Trust Fund because fewer tickets are being sold and 
they are being sold for less. Advances in fuel efficiency and ethanol, 
together with generally diminished economic activity over the past few 
years, have similarly reduced receipts in the Highway Trust Fund. At 
the same time, we have an absolute obligation to continue expanding our 
transportation infrastructure now if is to deliver the essential 
support our economy will need in the future. The biggest danger in a 
downturn of the sort we are currently experiencing is that we will 
leave ourselves unprepared for the inevitable rebound.
    Enhancing connectivity and intermodalism. Despite the important 
strides that we have made in the past decade, DOT has a long way to go 
in fostering the more integrated and intermodal transportation planning 
and decision making that legislators and administrators have been 
talking about for many years. I believe that there are ways to pull the 
diverse elements of the Department together in a far more effective way 
and thereby to engender a more rational approach to addressing the 
country's transportation challenges at all levels of government.
    8. In reference to question number six, what factors in your 
opinion have kept the department/agency from achieving its missions 
over` the past several years?
    I have spent much of my professional career at the Department of 
Transportation, and I believe that the Department has made steady 
progress in achieving the different elements of its mission, as 
discussed in response to Question 6. Nevertheless, a number of 
impediments need to be addressed. While the Department's transportation 
safety record should be a source of pride in most areas, the loss of 
life on our highways continues to be a national scandal. We need more 
focused incentives that encourage states to enact positive seat belt 
laws (``click-it-or-ticket''). Second, despite important steps in the 
right direction in TEA-21, we need to encourage more private sector 
participation in the expansion of our transportation infrastructure. 
Third, we need to address more effectively the bottlenecks--at all 
levels of government--in our project approval process. Fourth, we need 
to find new ways of ensuring the continued availability of convenient 
and affordable air services to our citizens, such as relaxing current 
restrictions on our airlines' access to the global capital market and 
enhancing access to airport facilities at our most congested airports. 
Finally, we need to work more effectively with our trading partners to 
further enhance the efficiency and security of international 
transportation. The principal impediment to achievement of these 
objectives, I believe, are a reluctance to re-examine the relevance in 
today's circumstances of a lot of the ``conventional wisdom'' that has 
governed transportation policy thinking for too long.
    9. Who are the stakeholders in the work of this agency?
    The primary stakeholders for DOT are, of course, the traveling and 
shipping public. Other important stakeholders are the providers of 
transportation, both direct and indirect, our transportation workforce, 
state and local transportation agencies, and, of course, the Congress.
    10.What is the proper relationship between your position, if 
confirmed, and the stakeholders identified in question number nine?
    Given my proposed role in helping to shape transportation policy at 
the federal level, I believe it is essential that I maintain an open 
channel for communications with all stakeholders. In my experience, a 
constant challenge for federal policy makers is to remain closely in 
touch with those likely to be affected by the federal government's 
decisions.
    11. The Chief Financial Officers Act requires all government 
departments and agencies to develop sound financial management 
practices similar to those practiced in the private sector.
    (a) What do you believe are your responsibilities, if confirmed, to 
ensure that your agency has proper management and accounting controls?
    As a senior manager at the Department of Transportation, I would be 
obligated to ensure that the Department approaches its programs in an 
effective, business-like way, wholly within available budgetary 
resources. I know that Secretary Mineta is committed to improving the 
Department's performance on this front, and I will support him in every 
way possible.
    (b) What experience do you have in managing a large organization?
    As Assistant Secretary of Transportation for Policy and 
International Affairs, I managed a staff of 185-200. I supervised three 
Deputy Assistant Secretaries and five office directors, and a greater 
number of division chiefs. I held that position for four years (1989-
1993), and served as a Deputy Assistant Secretary in the same office 
for two years (1983-1985).
    As Deputy Assistant Secretary of State for Transportation Affairs 
(1985-1989) I supervised a staff of approximately 30.
    12. The Government Performance and Results Act requires all 
government departments and agencies to identify measurable performance 
goals and to report to Congress on their success in achieving these 
goals.
    (a) What benefits, if any, do you see in identifying performance 
goals and reporting on your progress in achieving those goals?
    The most important responsibility of any public servant privileged 
to serve in a decisionmaking capacity is to help set the public policy 
agenda. Unless there is a determined effort to establish identifiable 
performance goals, the tendency to slip into a passive mode of 
operation is almost irresistible. At this point in my own career, 
joining a government agency provides the opportunity to participate in 
the setting of the agenda and then to help ensure that it is 
accomplished in real time. The responsibility to report to Congress on 
the Department's success in achieving established goals helps to ensure 
that the agenda isn't subordinated to merely ``answering the mail.''
    (b) What steps should Congress consider taking when a department/
agency fails to achieve its performance goals? Should these steps 
include the elimination, privatization, downsizing or consolidation of 
departments and/or programs?
    Congress should attempt to analyze the organic reasons for an 
agency's failure to achieve its performance goals. In some cases, no 
doubt, ineffective management may be the root cause, and improvements 
on the managerial front may be a sufficient remedy. In other cases, it 
may well be that a Department function would be carried out more 
effectively at a different level of government or in the private 
sector. Still other programs may be found, upon investigation, to have 
outlived their usefulness and be targets for elimination.
    (c) What performance goals do you believe should be applicable to 
your personal performance, if confirmed?
    My performance should be measured against the goals I outlined in 
the answers to Question 3. I will be particularly disappointed if, by 
the time this tour of duty ends, DOT does not have a more effective 
policy making capability, and has not hired new staff capable of 
carrying the Department's mission forward following the anticipated 
retirement of large numbers of professionals in the next few years. 
Similarly, the quality of the Department's contribution to the process 
of reauthonzing the federal aviation and federal highway programs 
should be seen, I think, as another performance indicator for the 
position I hope to assume. Finally, I hope it will be possible to look 
back on important improvements and the quality of competition found in 
our domestic airline industry.
    13. Please describe your philosophy of supervisor/employee 
relationships, Generally, what supervisory model do you follow? Have 
any employee complaints been brought against you?
    I believe that the first duty of a manager is to empower employees 
and to create the most interesting and engaging work environment 
possible. To be productive, the supervisor-employee relationship must 
be characterized by mutual respect and collegiality. Given the 
extraordinary quality of the Department's career professionals, it will 
not be difficult to adhere to this model.
    No employee complaints have been brought against me.
    14. Describe your working relationship, if any, with the Congress. 
Does your professional experience include working with committees of 
Congress? If yes, please describe.
    In a number of my past positions in the federal government, I have 
been called upon to meet with and testify before Members of Congress on 
a regular basis. The opportunity to exchange views with Members of 
Congress and staff on key issues has been one of the great privileges 
in these positions. I am looking forward to further opportunities to 
engage the Congress.
    15. Please explain what you believe to be the proper relationship 
between yourself, if confirmed, and the Inspector General of your 
department/agency.
    The Inspector General is charged with looking at the Department's 
activities with a more detached, independent, and objective view than 
those of us ``on the line'' are likely to have. For that reason, the IG 
is often in a position to offer essential insights and constructive 
criticism of the Department's activities. I have always tried, in past 
positions at the Department, to engage the Inspector General in a 
spirit of cooperation, with communications predicated on mutual 
integrity, respect, and a shared commitment to problem solving. I would 
expect to maintain this approach if confirmed. I know that Secretary 
Mineta and Deputy Secretary Jackson will insist that the Department 
bring this spirit to all interactions with the Inspector General.
    16. Please explain how you will work with this Committee and other 
stakeholders to ensure that regulations issued by your department/
agency comply with the spirit of the laws passed by Congress.
    As a lawyer with a practice substantially devoted to regulatory 
issues, my training and experience amply equip me to understand whether 
a proposed regulation complies not only with the letter, but also with 
the spirit of enabling or other relevant legislation. I will make 
myself readily available to the Committee and its staff to address 
concerns relating to regulations issued by the Department of 
Transportation.
    17. In the areas under the department/agency's jurisdiction, what 
legislative action(s) should Congress consider as priorities? Please 
state your personal views.
    Congress and the Administration are already addressing the most 
important near-term priority: the establishment of much tighter 
security measures for our transportation system, with a particular 
focus on aviation.
    The most important long-term priority for Congress in the 
transportation policy arena will be the reauthorization of our 
transportation infrastructure programs. There is an even greater danger 
now, given the current downturn in economic activity--and the 
consequent reduction in demand for transportation--that we will be 
misled into believing that our infrastructure is adequate. It would be 
a huge public policy mistake not to take steps now to ensure that our 
transportation system is fully capable of supporting a more robust 
level of economic activity.
    18. Within your area of control, will you pledge to develop and 
implement a system that allocates discretionary spending in an open 
manner through a set of fair and objective established criteria? If 
yes, please explain what steps you intend to take and a time frame for 
their implementation. If not, please explain why.
    I wholly agree that discretionary spending must be predicated on a 
clearly articulated set of policy objectives and that decisions must be 
made pursuant to transparent criteria. I will have to acquaint myself 
with the extent to which this principle already characterizes DOT 
spending programs. If not, I look forward to an early project to 
address this issue more effectively.

    The Chairman. Thank you very much.
    Mr. Sturgell.

    STATEMENT OF ROBERT A. STURGELL, SENIOR COUNSEL TO THE 
         ADMINISTRATOR, FEDERAL AVIATION ADMINISTRATION

    Mr. Sturgell. Good morning, Mr. Chairman, Senator Dorgan. 
It is an honor to appear before you today as the President's 
nominee for the position of Deputy Administrator of the Federal 
Aviation Administration. I would just like to take a moment to 
introduce my wife, who is seated behind me, along with my 
mother and father. I am very grateful that they could be here 
today and also for their love and support over the years, and 
seated behind them is my sister-in-law, Kathy Stewart, and her 
daughter, Michelle, and Senator Dorgan, you will be pleased to 
know her husband, Dave, is a graduate of the UNDR Space 
Program, and in the fall of 9/11 was one of the commanding 
officers of the First F-18 squadron to do battle in 
Afghanistan, and I am forever grateful for the support of those 
who serve, as well as the families that stand behind them.
    Mr. Chairman, I just want to acknowledge the exceptional 
leadership provided by the President, Secretary Mineta, and 
this Congress. Just a few days ago, the Transportation Security 
Administration was transferred to the newly created Department 
of Homeland Security. It has taken the leadership of many to 
see this effort to its completion, and I am confident that the 
result has been the strengthening of the security of our 
aviation industry and our country. I wish Admiral Loy the best 
as he continues in his efforts to improve the security of all 
modes of transportation.
    Mr. Chairman, at this point in our Nation's history, I 
cannot think of a more challenging, rewarding, or important 
endeavor than public service in the field of aviation. I have 
spent most of my life in aviation, as a naval aviator, an 
aviation attorney, and a commercial pilot. During the past 
year, I have had the good fortune and opportunity to work with 
Administrator Blakey, serving first as her senior policy 
advisor at the National Transportation Safety Board and, most 
recently, as her senior counsel at the FAA, and I am pleased 
that she is here today in support as well.
    In these roles, I have worked closely with the industry 
leaders, airport officials, citizen groups, labor leaders, and 
Members of Congress on many important aviation issues. I have 
also seen firsthand the importance placed by the Administrator 
on partnership and collaboration between the public and private 
sectors in advancing aviation safety. Should I be confirmed, I 
intend to duplicate this approach to address the agency's 
current and future challenges, which include improving aviation 
safety through increased emphasis on accident prevention and 
the use of new technology and data based programs, the 
continued modernization of our air traffic system and 
increasing capacity through development of new technologies, 
new procedures, and new runways before anticipated increases in 
traffic levels.
    Finally, the Committee has already begun hearings on the 
FAA's reauthorization, and will shortly receive the 
Administration's aviation reauthorization proposal. If 
confirmed as Deputy Administrator, I will work closely with 
this Committee to help ensure that the FAA's reauthorization 
further improves upon the successes of the AIR-21 legislation.
    Mr. Chairman, I am honored and humbled by the trust that 
the President, the Secretary, and the Administrator have placed 
in me as their nominee for Deputy Administrator. If confirmed, 
I pledge to do my utmost to assist the Administrator in leading 
the FAA through the many challenges that lie ahead. I would 
like to thank this Committee for its consideration of my 
nomination and, should I be confirmed by the full Senate, I 
look forward to a close working relationship with its members.
    Thank you for your time and your service. I would be 
pleased to answer any questions you may have.
    [The prepared statement of Mr. Sturgell follows:]

    Prepared Statement of Robert A. Sturgell, Senior Counsel to the 
            Administrator, Federal Aviation Administration.

    Good morning Mr. Chairman, Senator Hollings, and distinguished 
members of the Committee.
    It is an honor to appear before you today as the President's 
nominee for the position of Deputy Administrator of the Federal 
Aviation Administration.
    I would like to take a moment to introduce my wife, Lynn. I am 
grateful that she could be here today and am thankful for her love and 
support over the years.
    Mr. Chairman, I want to acknowledge the exceptional leadership 
provided by the President, Secretary Mineta and this Congress. Just a 
few days ago, the Transportation Security Administration was 
transferred to the newly created Department of Homeland Security. It 
has taken the leadership of many to see this effort to its completion 
and I am confident that the result has been the strengthening of the 
security of our aviation industry and our country. I wish Admiral Loy 
the best as he continues in his efforts to improve the security of all 
modes of transportation.
    Mr. Chairman, at this point in our Nation's history, I cannot think 
of a more challenging, rewarding or important endeavor than public 
service in the field of aviation. I have spent most of my life in 
aviation: as a military pilot, an aviation attorney and a commercial 
pilot. However, during the past year, I have had the good fortune and 
opportunity to work with Administrator Blakey, serving first as her 
Senior Policy Advisor at the National Transportation Safety Board and, 
most recently, as her Senior Counsel at the FAA. In these roles, I have 
worked closely with the industry leaders, airport officials, citizen 
groups, labor leaders, and members of Congress on many important 
aviation issues.
    I have also seen first-hand the importance placed by the 
Administrator on partnership and collaboration between the public and 
private sectors in advancing aviation safety. Should I be confirmed, I 
intend to duplicate this approach to address the agency's current and 
future challenges. These challenges include:
    <bullet> Improving aviation safety through increased emphasis on 
accident prevention and the use of new technology and data-based 
programs;
    <bullet> The continued modernization of our air traffic system; and
    <bullet> Increasing capacity through the development of new 
technologies, new airspace procedures and new runways, before 
anticipated increases in traffic levels.
    Finally, the Committee has already begun hearings on the FAA's 
reauthorization and will shortly receive the Secretary's aviation 
reauthorization proposal. If confirmed as Deputy Administrator, I will 
work closely with the Committee to help ensure that the FAA's 
reauthorization further improves upon the successes of the AIR-21 
legislation.
    Mr. Chairman, I am honored and humbled by the trust that the 
President, the Secretary and the Administrator have placed in me as the 
nominee for Deputy Administrator. If confirmed, I pledge to do my 
utmost to assist the Administrator in leading the FAA through the many 
challenges that lie ahead.
    I would like to thank this Committee for its consideration of my 
nomination and, should I be confirmed by the Senate, I look forward to 
a close working relationship with its Members.
    Thank you for your time and your service. I would be pleased to 
answer any questions you may have.

                                 ______
                                 
                      A. BIOGRAPHICAL INFORMATION

    1. Name: Robert Allan Sturgell (Bobby Sturgell)
    2. Position to which nominated: Deputy Administrator, Federal 
Aviation Administration
    3. Date of nomination: January 15, 2003
    4. Address: (Information not made available to the public.)
    5. Date and place of birth: Aug. 1, 1959; Washington, DC.
    6. Marital status: (Include maiden name of wife or husband's name.) 
Wife: Lynn Ann Sturgell (Stewart)
    7. Names and ages of children: None.
    8. Education: (List secondary and higher education institutions, 
dates attended, degree received, and date degree granted.)
    High School: Southern Senior High School, Harwood, Maryland, 1973-
1977, Diploma received 1977; Prep School: Naval Academy Preparatory 
School, Newport, Rhode Island, 1977-1978, Diploma received 1978; 
College: United States Naval Academy, Annapolis, Maryland, 1978-1982, 
Diploma received 1982; Anne Arundel Community College, Arnold, 
Maryland, 1981-1982, no diploma received (completed 25 hours of 
financial accounting courses while simultaneously attending USNA); 
Graduate School: University of Virginia School of Law, Charlottesville, 
Virginia, 1991-1994, Diploma received 1994.
    9. Employment record: (List all jobs held since college, including 
the title or description of job, name of employer, location of work, 
and dates of employment.)


----------------------------------------------------------------------------------------------------------------
               Employer                         Dates                   Address                Type of Work
----------------------------------------------------------------------------------------------------------------
U.S. Naval Academy...................  May 1982-Jan. 1983.....  Annapolis, MD..........  Physical Fitness
                                                                                          Instructor
Training Squadron Six................  Jan. 1983-Oct. 1983....  NAS, Pensacola, FL.....  Student Pilot
Training Squadron Twenty-three.......  Oct. 1983-Aug. 1984....  NAS, Kingsville, TX....  Student Pilot
Training Squadron Twenty-two.........  Aug. 1984-March 1985...  NAS, Kingsville, TX....  Student Pilot
Fighter Squadron One Two Four........  March 1985-March 1986..  1NAS Miramar, San        Fleet Replacement Pilot
                                                                 Diego, CA.
Fighter Squadron Fifty-one...........  March 1986-May 1989....  NAS Miramar, San Diego,  Training Officer,
                                                                 CA.                      Weapons Instructor,
                                                                                          Administrative Officer
Navy Fighter Weapons School..........  May 1989-Aug. 1991.....  NAS Miramar, San Diego,  Instructor Pilot,
                                                                 CA.                      Administrative
                                                                                          Officer, Readiness
                                                                                          Officer
Fighter Composite Squadron Twelve....  Nov. 1991-Oct. 1998....  NAS Oceana, Virginia     Instructor Pilot,
                                                                 Beach, VA.               Safety Officer
Securities and Exchange Commission...  Summer 1992............  Washington, D.C........  Summer Intern
Shaw, Pittman, Potts & Trowbridge....  Summer 1993............  2300 N Street, NW,       Summer Intern
                                                                 Washington, D.C..
Shaw, Pittman, Potts & Trowbridge....  June 1994-Feb. 1996....  2300 N Street, NW,.....  Associate
United Airlines......................  March 1996-March 2002    Dulles Int'l Airport,    Flight Operations
                                        \**ERR17*\ *ERR17*.      Washington, D.C..        Supervisor, Pilot
National Transportation Safety Board.  March 2002-Sept. 2002..  490 L'Enfant Plaza, SW,  Senior Policy Advisor
                                                                 Washington, D.C..        to the Chairman
Federal Aviation Administration......  Sept. 2002-Present.....  800 Independence Ave.    Senior Counsel to the
                                                                 SW, Washington, D.C..    Administration
----------------------------------------------------------------------------------------------------------------
Leave of absence began March 2002. Resigned Nov. 7, 2002.

    10. Government experience: (List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.)
    Served as a member of the Anne Arundel County Small Area Planning 
Committee, 1999-2000.
    Served as the president of the Citizens Advisory Committee to the 
Calvert County Board of County Commissioners, 1999-2002.
    11. Business relationships: (List all positions held as an officer, 
director, trustee, partner, proprietor, agent, representative, or 
consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational or other institution.)
    Blue Heron Properties, LLC--president
    12. Memberships: (List all memberships and offices held in 
professional, fraternal, scholarly, civic, business, charitable and 
other organizations.)
    District of Columbia Bar Association--1994 to present
    Maryland State Bar Association--1994 to present
    NTSB Bar Association--1994-1996, 2002-present
    Southern Anne Arundel County Chamber of Commerce--1999-2001 (Board 
member)
    Boys and Girls Club of Southern Maryland--2000 (Board member)
    Air Line Pilots Association--1996-2002
    13. Political affiliations and activities: (a) List all offices 
with a political party which you have held or any public office for 
which you have been a candidate.
    1998--Candidate, Maryland State Senate, District 27
    (b) List all memberships anal offices held in and services rendered 
to all political parties or election committees during the last 10 
years.
    1998-Present--Member, South County Republican Club
    1998-Present--Member, Southern Prince George's County Republican 
Club
    1998-Present--Member, Calvert County Republican Club
    2000--Volunteer, Bush/Cheney 2000
    2002--Volunteer, Ehrlich for Governor
    2002--Volunteer, Hale for County Commissioner
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past 10 years.
    2002--Ehrlich for Maryland, $500.00
    2002--Wayson for County Council, $500.00
    14. Honors and awards: (List all scholarships, fellowships, 
honorary degrees, honorary society memberships, military medals and any 
other special recognitions for outstanding service or achievements.)
    National Society Daughters of the American Revolution Award, 1978
    United States Naval Academy Alumni Association Award, 1982
    Secretary of the Navy Distinguished Midshipman Graduate Award, 1982
    Lieutenant Clarence Louis Tibbals Memorial Award, 1982
    Phi Kappa Phi Honor Society, 1982
    Commodore's List, Training Air Wing Two, 1985
    Sea Service Deployment Ribbon (2 awards), 1986 and 1988
    Meritorious Unit Commendation, 1988
    Armed Forces Expeditionary Medal, 1988
    Navy Achievement Medal, 1989
    White House Fellow, Regional Finalist, 1990-91
    National Defense Service Medal, 1991
    University of Virginia School of Law, Dillard Fellow, 1992-1994
    The Virginia Trial Lawyers Award for Trial Advocacy, 1994
    Navy Achievement Medal, 1997
    Navy and Marine Corps Commendation Medal, 1998
    15. Published writings: (List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.)
    ``When All Else Fails, Blame the ADB'', Approach Magazine, 
September 1989
    ``More BFM: Out of Plane Maneuvering and Effective Rate/Radius'', 
Topgun Journal, Spring/Summer 1989
    ``Carrier Battlegroup Defensive Weapons Systems,'' Topgun Journal, 
1990
    ``F-14 Section Tactics: The Intercept Phase'', Topgun Journal, Fall 
1990
    ``F-14 Section Tactics: The Weapons Employment Phase'', Winter 
1990-91
    ``F-14 Section Tactics: Post-Merge Phase,'' Topgun Journal, Spring 
1991
    ``Forward Quarter Tactics in Desert Storm,'' Topgun Journal, Summer 
1991
    Letter to the Editor, The New Bay Times, September 1998. \1\
---------------------------------------------------------------------------
    \1\ Various letters to editor during 1998 election campaign, 
articles not retained and not available by website search (New Bay 
Times, Calvert Recorder, Calvert Independent, and The Capital 
newspapers).
---------------------------------------------------------------------------
    Commentary, The New Bay Times, October 1998
    Letter to the Editor, The Capital, September 9, 1999
    16. Speeches: Provide the Committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of on topics relevant to the position for which you have been 
nominated. None.
    17. Selection: (a) Do you know why you were chosen for this 
nomination by the President?
    I believe I was chosen for this position because of my extensive 
operational and technical experience in the aviation industry. My 
experience as a pilot, aviation attorney and policy advisor at the 
National Transportation Safety Board (NTSB) has prepared me to deal 
with the many operational, technical, safety and modernization issues 
facing the Federal Aviation Administration (FAA).
    (b) What do you believe in your background or employment experience 
affirmatively qualifies you for this particular appointment?
    The mission of the FAA is to provide a safe, secure and efficient 
air transportation system. As the Senior Policy Advisor to the Chairman 
of the NTSB, I worked closely with the FAA and other stakeholders to 
improve aviation safety. During my tenure, I provided management and 
technical advice to the Chairman and served as the point person in 
coordinating the NTSB's safety recommendations with the various modal 
administrators at DOT. As a commercial and military pilot over the past 
twenty years, I have developed an extensive understanding of the 
safety, operation and maintenance issues facing the aviation industry. 
In addition, my experience as a naval officer and flight operations 
supervisor have provided me with the leadership and management skills 
to be an effective deputy to the Administrator. Finally, as the Senior 
Counsel to the Administrator of the FAA during the last four months, I 
have developed familiarity with and experience in managing the FAA's 
organization, programs and personnel.

                   B. FUTURE EMPLOYMENT RELATIONSHIPS

    1. Will you sever all connections vvith your present employers, 
business firms, business associations, or business organizations if you 
are confirmed by the Senate?
    Yes.
    2. Do you have any plans, commitments, or agreements to pursue 
outside employment, with or without compensation, during, your service 
with the government? If so, explain.
    No.
    3. Do you have any plans, commitments, or agreements after 
completing government service to resume employment, affiliation, or 
practice with your previous employer, business firm, association, or 
organization?
    No.
    4. Has anybody made a commitment to employ your services in any 
capacity after you leave government service?
    No.
    5. If confirmed, do you expect to serve out your full term or until 
the next Presidential election, whichever is applicable?
    Yes.

                   C. POTENTIAL CONFLICTS OF INTEREST

    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients, or customers.
    Please refer to the enclosed General Counsel's Opinion letter.
    2. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated.
    Please refer to the enclosed General Counsel's Opinion letter.
    3. Describe any business relationship, dealing, or financial 
transaction which you have had during the last 10 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated?
    None. Potential conflicts relating to my prior position with United 
Airlines have been resolved. Please see the enclosed General Counsel's 
Opinion letter.
    4. Describe any activity during the past 10 years in which you have 
engaged for the purpose of directly or indirectly influencing the 
passage, defeat, or modification of any legislation or affecting the 
administration and execution of law or public policy.
    As the Senior Policy Advisor to the Chairman of the National 
Transportation Safety Board, I assisted in the preparation of testimony 
presented before the House and Senate Authorization and Appropriations 
Committees. I also assisted in the preparation of testimony by the 
Chairman on behalf of the NTSB in hearings related to rail and highway 
safety.
    5. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items. (Please provide a copy of any trust or other agreements.)
    Please refer to the enclosed General Counsel's Opinion letter.
    6. Do you agree to have written opinions provided to the Committee 
by the designated agency ethics officer of the agency to which you are 
nominated and by the Office of Government Ethics concerning potential 
conflicts of interest or any legal impediments to your serving in this 
position?
    Yes.

                            D. LEGAL MATTERS

    1. Have you ever been disciplined or cited for a breach of ethics 
by, or been the subject of a complaint to any court, administrative 
agency, professional association, disciplinary committee, or other 
professional group? If so, please explain.
    No.
    2. Have you ever been investigated, arrested, charged, or held by 
any Federal, State, or other law enforcement authority for violation of 
any Federal, State, county, or municipal law, regulation, or ordinance, 
other than for a minor traffic offense? If so, please explain.
    No.
    3. Have you or any business of which you are or were an officer 
ever been involved as a party in an administrative agency proceeding or 
civil litigation? If so, please explain.
    No.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? If so, please explain.
    No.
    5. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be disclosed in 
connection with your nomination.
    None.

                     E. RELATIONSHIP WITH COMMITTEE

    1. Will you ensure that your department/agency complies with 
deadlines for information set by congressional committees?
    Yes, to the best of my ability.
    2. Will you ensure that your department/agency does whatever it can 
to protect congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures?
    Yes, to the best of my ability.
    3. Will you cooperate in providing the committee with requested 
witnesses, including technical experts and career employees, with 
firsthand knowledge of matters of interest to the Committee?
    Yes, to the best of my ability.
    4. Please explain how if confirmed, you will review regulations 
issued by your department/agency, and work closely with Congress, to 
ensure that such regulations comply with the spirit of the laws passed 
by Congress.
    If confirmed as Deputy Administrator of the FAA, I will take an 
active role in ensuring that the agency's regulations comply with 
Congressional intent. I will work to establish open communications with 
Congress, the public, and the affected stakeholders.
    5. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so?
    Yes.

                  F. GENERAL QUALIFICATIONS AND VIEWS

    1. How does your previous professional experiences and education 
qualify you for the position for which you have been nominated?
    My professional career has focused extensively on aviation and the 
aviation industry.
    As a veteran military and commercial pilot, I have substantial 
operational aviation experience, both domestically and internationally. 
My military experience has enabled me to develop the leadership and 
management skills that are necessary to be an effective deputy 
administrator. As a military and commercial pilot, I have an intimate 
understanding of the air traffic control system as well as the issues 
facing the FAA's stakeholders.
    As an aviation attorney, I am familiar with the regulatory and 
enforcement framework within which the FAA operates.
    Finally, as the Senior Policy Advisor to the Chairman of the NTSB, 
I worked closely with the FAA to improve the safety of the Nation's 
aviation system. In that position, I advised the Chairman on complex 
technical issues and developed an understanding of the major safety 
issues facing the aviation community.
    2. Why do you wish to serve in the position for which you have been 
nominated?
    I am a strong believer in public service and commitment. At this 
point in our Nation's history and in my professional career, I cannot 
think of a more important service that I could perform. I am grateful 
for the support that has been given me by the Administrator and the 
Secretary, and I am deeply honored that the President has nominated me 
to serve as Deputy Administrator.
    3. What goals have you established for your first two years in this 
position, if confirmed?
    I have been serving as the Administrator's Senior Counsel for four 
months and believe it would be both premature and inappropriate for me 
at this point to establish multi-year goals. However, I have recently 
begun working with the Administrator and her senior management team at 
the FAA to develop a strategic plan that will include multi-year goals, 
and I look forward to helping her achieve those goals during her 
tenure.
    4. What skills do you believe you may be lacking which may be 
necessary to successfully carry out this position? What steps can be 
taken to obtain those skills?
    Although much of my work in the military and at the NTSB and FAA 
involved management issues, I have not previously managed an agency as 
large as the FAA. In this respect, I believe that the operational and 
technical skills that I possess complement the strong management and 
leadership skills of Administrator Blakey. As we continue to work 
together, I expect to increase my management expertise. In fact, my 
initial four months at the FAA have provided me with invaluable 
management experience.
    5. Please discuss your philosophical views on the role of 
government. Include a discussion of when you believe the government 
should involve itself in the private sector, when society's problems 
should be left to the private sector, and what standards should be used 
to determine when a government program is no longer necessary.
    The President's campaign slogan--compassionate conservatism--
espouses a balance of two guiding principles for government in which I 
strongly believe.
    It is difficult to define a simple rule by which government should 
decide to either involve or extricate itself from the private sector. 
Much of our Nation's prosperity is a result of the government's 
significant investment in our transportation infrastructure. It is 
clear that that investment must continue. At the same time, private and 
public-private innovation often produces better and faster results than 
that which occurs from the public sector alone and, where consistent 
with the Nation's interest, we should encourage such private sector 
solutions. Congress has wisely vested within itself the necessity to 
reauthorize and reassess our fundamental transportation programs on a 
periodic basis. If confirmed, I look forward to working with the 
Administration and the Congress in addressing the public sector's 
involvement in our Nation's transportation infrastructure.
    6. Describe the current mission, major programs, and major 
operational objectives of the department/agency to which you have been 
nominated.
    The mission of the FAA is to provide a safe, secure and efficient 
global aerospace system that contributes to national security and the 
promotion of U.S. aerospace safety.
    The FAA fulfills this mission by operating the nation's air traffic 
control system; developing, operating and maintaining air navigation 
facilities and radar and communications equipment; regulating the 
manufacture, operation and maintenance of aircraft; regulating the 
certification of airmen and airports; administering the airport 
improvement program; promoting aviation safety abroad; and regulating 
and promoting the commercial space industry.
    The FAA's major operational objective is the safe and efficient 
utilization of navigable airspace.
    7. What do you believe to be the top three challenges facing the 
department/agency and why?
    The top three challenges facing the Federal Aviation Administration 
are modernization of the air traffic control system, improving aviation 
safety, and increasing system efficiency.
    Even though the aviation industry is facing tremendous pressures 
and trust fund revenues are falling, it is important that the FAA 
remain focused on modernizing the system and increasing its efficiency 
and capacity so that it will be able to provide an acceptable level of 
service to keep pace with the future predicted growth of the aviation 
industry. Equally important, as the industry evolves from its current 
state, the agency must be prepared to meet the challenge of improving 
safety, not only in commercial aviation, but also general aviation.
    8. In reference to question number six, what factors in your 
opinion have kept the department/agency from achieving its missions 
over the past several years?
    All three of the above issues cannot be solved at any given point 
in time. Rather, they are challenges that require an ongoing effort of 
continuous improvement and assessment in order to accomplish.
    9. Who are the stakeholders in the work of this department/agency?
    Every person in this country is a stakeholder in the FAA, including 
all FAA employees, pilots, flight attendants, mechanics, and all those 
who travel by air. In addition, since the aviation system crosses 
international lines, even international travelers are stakeholders in 
the FAA.
    10. What is the proper relationship between the position to which 
you have been nominated, and the stakeholders identified in question 
number nine?
    The stakeholders mentioned above are also the FAA's constituents. 
As Deputy Administrator, I would strive to ensure that the FAA provides 
responsive, accurate and timely service to its constituents. I also 
believe that the FAA should ensure that all stakeholders are heard by 
the agency and treated fairly, whether they are pilots or the public 
protesting enforcement proceedings, union employees raising employment 
concerns, or members of Congress requesting assistance or information.
    11. The Chief Financial Officers Act requires all government 
departments and agencies to develop sound financial management 
practices.
    (a) What do you believe are your responsibilities, if confirmed, to 
ensure that your department/agency has proper management and accounting 
controls?
    As Deputy Administrator, I would be responsible for ensuring that 
taxpayer money is spent prudently and efficiently in executing the 
mission of the FAA. I would work closely with the Administrator, the 
FAA's Chief Financial Officer and the DOT's Chief Financial Officer to 
become familiar with the FAA's budget and to ensure that the agency is 
complying with its financial plans, and congressional and statutory 
requirements.
    (b) What experience do you have in managing a large organization?
    Although I have not previously managed an organization as large as 
the FAA, as a naval officer, I was responsible for leading and managing 
maintenance personnel as well as planning and executing a squadron's 
operating budget. All of my assignments as an active-duty naval officer 
involved leadership and management of squadron personnel, both officer 
and enlisted. As the Senior Policy Advisor to the Chairman of the NTSB, 
I also often dealt with management and personnel issues. Finally, 
during my tenure thus far as the Senior Counsel to the Administrator, I 
have been intimately involved in the internal management issues of the 
FAA.
    12. The Government Performance and Results Act requires all 
government departments and agencies to identify measurable performance 
goals and to report to Congress on their success in achieving these 
goals.
    (a) What benefits, if any, do you see in identifying performance 
goals and reporting on progress in achieving those goals?
    The benefits of identifying performance goals consistent with those 
of the President and Secretary of Transportation and reporting on the 
progress in achieving those goals are good business practices which 
force the agency to plan, focus and dedicate resources on a priority 
basis. Agency goal setting provides every employee with the proper 
expectations and achievement of those goals results in increased 
effectiveness and progress.
    (b) What steps should Congress consider taking when a department/
agency fails to achieve its performance goals? Should these steps 
include the elimination, privatization, downsizing, or consolidation of 
departments and/or programs?
    As Deputy Administrator, I would work closely with the Congress and 
the Administrator to identify performance concerns before steps such as 
elimination and privatization would become necessary. I am committed to 
working with the Congress and the Administrator to address any and all 
concerns.
    (c) What performance goals do you believe should be applicable to 
your personal performance, if confirmed?
    My performance goals should be directly related to the mission of 
the agency. They should require that I manage with integrity, 
efficiency and effectiveness and that I be accountable to the 
Administrator, the Secretary of Transportation and the President for 
the achievement of the agency's missions and goals.
    13. Please describe your philosophy of supervisor/employee 
relationships. Generally, what supervisory model do you follow? Have 
any employee complaints been brought against you?
    I am a firm believer in the team approach of supervisor/employee 
relationships. At the same time, I believe the role of the supervisor 
is to set goals for the agency, to provide the resources necessary to 
achieve those goals, and to work with the employees to ensure success. 
I also believe in delegating authority when appropriate and holding 
people accountable for their actions.
    To the best of my knowledge, no employee complaints have ever been 
brought against me.
    14. Describe your working relationship, if any, with the Congress. 
Does your professional experience include working with committees of 
Congress? If yes, please explain.
    During my tenure at the NTSB and FAA, I worked with several staff 
from the respective House and Senate Appropriation and Authorizing 
committees to address member concerns and FAA issues. I have also 
worked closely with the Chairman of the NTSB and the Administrator of 
the FAA in responding to Congressional correspondence and addressing 
member concerns.
    16. Please explain what you believe to be the proper relationship 
between yourself, if confirmed, and the Inspector General of your 
department/agency.
    In order to have the proper oversight and accountability, it is 
important to have the independent audit and investigative voice of the 
DOT Inspector General. In my role as Senior Counsel to the FAA 
Administrator, I have been working closely with the IG to address 
concerns identified by the IG related to FAA's capital projects and 
procurement processes. Our relationship thus far has been both candid 
and constructive. If confirmed as the Deputy Administrator, I expect to 
continue that kind of relationship with the IG.
    17. In the areas under the department/agency's jurisdiction to 
which you have been nominated, what legislative action(s) should 
Congress consider as priorities? Please state your personal views.
    It is important that the Congress and the FAA work together closely 
to ensure an on-time reauthorization of the AIR 21 legislation. If 
confirmed as the Deputy Administrator, I will work with Congress to 
continue to improve the safety and efficiency of the air transportation 
system.
    18. Within your area of control, will you pledge to develop and 
implement a system that allocates discretionary spending in an open 
manner through a set of fair and objective established criteria? If 
yes, please explain what steps you intend to take and a time frame for 
their implementation. If not, please explain why.
    Discretionary spending should be spent in a manner that is fair and 
includes well-known or established criteria. Spending should reflect 
the priorities established by statue or those set by the President, 
Secretary of Transportation and FAA Administrator.
    The Chairman. Thank you very much.
    Mr. Frankel.

         STATEMENT OF HON. EMIL H. FRANKEL, ASSISTANT 
      SECRETARY FOR TRANSPORTATION POLICY, DEPARTMENT OF 
                         TRANSPORTATION

    Mr. Frankel. Thank you, Mr. Chairman and Members of the 
Committee. Mr. Chairman, I would like to thank you for 
scheduling this hearing and for your interest in and support 
for this nomination over the last several months. I would also 
like to thank my wife, Kathryn, who is here, for her support 
over the last years, I might say, and certainly in support of 
my accepting this position in the Administration. This is kind 
of welcome home for her. I think this is probably her first 
visit to this building since she and I worked in it a long, 
long time ago.
    I am honored to have served as President Bush's Assistant 
Secretary for Transportation Policy of the Department of 
Transportation for the past 11 months. Over that period of 
time, I have worked closely with Secretary Mineta and the fine 
leadership team at the Department in a variety of policy areas, 
including the Administration's proposal for the reauthorization 
of TEA-21.
    Prior to my Federal service, I was deeply involved in the 
transportation field at the State and local levels for over 10 
years. For 4 years, I led a State transportation agency as 
Commissioner of Transportation in Connecticut. In that 
capacity, I led a consolidated multimodal transportation agency 
making policy and implementing programs for all elements of the 
State's transportation system, for the construction, 
maintenance, and management of highways, bridges, and arterial 
roads, for commuter rail and bus services, for commercial and 
general aviation airports and seaports.
    As State Transportation Commissioner, I never forgot that 
the agency I led was providing some service to every resident 
and business of the State every day, and that what we did 
affected people's daily lives and their work. I believe 
strongly in the need to continue moving toward a transportation 
system that operates seamlessly, and one that provides for 
greater coordination between freight and passenger modes.
    As a result of my experience at the State and local levels, 
I believe that I have brought an important and relevant 
perspective to the development of policy at the Federal level, 
and I hope that I can contribute to the goal of a Department of 
Transportation that speaks with one voice across all modes.
    After leaving State government, I remained deeply engaged 
in these issues as a professional providing legal and 
consulting advice to public agencies and private organizations 
engaged in transportation services and infrastructure 
development, and as a teacher of transportation policy and 
public management at the undergraduate and graduate school 
levels.
    The events of September 11 underscored the pivotal role 
transportation plays in the Nation's prosperity and quality of 
life. Our obligation now is to enhance the safety and security 
of our Nation's transportation system in every way possible, 
while ensuring that world class mobility Americans enjoy is not 
jeopardized and, of course, those remain, even with the 
creation and now the establishment and operation of the 
Department of Homeland Security. Working with our new partners 
at DHS, we must ensure that America's transportation system 
emerges from this transformation even stronger and more 
efficient than before.
    Secretary Mineta has often said that nothing has as great 
an impact on economic development, patterns of growth, and 
quality of life as transportation. We face an urgent need to 
improve safety and ease congestion in all modes of 
transportation, and to improve the connections between modes 
for people and goods. Under Secretary Mineta's leadership, 
these goals will continue to inform my work, if confirmed.
    This year, Congress will take up DOT's surface, air, and 
intercity passenger rail program authorizations. It is an 
historic opportunity. We have been hard at work with these 
bills, even as the Administration and Congress have dealt with 
the critical issue of transportation security in the post-
September 11 world. I look forward to supporting President Bush 
and Secretary Mineta and working with Members of Congress, 
including, of course, importantly, Members of this Committee in 
helping to analyze and shape policies to create the safest and 
most secure, most connected, and most efficient transportation 
system in the world.
    In the years since I first assumed an executive position in 
the transportation field, I have developed a passion for this 
field, a passion I am certain that many of you share. I think 
that we all recognize that the ultimate stakeholders in 
transportation are the citizens and businesses of America, who 
rely on the transportation sector to move people and goods 
safely and productively. If confirmed, I pledge my continued 
energy and commitment to meeting the critical challenges facing 
the Nation's transportation system, and I look forward to 
working with you in improving and protecting our Nation's 
transportation system.
    Thank you again for the opportunity to appear before you 
today as you consider my nomination to be Assistant Secretary 
of Transportation for Transportation Policy and, as my 
colleagues, I would be pleased and look forward to responding 
to any questions you may have.
    [The prepared statement of Hon. Frankel follows:]

  Prepared Statement of Hon. Emil H. Frankel, Assistant Secretary for 
          Transportation Policy, Department of Transportation

    Thank you, Mr. Chairman and members of the Committee. It is a great 
privilege to appear before the Committee today.
    I am honored to have served as President Bush's Assistant Secretary 
for Transportation Policy of the Department of Transportation for the 
past ten months. Over that period of time, I have worked closely with 
Secretary Mineta and the fine leadership team at the Department in a 
variety of policy areas, including the Administration's proposal for 
the reauthorization of the Transportation Equity Act of the 21st 
Century. Prior to my Federal service, I was deeply involved in the 
transportation field at the State and local levels for over ten years. 
For four years, I led a State transportation agency, as Commissioner of 
Transportation of Connecticut. In that capacity I led a consolidated 
multi-modal transportation agency, making policy and implementing 
programs for all elements of the State's transportation system--for the 
construction, maintenance and management of highways, bridges and 
arterial roads, for commuter rail and bus services, and for commercial 
and general aviation airports and seaports.
    As State transportation commissioner, I never forgot that the 
agency I led was providing some service to every resident and business 
of the State every day and that what we did affected people's daily 
lives and their work.
    I believe strongly in the need to continue moving towards a 
transportation system that operates seamlessly, and one that provides 
for greater coordination between freight and passenger modes.
    As a result of my experience at the State and local levels, I 
believe that I have brought an important and relevant perspective to 
the development of policy at the Federal level, and I hope that I can 
contribute to the goal of a Department of Transportation that speaks 
with one voice, across all modes.
    After leaving State government, I remained deeply engaged in these 
issues--as a professional, providing legal and consulting advice to 
public agencies and private organizations engaged in transportation 
services and infrastructure development, and as a teacher of 
transportation policy and public management at the undergraduate and 
graduate school levels.
    The events of September 1, I underscored the pivotal role 
transportation plays in the Nation's prosperity and quality of life. 
Our obligation now is to enhance the safety and security of our 
transportation system in every way possible while ensuring that the 
world-class mobility Americans enjoy is not jeopardized. Working with 
our new partners at the Department of Homeland Security, we must ensure 
that America's transportation system emerges from this transformation 
even stronger and more efficient than before. Secretary Mineta has 
often said that nothing has as great an impact on economic development, 
patterns of growth and quality of life as transportation. We face an 
urgent need to improve safety and ease congestion in all modes of 
transportation and to improve the connections between modes for people 
and goods. Under Secretary Mineta's leadership, those goals will 
continue to inform my work, if I am confirmed.
    This year, Congress will take up DOT's surface, air and inter-city 
passenger rail program reauthorizations. It is an historic opportunity. 
We have been hard at work on these bills, even as the Administration 
and Congress have dealt with the critical issue of transportation 
security in the post-September 11th world. I look forward to supporting 
President Bush and Secretary Mineta and to working with Members of 
Congress in helping to analyze and shape policies to create the safest, 
most secure, most connected and most efficient transportation system in 
the world.
    In the years since I first assumed an executive position in the 
transportation field, I have developed a passion for this field--a 
passion I am certain that many of you share. I think that we all 
recognize that the ultimate stakeholders in transportation are the 
citizens and businesses of America, who rely on the transportation 
sector to move people and goods safely and productively. If confirmed, 
I pledge my continued energy and commitment to meeting the critical 
challenges facing the Nation's transportation system. I look forward to 
working with you in improving and protecting our nation's 
transportation system.
    Thank you for the opportunity to appear before you today, as you 
consider my nomination to be Assistant Secretary of Transportation for 
Transportation Policy. I would be pleased to respond to any questions 
you may have.

                                 ______
                                 
                      A. BIOGRAPHICAL INFORMATION

    1. Name: (Include any former names or nicknames used.) Emil Hiram 
Frankel
    2. Position to which nominated: Assistant Secretary for 
Transportation Policy, United States Department of Transportation.
    3. Date of nomination: January 9, 2003
    4. Address: (Information not made available to the public).
    5. Date and place of birth: May 9, 1940: Bridgeport, CT.
    6. Marital status: (Include maiden name of wife or husband's name.) 
Married to Kathryn Frankel (maiden name: Fletcher), November 24, 1968, 
in Washington, D.C.
    7. Names and ages of children: (Include stepchildren and children 
from previous marriages.) None
    8. Education: (List secondary and higher education institutions, 
dates attended, degree received and date degree granted.)
    Harvard Law School, Cambridge, MA, 1962-1965--LL.B., May 1965
    Manchester University, Manchester, United Kingdom, 1961-1962--
Fulbright Scholar; no degree
    Wesleyan University, Middletown, CT, 1957-1961--B.A., May 1961
    Andrew Warde High School, Fairfield, CT, 1956-1957--high school 
diploma, June 1957
    Roger Ludlow High School, Fairfield, CT, 1953-1956--no degree/
diploma
    9. Employment record: (List all jobs held since college, including 
the title or description of job, name of employer, location of work; 
and dates of employment.)
    Assistant Secretary for Transportation Policy, United States 
Department of Transportation, Washington, DC, March 29, 2002-Present 
(Recess appointment)
    Consultant (Pending Appointment), Office of the Secretary, United 
States Department of Transportation, Washington, DC, August 2001-March 
2002
    Of Counsel, Day, Berry & Howard LLP, Stamford, CT, 3/95-3/02
    Fellow (part-time faculty), Schools of Forestry and Environmental 
Studies and Yale School of Management, Yale University, New Haven, CT, 
1995-2001
    Adjunct Professor, School of Civil and Environmental Engineering, 
University of Connecticut, Storrs, CT, 2000
    Fellow, John F. Kennedy School of Government, Harvard University, 
Cambridge, MA, 1995
    Commissioner, Department of Transportation, State of Connecticut, 
Newington, CT, 1991-1995
    President, E.H. Frankel Company, Inc., Bridgeport, CT, 1989-1991
    Of Counsel, Cohen & Wolf, P.C., Bridgeport, CT, 1989-1991
    Vice President, The Palmieri Company (formerly Victor Palmieri and 
Company Incorporated), Washington, DC, and Los Angeles, CA, 1985-1988
    Partner, Cohen & Wolf, P.C., Stamford and Bridgeport, CT, 1982-1985
    Division Vice President, Victor Palmieri and Company Incorporated, 
New York, NY, Greenwich, CT, and Washington, DC, 1975-1982
    Visiting Lecturer, Yale University, New Haven, CT, 1972 and 1973
    Associate, Wofsey, Rosen, Kweskin & Kuriansky, Stamford, CT, 1971-
1975
    Special Assistant to the Under Secretary, United States Department 
of Housing and Urban Development, Washington, DC, 1970-1971
    Legislative Assistant to United States Senator Jacob K. Javits (New 
York), Washington, DC, 1967-1970
    Special Assistant to the Chairman, Connecticut. Republican State 
Committee, Hartford, CT, 1966
    Associate, Day, Berry & Howard, Hartford, CT, 1965-1966
    Assistant Counsel, Connecticut Constitutional Convention, Hartford, 
CT, 1965
    10. Government experience: (List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.)
    Selectman, Town of Weston, CT, 1999-2001
    Member, Board of Finance, Town of Weston, CT, 1989-1999 (Chairman 
for five years)
    Member, Conservation Commission, Town of Weston, CT, 1970s
    Member, Charter Revision Commission, Town of Weston, CT, 1970s
    Member, Governor's Council on Economic Competitiveness and 
Technology (Connecticut), 1996-2000
    Member, Public Infrastructure Subcouncil, United States 
Competitiveness Policy Council, 1995
    Member, President Bush's Transition Team at the United States 
Department of Housing and Urban Development, 1988
    Member, President Reagan's Transition Team at the United States 
Department of Housing and Urban Development, 1980
    Member, Governor Meskill's Task Force on Housing (Connecticut), 
1970s
    11. Business relationships: (List all positions held as an officer, 
director, trustee, partner, proprietor, agent, representative, or 
consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational or other institution.)
    Trustee, Wesleyan University, Middletown, CT, 1981-1984 and 1985-
1997
    Trustee Emeritus, Wesleyan University, Middletown, CT, 1997-Present
    See positions held (as officer, director, and/or trustee) of 
various non-profit organizations, as described in the answer to 
Question 12, below.
    Between 1995 and 2001, I provided consulting services to the 
following corporations, business organizations, and/or public agencies, 
all of which entities were clients of Day, Berry & Howard LLP: New York 
City Partnership and Chamber of Commerce; AMTRAK; Joint Program Office 
of the United States Department of Transportation (as a subcontractor 
of Parsons Brinckerhoff); Delaware Department of Transportation; 
Massachusetts Port Authority; Massachusetts Turnpike Authority and 
Massachusetts Highway Department (as a subcontractor of Commonwealth 
Capital Partners, Inc.); Massachusetts Bay Transportation Authority (as 
a subcontractor of Hamilton, Rabinowitz & Alschuler, Inc.); Connecticut 
Department of Transportation (as a subcontractor to Cambridge 
Systematics, Inc.); Connecticut Department of Economic and Community 
Development (as a subcontractor to Frasca & Associates); Williams 
Communications, Inc. (client of Day, Berry & Howard LLP); and Rock 
Acquisition LP (client: of Day, Berry & Howard LLP). All of these 
consulting relationships have been terminated with the exception of the 
project for the Connecticut Department of Transportation (as a 
subcontractor of Cambridge Systematics, Inc.), and representation of 
Rock Acquisition, L.P., which work is on-going. All of these; 
consulting relationships were terminated by, or prior to, December 31, 
2001.
    12. Memberships: (List all memberships and offices held in 
professional, fraternal, scholarly, civic, business, charitable and 
other organizations.)
    Admitted to Connecticut Bar, 1965 Member, Connecticut Bar 
Association Member, Congregation B'Nai Israel, Bridgeport, CT Member, 
Weston, CT, Kiwanis Club
    Positions No Longer Held:
    Director, Weston Kiwanis Foundation, Inc.
    Director. and former President, Intelligent Transportation Society 
of America, Connecticut Chapter
    Director, Regional Plan Association (RPA), New York, NY, and Member 
of RPA's Connecticut Committee
    Trustee, Connecticut Trust for Historic Preservation
    Advisor, National Trust for Historic Preservation
    Director, Surface Transportation Policy Project
    Trustee, Merritt Parkway Conservancy (a charitable trust), and 
President and Director of Merritt Parkway Conservancy, Inc., a 
Connecticut non-profit corporation.
    13. Political affiliations and activities: (a) List all offices 
with a political party which you have held or any public office for 
which you have been a candidate.
    Selectman, Town of Weston, CT, 1999-2001
    Member, Board of Finance, Town of Weston, CT, 1989-1999 (Chairman 
for five years)
    Member, Connecticut State Republican Committee, 1979-1985
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 10 
years.
    Member, Weston, CT, Republican Town Committee, 2000-2001
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past 10 years.
    Christopher Shays for Congress Committee: $100.00, (September, 
1994); $135.00 (September and October, 1996); $150.00 (May, 1997); 
$250.00 (June and September, 1998); $350.00 (May and October, 2000); 
$200.00 (October, 2002);
    Weston, Connecticut Republican Town Committee: $25.00, (March, 
1992); $50.00 (August, 1995); $105.00 (September and October, 1996); 
$100.00 (September, 1997); $500.00 (July and November, 1999); $100.00 
(October, 2002);
    Connecticut Republicans; $150.00 (May, 1996); $150.00 (March, 
1997); $150.00 (May, 1998); $250.00 (March and April 1999); $200.00 
(May, 2000); $200.00 (April, 2001); $150.00 (Sept., 2001)
    Weld for Senate: $600.00 (May and October, 1996).
    Bayley Senate '98: $500.00 (March, 1998).
    Friends of John Rowland: $500.00 (December, 1997); $250.00 (May, 
1998); $500.00 (June, 2001).
    Republican Women's WISH List: $50.00 (May, 1993); $100.00 (March, 
1999); $400.00 (March and May, 2000).
    Jodi Rell `02: $75.00 (March, 2002).
    Nielson Congress '98: $100.00 (August, 1998); $75.00 (February, 
1998).
    Nielson for Congress: $350.00 (August and September, 2000).
    Gov. George Bush Presidential Exploratory Committee: $500.00 (June, 
1999).
    Victory 2000 for Connecticut: $500.00 (June, 2000).
    Honors and awards: (List all scholarships, fellowships, honorary 
degrees, honorary society memberships, military medals and any other 
special recognitions for outstanding service or achievements.)
    Honor Award, Conference Planning Committee for the Preserving the 
Historic Road in America
    Management Fellow, School of Management, and Senior Fellow, School 
of Forestry and Environmental Studies, Yale University, New Haven, CT
    Joint Fellow, Center for Business and Government and the Taubman 
Center for State and Local Government, John F. Kennedy School of 
Government, Harvard University, Cambridge, MA
    Fulbright Scholar, United Kingdom
    William Day Leonard Award, Wesleyan University, Middletown, CT
    15. Published writings: (List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.)
    See attached.
    16. Speeches: Provide the Committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of on topics relevant to the position for which you have been 
nominated.
    During the four years prior to my appointment, as Assistant 
Secretary of Transportation for Transportation Policy (January 1998 
through March 2002), I frequently spoke to transportation groups and/or 
moderated panels before transportation organizations. These appearances 
largely occurred in Connecticut or in other parts of the metropolitan 
New York City region. My remarks were delivered from notes, and I did 
not prepare formal speeches for these occasions.
    Copies of formal speeches and statements before Congressional 
Committees delivered, between my appointment as Assistant Secretary on 
March 29, 2002, and the present, are attached.
    17. Selection: (a) Do you know why you were selected for the 
position to which you have been nominated by the President?
    I assume that President Bush nominated me to be Assistant Secretary 
for Transportation Policy, because of my experience in this position, 
pursuant to a Recess Appointment, since March 29, 2002, and because of 
my experience and record in the transportation field prior to assuming 
this position. I served for four years, as Commissioner of the 
Connecticut Department of Transportation, and held a variety of 
leadership positions in state, regional and national transportation 
organizations, such as the American Association of State Highway and 
Transportation Officials and the I-95 Corridor Coalition. Prior to my 
appointment as Assistant Secretary of Transportation for Transportation 
Policy, I taught transportation policy and public management at the 
college and graduate school levels, and in my professional and civic 
activities I have been able to reach out to a wide variety of 
transportation stakeholders groups.
    (b) What in your background or employment experience do you believe 
affirmatively qualifies you for this particular appointment?
    I have been deeply involved in transportation issues for 
approximately twelve years, as a public official (Assistant Secretary 
for Transportation Policy, United States Department of Transportation, 
and Commissioner of the Connecticut Department of Transportation), as a 
professional, providing legal and consulting advice to public agencies 
and private organizations engaged in transportation services and 
infrastructure development, and as a teacher of transportation policy 
and public management at the college and graduate school levels.

                   B. FUTURE EMPLOYMENT RELATIONSHIPS

    1. Will you sever all connections with your present employers, 
business firms, business associations or business organizations if you 
are confirmed by the Senate?
    Yes
    2. Do you have any plans, commitments or agreements to pursue 
outside employment, with or without compensation, during your service 
with the government? If so, explain.
    No.
    3. Do you have any plans, commitments or agreements after 
completing government service to resume employment, affiliation or 
practice with your previous employer, business firm, association or 
organization?
    No.
    4. Has anybody made a commitment to employ your services in any 
capacity after you leave government service?
    No.
    5. If confirmed, do you expect to serve out your full term or until 
the next Presidential election, whichever is applicable?
    Yes.

                   C. POTENTIAL CONFLICTS OF INTEREST

    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings, with business associates, 
clients or customers.
    Please refer to the opinion letter of the Deputy General Counsel
    2. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated.
    Please refer to the opinion letter of the Deputy General Counsel.
    3. Describe any business relationship, dealing, or financial 
transaction which you have had during the last 10 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated?
    Commissioner of the Connecticut Department of Transportation 
(ConnDOT) from February 1991 to January 1995--No continuing 
relationship with this public agency. Legal or consulting services were 
provided to the following clients through Day, Berry & Howard LLP from 
1995 to December 2001: AMTRAK; Joint Program Office of the United 
States Department of Transportation, as a subcontractor to Parsons 
Brinckerhoff; Delaware Department of Transportation; Massachusetts Port 
Authority; Massachusetts Turnpike Authority; Massachusetts Highway 
Department; Massachusetts Bay Transportation Authority, as a 
subcontractor to Hamilton, Rabinowitz & Alschuler, Inc.; and ConnDOT, 
as a subcontractor to Cambridge Systematics, Inc. (CSI). All such 
professional relationships were terminated on or before December 31, 
2001.
    4. Describe any activity during the past 10 years in which you have 
engaged for the purpose of directly or indirectly influencing the 
passage, defeat or modification of any legislation or affecting the 
administration and execution of law or public policy:
    As Assistant Secretary of Transportation for Transportation Policy 
since March 29, 2002, I have testified before Committees of the United 
States Congress with regard to legislation and/or public issues of 
interest to the relevant committees, pursuant to my official 
responsibilities. During my tenure as Commissioner of the Connecticut 
Department of Transportation (ConnDOT), I frequently appeared before 
the Connecticut General Assembly with regard to legislation or 
budgetary issues, pursuant to my official duties. During that time I 
also spoke with Members of Congress (particularly members of the 
Connecticut Congressional Delegation), regarding consideration and 
enactment of the Intermodal Surface Transportation Efficiency Act of 
1991 (ISTEA) and other matters of Federal legislation, regulation, and 
public policies which related to my official duties, as Commissioner of 
ConnDOT.
    Between 1995 and 2001, I testified, as a private citizen and not on 
behalf of a client or clients, before a committee of the Connecticut 
General Assembly, regarding transportation financing and the 
establishment of a Transportation Strategy Board for Connecticut. I 
have represented legal clients of Day, Berry, & Howard LLP (DBH) 
before, and in meetings with, ConnDOT, regarding various right-of-way 
and condemnation issues. As a consultant to the New York City 
Partnership and Chamber of Commerce, I was involved in developing 
strategies for, and providing advice regarding, the reauthorization of 
the Federal surface transportation legislation in 1996 and 1997. In 
1998 DBH provided lobbying services to SPX Corporation before the 
Connecticut General Assembly, regarding then pending legislative bills. 
For the purpose of that proposed legislation, I registered as a 
lobbyist with the Connecticut Ethics Commission. I provided no other 
lobbying services to, or on behalf of, DBH clients, nor was I 
registered as a lobbyist at the time I terminated my relationship with 
DBH.
    5. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items. (Please provide a copy of any trust or other agreements.)
    Please refer to the opinion letter of the Deputy General Counsel
    6. Do you agree to have written opinions provided to the Committee 
by the designated agency ethics officer of the agency to which you are 
nominated and by the Office of Government Ethics concerning potential 
conflicts of interest or any legal impediments to your serving in this 
position?
    Yes.

                            D. LEGAL MATTERS

    1. Have you ever been disciplined or cited for a breach of ethics 
by, or been the subject of a complaint to any court, administrative 
agency, professional association, disciplinary committee, or other 
professional group? If so, please explain.
    No.
    2. Have you ever been investigated, arrested, charged or held by 
any Federal, State, or other law enforcement authority for violation of 
any Federal, State, county, or municipal law, regulation or ordinance, 
other than a minor traffic offense? If so, please explain.
    No.
    3. Have you or any business of which you are or were an officer 
ever been involved as a party in interest in an administrative agency 
proceeding or civil litigation? If so, please explain.
    No.
    4. Have you ever been convicted (including-pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? If so, please explain.
    No.
    5. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be disclosed in 
connection with your nomination.
    None.

                     E. RELATIONSHIP WITH COMMITTEE

    1. Will you ensure that your department/agency complies with 
deadlines for information set by congressional committees?
    Yes, to the best of my ability.
    2. Will you ensure that your department/agency does whatever it can 
to protect congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures?
    Yes, to the best of my ability.
    3. Will you cooperate in providing the committee with requested 
witnesses, including technical experts and career employees, with 
firsthand knowledge of matters of interest to the committee?
    Yes, to the best of my ability.
    4. Please explain how if confirmed, you will review regulations 
issued by your department/agency, and work closely with Congress, to 
ensure that such regulations comply with the spirit of the laws passed 
by Congress.
    To the degree the position of Assistant Secretary for 
Transportation Policy is involved in the review of regulations issued 
by the Department, I will work with the Secretary, the Deputy 
Secretary, the General Counsel, and all of the modal administrations to 
insure that regulations meet the statutory intent of legislation 
enacted by Congress. Within the limits of the Administrative Procedure 
Act and consistent with my responsibilities and authority, as Assistant 
Secretary for Transportation Policy, I will exert my best efforts to 
keep Congress informed about the timetable and substance of proposed 
regulations. Moreover, Secretary Mineta has stated his commitment to 
making the rulemaking process more accountable and efficient, an 
important objective of Members of Congress. I will work closely with 
the Secretary, the Deputy Secretary, and my colleagues at the 
Department of Transportation to achieve this important goal.
    5. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so?
    Yes.

                  F. GENERAL QUALIFICATIONS AND VIEWS

    1. How does your previous professional experiences and education 
qualify you for the position for which you have been nominated?
    For approximately twelve years I have been deeply involved in 
transportation issues. This period includes my current tenure, as 
Assistant Secretary for Transportation Policy of the United States 
Department of Transportation (by recess appointment of the President on 
March 29, 2002), and my service, as Commissioner of the Connecticut 
Department of Transportation (ConnDOT) from 1991 to 1995. In the years 
between my public service I provided consulting and legal services to a 
range of transportation-related agencies and private organizations, and 
served as a frequent speaker, panelist, and moderator on transportation 
issues, as a teacher of transportation policy and public management at 
Yale University and the University of Connecticut, and as a writer on 
transportation issues and the interface between transportation and 
economic development, environmental quality, and community renewal. In 
these different capacities I have been involved in almost all elements 
and issues facing transportation policy-makers--public transit, 
aviation, highways, rail, freight and goods movement, transportation 
operations and management, intelligent transportation systems (ITS), 
and institutional reform.
    2. Why do you wish to serve in the position for which you have been 
nominated?
    Since first becoming involved in transportation policy and 
management approximately twelve years ago, I have developed a passion 
for this field, a passion which grows out of an understanding of the 
effect which mobility and accessibility have on every aspect of our 
lives. Transportation plays a key role in the economy, in the 
environment, and in the safety, security and quality of life of every 
American. With the leadership of President Bush and of Secretary Mineta 
I welcome the opportunity to contribute to the shaping of 
transportation policy at this time.
    3. What goals have you established for your first two years in this 
position, if confirmed?
    Secretary Mineta has pointed out that nothing has as great an 
impact on economic development, patterns of growth, and quality of life 
as transportation. The mission of the Department of Transportation 
emphasizes safety and enhanced mobility. We face an urgent need to ease 
congestion in all modes of transportation and to improve the 
connections between modes both for people and for goods. In the next 
few months Congress will be considering reauthorization of the surface 
transportation legislation (TEA-21), and I have been engaged in the 
preparation of the Administration's reauthorization proposal, since my 
appointment as Assistant Secretary for Transportation Policy. I am 
confident that the Executive and Legislative Branches will work 
together to build on the foundations of ISTEA and TEA-21 to improve the 
nation's transportation infrastructure and to enhance the management 
and operation of the existing system through technological innovation 
and institutional reform. I look forward to participating in the 
development of policies, which will contribute to these goals.
    4. What skills do you believe you may be lacking which may be 
necessary to successfully carry out this position? What steps can be 
taken to obtain those skills?
    Prior to assuming the position of Assistant Secretary for 
Transportation Policy at the United States Department of 
Transportation, my experience in the transportation field had largely 
been at the local, state and regional levels. Although I had extensive 
knowledge of national transportation issues, when I became Assistant 
Secretary, I have sought to reach out to my senior colleagues at the 
Department of Transportation, to career Federal employees, to Members 
of Congress, and to Congressional staff, in order to broaden that 
knowledge and to obtain the information necessary to participate 
constructively in in the consideration and implementation of national 
transportation and transportation-related legislation.
    5. Please discuss your philosophical views on the role of 
government. Include a discussion of when you believe the government 
should involve itself in the private sector, when society's problems 
should be left to the private sector, and what standards should be used 
to determine when a government program is no longer necessary.
    The role of government--at all levels--should be a limited one, 
confined to those areas in which public foods are to be provided, and 
the private sector, operating in a free market, cannot, or will not, 
meet those needs. Obviously, areas such as education, public safety, 
and the construction and maintenance of the transportation 
infrastructure are appropriate areas of public activity. However, even 
in the case of transportation, public agencies should not, or need not, 
provide all services. For example, the planning, design, construction, 
management and maintenance of the nation's transportation 
infrastructure (except for the freight railroad system) remain, for the 
most part, a public monopoly. We would benefit from the introduction of 
principles of the market, such as competition and customer-focus, in 
these activities.
    On the other hand, it remains preeminently the role of government 
to ensure that those private entities, which are providing essential 
products or services to the public (whether they are airlines or banks 
or hospitals) do so in a safe, secure, and financially responsible way. 
Government's intervention in the private sector should be limited and 
selective, but firm and effective, when it is necessary and 
appropriate.
    The test of whether a particular service should be provided by the 
public sector is whether a private provider, operating in a competitive 
market place, can provide that service more efficiently and at a lower 
cost than can a public monopoly. Those same standards should be applied 
not only to the initiation of a public program, but also to its 
continuation. In all regards our goal should be, not to dismantle 
government, but, rather, to seek public agencies which are lean, 
responsive and competitive.
    6. Describe the current mission, major programs, and major 
operational objectives of the department/agency to which you have been 
nominated.
    The Department of Transportation's mission is to support safe and 
efficient transportation. The Department's core activities include 
direct assistance, as provided by law, regulatory oversight and 
enforcement, operational safety services, public education, and 
research.
    The Department of Transportation's current Strategic Plan describes 
five objectives for the Department for the years 2000 to 2005: First, 
the Department will promote health and safety by reducing 
transportation-related injuries and deaths; second, the Department will 
improve mobility by delivering an accessible, affordable and reliable 
transportation system for people and goods; third, the Department will 
support economic growth; fourth, the Department will seek to enhance 
the human and natural environment; and, fifth, the Department will 
ensure the security of the nation's transportation system and support 
the National Security Strategy.
    While supporting these strategic objectives, I will work with 
Secretary Mineta, Deputy Secretary Jackson, and my colleagues in the 
Office of the Secretary and in the Modal Administrations at the 
Department of Transportation to review these goals, to revise and 
enhance them, to the degree appropriate in light of changing 
circumstances, including establishment of the Department of Homeland 
Security, and to manage these operations and programs of the Department 
for which I might become responsible in support of these objectives.
    7. What do you believe to be the top three challenges facing the 
department/agency and why?
    The top three challenges facing the Department of Transportation 
are, first, to ensure that the Nation's transportation system will 
continue to function in all circumstances, including national emergency 
and natural disasters; second, to provide the American people with a 
safe and secure transportation system; and, third, to enhance the 
mobility of people and goods, on which the Nation's economic well-being 
and quality of life rest.
    8. In reference to question number six, what factors in your 
opinion have kept the department/agency from achieving its missions 
over the past several years?
    Obviously, the events of September 11, 2001, and this department's 
response to them, have absorbed a great share of the Department's 
financial and intellectual resources. The Department has met the 
requirements and the deadlines for aviation security (as prescribed by 
the Congress in legislation in late 2001) with great skill and success, 
while remaining responsive to the on-going requirements of the nation's 
transportation system. Assuring the American people that our 
transportation system is safe and secure remains our highest priority. 
In this regard, a particular challenge to this agency is meeting not 
only the continuing needs for mobility, efficiency and accessibility, 
but also the heightened requirements for safety and security, in a 
manner respectful of the critical role of states and localities. Broad 
discretion in choosing projects, in establishing the priority of needs, 
and in operating and managing transportation system rests with state 
and local governments. The United States Department of Transportation 
must find a way to enhance the ability of state and local agencies to 
meet these needs, in a fiscally constrained environment.
    9. Who are stakeholders in the work of this department/agency?
    The ultimate stakeholders in the work of the Department of 
Transportation are the people and the businesses of America who rely on 
the nation's transportation system to move people and goods efficiently 
and safely. Public agency stakeholders are the Congress, state and 
local governments, regional and metropolitan area public authorities, 
and other transportation facility governing/managing agencies. In the 
private sector stakeholders include the workers and the companies (and 
the associations which represent them) who build, maintain and operate 
the nation's transportation system and facilities. Finally, 
stakeholders include all those who are engaged in, and concerned about, 
the impact of the nation's transportation system on economic growth and 
international competitiveness, community renewal, public health and 
quality of life, energy utilization, and technological innovation.
    10. What is the proper relationship between the position to which 
you have been nominated, and the stakeholders identified in question 
number nine?
    Secretary Mineta has emphasized accessibility and accountability as 
essential values of the Department of Transportation. Consistent with 
that commitment, I would listen to, and work with, the Department's 
various stakeholders, in the development and implementation of the 
agency's policies and in carrying out the responsibilities of the 
position to which I have been nominated, if confirmed.
    11. The Chief Financial Officers Act requires all government 
departments and agencies to develop sound financial management 
practices.
    (a) What do you believe are your responsibilities, if confirmed, to 
ensure that your department/agency has proper management and accounting 
controls?
    The Department of Transportation has a centralized budgetary 
office, led by the Assistant Secretary for Budget and Programs, who 
also serves as the Department's Chief Financial Officer. While the 
Assistant Secretary for Transportation Policy is not directly 
responsible for the operational management of the Department's major 
programs, to the extent appropriate to the responsibilities of this 
position, at the direction of the Secretary and Deputy Secretary, I 
would work closely with the Assistant Secretary for Budget and 
Programs, the Department's Inspector General, and my senior colleagues 
at the Department, to assure the effective implementation of all 
Department programs.
    (b) What experience do you have in managing a large organization?
    As noted above, from 1991 to 1995 I served as the chief executive 
officer of the Connecticut Department of Transportation (ConnDOT), a 
consolidated, multimodal transportation agency with over 4,000 
employees and an annual budget of over $1 billion. Prior to my service 
at ConaDOT, for approximately ten years I served as a senior executive 
of The Palmieri Company (formerly, Victor Palmieri and Company), a 
nationally-known business reorganization firm. In my capacity as a 
Palmieri Company executive, I was responsible for the management and 
reorganization of large and complicated real estate assets and real 
estate-related companies.
    12. The Government Performance and Results Act requires all 
government departments and agencies to identify measurable performance 
goals and to report to Congress on their success in achieving these 
goals.
    (a) What benefits, if any, do you see in identifying performance 
goals and reporting on progress in achieving those goals?
    I support the Government Performance and Results Act. This 
legislation required Federal agencies to establish measurable program 
targets, and it has helped the Department achieve a coherent vision. In 
my own experience as an executive in the public and private sectors, I 
have established goals for myself and for those under my supervision 
and have measured performance against those goals, as critical elements 
in improving operations. I would anticipate that I would use this 
experience in carrying out my management responsibilities at the 
Department of Transportation, if confirmed.
    What steps should Congress consider taking when a department/agency 
fails to achieve its performance goals? Should these steps include the 
elimination, privatization, downsizing, or consolidation of departments 
and/or programs?
    The Congress has a right to expect the Department to meet its 
performance objectives. If it fails to do so, there should be an 
examination of the reasons for this failure. While managers should be 
empowered and enabled to carry out programs and should be encouraged to 
introduce innovations in program administration and implementation, 
poor performance must have consequences. These might include the 
elimination, privatization, downsizing or consolidating of departments 
and/or programs
    (c) What performance goals do you believe should be applicable to 
your personal performance, if confirmed?
    The Congress has a right to expect the Department to meet its 
performance objectives. If it fails to do so, there should be an 
examination of the reasons for this failure. While managers should be 
empowered and enabled to carry out programs and should be encouraged to 
introduce innovations in program administration and implementation, 
poor performance must have consequences. These might include the 
elimination, privatization, downsizing or consolidating of departments 
and/or programs
    13. Please describe your philosophy of supervisor/employee 
relationships. Generally, what supervisory model do you follow? Have 
any employee complaints been brought against you?
    To my knowledge, no employee complaints have been brought against 
me.
    My management style might be described as ``consensual,'' that is, 
I consult broadly with my colleagues, empower employees, and then make 
decisions, based on the information and opinions provided to me. 
Information is a critical element of my management style: I insist on 
being informed of all important programmatic and operational issues, 
and I believe in intervening in a matter before it has become a crisis, 
if possible. Once decisions have been made, I believe in delegating 
implementation to subordinates, but I expect to be kept informed of 
progress, and I hold employees accountable for their performance.
    When I served as the chief executive officer of the Connecticut 
Department of Transportation (ConnDOT), I typically managed by 
``walking around'': I visited every highway maintenance facility and 
every branch office of ConnDOT, and frequently toured the headquarters 
building. I sought to meet with all ConnDOT employees on a regular 
basis, and during these meetings, I asked for their opinions and 
suggestions, and answered their questions about our policies, programs, 
and strategic goals.
    14. Describe your working relationship, if any; with the Congress. 
Does your professional experience include working with committees of 
Congress? If yes, please explain.
    Since my recess appointment, as Assistant Secretary for 
Transportation Policy, I have made myself available to Members of 
Congress and Congressional staff, and I would anticipate continuing to 
work closely with all members of Congress, if confirmed. I have 
testified before Committees of both the Senate and the House of 
Representatives and have met with Congresional staff on many occasions, 
in my capacity as Assistant Secretary. As Commissioner of the 
Connecticut Department of Transportation. I appeared frequently before, 
and worked closely with, members of the Connecticut General Assembly. 
Certainly, it would be an important priority for me to work closely 
with Members of Congress and their staffs on a bi-partisan basis and to 
support the work of Congressional committees, on all matters and issues 
that come before me in the position of Assistant Secretary for 
Transportation Policy.
    15. [There is no Question 15]
    16. Please explain what you believe to be the proper relationship 
between yourself, if confirmed, and the Inspector General of your 
department/agency.
    The Inspector General is a critically important position at the 
Department of Transportation and provides statutorily protected 
independence in evaluating effectiveness and integrity in 
implementation of the Department's programs. I would anticipate a 
respectful and candid working relationship with the Inspector General, 
and I believe that my own performance, as an executive of the 
Department, can and will benefit from the analyses, reports and 
opinions of the Department's Inspector General.
    17. In the areas under the department/agency's jurisdiction to 
which you have been nominated, what legislative action(s) should 
Congress consider as priorities? Please state your personal views.
    Creating a safer, smarter and simpler Federal transportation 
program should be a priority for both the Administration and the 
Congress, as we consider the reauthorization of all the major 
transportation programs in the next several months.
    Among the specific areas which Congress may well consider as 
legislative priorities are the following: Reauthorization of TEA-21 and 
AIR-21; Creating programs for improved safety and security in the 
surface transportation modes, and assuring the continued operation of 
the nation's transportation. systems and the movement of people and 
goods in all circumstances; Streamlining of capacity-enhancing 
transportation infrastructure projects and providing environmental 
stewardship in the transportation sector; Considering the critical 
elements of a national system of intercity passenger rail; Improving 
the movement of goods both domestically and in advancing national goals 
in a global trading system; Enhancing the role of the transportation 
sector in meeting the nation's energy needs; Improving management of 
the nation's air and surface transportation systems through the 
continued deployment of the most advanced information technologies; and 
with Congress, the Secretary and my colleagues at the Department of 
Transportation, working to strengthen the Department's ability to 
manage important economic and regulatory decision-making.
    18. Within your area of control, will you pledge to develop and 
implement a system that allocates discretionary spending in an open 
manner through a set of fair and objective established criteria? If 
yes, please explain what steps you intend to take and a time frame for 
their implementation. If not, please explain why.
    I believe that discretionary funds should be allocated pursuant to 
a fair, fixed and understood set of criteria. Although one of the 
largest grant-making agencies in the Federal Government, the Department 
has a relatively small percentage of funds over which it has 
discretion. Moreover, Congress increasingly earmarks even these funds 
for specific projects. I will support, and will be guided by, national 
priorities established by Congress and articulated by the Secretary in 
the allocation of those funds available to the Department which are 
genuinely discretionary, and, as Assistant Secretary for Transportation 
Policy, I look forward to advising the Secretary, the Deputy Secretary, 
and my colleagues at the Department of Transportation in the 
development of such priorities.
    I understand that the Department's Inspector General has studied 
discretionary programs and that the Committee has held hearings on this 
issue. If confirmed, I will review these reports and hearings, as soon 
as possible, and will personally study the effect of Congressional 
earmarking on the discretionary programs of FHWA, FTA, and FAA.

    The Chairman. Thank you, Mr. Frankel. Your nomination is 
long overdue, and I hope we can get it done as quickly as 
possible.
    Dr. McQueary, have you ever been down on the U.S.-Mexico 
border?
    Dr. McQueary. I grew up in Texas, sir, and I did spend some 
time on the Texas-New Mexico border a few times, Arizona, going 
into--from San Diego, just sightseeing; not a great deal of 
time, but occasionally.
    The Chairman. Are you aware that there are 30,000 illegal 
immigrants crossing the Arizona-Mexico border every month?
    Dr. McQueary. I am aware there are a very large number. I 
was not aware of the precise number.
    The Chairman. A week or so ago, an Afghan citizen was 
apprehended in Tucson, Arizona. A week or so ago, a backpack 
was found along the border with papers written in Arabic. I do 
not think we are ever going to have enough people to police the 
border, but we had better get going on some science and 
technology in order to ensure the security of our border. I 
hope you will take that as the highest priority. I hope you 
will come and visit the border. The reason why I point out 
Arizona is because any expert will tell you that they have 
squeezed California and Texas, and now a disproportionately 
large number of illegal immigrants are coming across the 
Arizona-Mexico border. Unfortunately, 320 of those people died 
in the desert last year trying to come up, and so there is a 
human tragedy element associated with this issue, but more 
importantly, I cannot tell citizens of this country that our 
borders are secure when about 200 miles of it is, the barrier 
is seven strands of barbed wire, so I hope you will understand 
that we have to use high technology, including unmanned drones, 
I believe, in order to police our border effectively for the 
security of the country.
    Dr. McQueary. I do, sir, and I share your point of view on 
that, because I believe if there is a solution to this problem, 
it has to come from science and technology, because we cannot 
put enough people on the borders, as you said.
    The Chairman. And again, it seems to me one of our 
fundamental requirements in homeland security is the security 
of our borders.
    Dr. McQueary. Yes.
    The Chairman. Mr. Shane and Mr. Frankel, how do you feel 
about--I guess we will begin with you, Mr. Shane. How do you 
feel about the issue of this highway formula of how much money 
States get in relation to the amount of money they send to 
Washington in the form of their taxes that they pay?
    Mr. Shane. We have always strived to return more money to 
the States of the moneys they contribute, some, of course, 
more----
    The Chairman. How about those States that do not get as 
much as they send? Should you not get a dollar back for a 
dollar sent? Doesn't that make sense?
    Mr. Shane. If you examine the demographics of the country, 
I think you could make a case that it does not entirely make 
sense. There would be States that would go wanting for highway 
infrastructure in a very serious way simply because----
    The Chairman. Oh, you mean like high-growth States?
    Mr. Shane. High-growth States would, indeed, if they were 
growing from a very small base, yes, indeed.
    The Chairman. Small base or big base, it seems to me, if 
you have large influxes of citizens who might need more 
infrastructure, whatever it is--well, it has become a 
politicized issue. I hope that the Department of Transportation 
might come up with something that would be more fair than what 
we have seen in the past, and would perhaps hold the line on 
that.
    Have you ever looked at the Big Dig, Mr. Shane?
    Mr. Shane. I have not seen it with my own eyes, no, 
Senator.
    The Chairman. You ought to go up and take a look at it. It 
is the largest public works project in the history of this 
country, originally estimated to be a relatively small amount 
of money. I think the latest is $14 billion, and I think the 
original estimate was $2 billion. Somebody should write a 
history of that as an object lesson of a public works system 
run amok, and I am glad to see that new Governor Romney is 
ordering an investigation. I hope that you would take part in 
that as well. It is a disgrace and should never happen again.
    Mr. Frankel.
    Mr. Frankel. I might say, Senator, that I did and have 
often seen the Big Dig, the central artery project. As a matter 
of fact, as you may know from my resume, in the time I was 
doing consulting and legal work I was involved in a study of--
this was in the late 1990's, about where the money was going to 
come from to pay for the project.
    I think actually there is a history that has been written 
and is being written and is about to be published, as a matter 
of fact, which is something I know you will take great interest 
in and, as a matter of fact, there has been a lot of interest, 
as I think you know, in the Department led, obviously, by our 
Inspector General, but by starting right at the top with the 
Secretary and looking generally at the issue of megaprojects 
and accountability, and we are hopeful, although as you know 
the bill, the Administration's bill to reauthorize TEA-21 is 
currently in interagency review, we expect it will be 
introduced in the Congress very soon, and we imagine that there 
are going to be provisions in the Administration's bill that 
look at issues of accountability with regard to major projects.
    The Chairman. And again, Mr. Shane, Texas is a high-growth 
State. They get 84 cents back per dollar. New Mexico is not a 
high-growth State. They get $1.13 back. Arizona is a high-
growth State. They get 87 cents back. California, the fastest-
growing State in America, gets 93 cents back. Idaho gets $1.48.
    It does not make any sense, and I do not know what the 
Administration will do, but I guarantee you there are some of 
us who will be a coalition of the willing to block any 
legislation that does not give us our fair share of the tax 
dollars that we send to Washington, and I hope that the 
Administration will stand on the side of fairness. There may be 
some need for some variations, but there is no excuse for the 
present formula, and there is no reason for us to pay that kind 
of penalty at the altar of political power.
    When can we expect, Mr. Shane and Mr. Frankel, some 
legislative proposal on Amtrak? That is another very high-
priority, hot-button issue that this Committee is going to have 
to move on as soon as possible.
    Mr. Shane. We are working on that proposal as we speak. I 
know our Deputy Secretary is scheduled to appear before this 
Committee I believe later this month, and I think we will have 
a lot more to report at that time. It is an active project, and 
I would expect we will have something to you very shortly.
    The Chairman. Mr. Sturgell, are you familiar with the 
STARS, standard terminal automation replacement system?
    Mr. Sturgell. Yes, sir, I am.
    The Chairman. Are you aware that it has gone from original 
cost of $940 million, 4 years behind schedule, now rising to 
$1.7 billion, and instead of 172 terminal facilities it is now 
going to be installed in 74 facilities?
    Mr. Sturgell. Senator, I am aware of the past problems with 
the project, as well as its history on cost overruns, and we 
recently have had a program review of the STARS system, and one 
of the things that is one of our priorities coming into the FAA 
is to take a look at all of our large programs and try and get 
a better handle on both the management as well as the cost 
aspects to ensure that the taxpayers are, in fact, getting good 
returns on their investments.
    Right now, the STARS project, it is undergoing IOC in 
Philadelphia. There are still a few issues remaining to be 
resolved before a national in-service decision is made. Also, 
during this time we have been looking at the programs in terms 
of future deployments and how we can better deploy that both in 
terms of cost and location.
    The Chairman. Well, you mentioned Philadelphia. It was 
supposed to start on November 17, and the following day was 
shut down for 18 hours. This is not a good program. I want you 
to look at it. We want the cost overruns to stop, and the 
taxpayers deserve one heck of a lot better than they are 
getting out of this program, and unfortunately it is not the 
only program, nor the only time that we have tried to install 
some kind of modernization of the air traffic control system. 
There is a long litany of failures that amounts to billions of 
dollars. I hope you will address it as one of your priorities, 
Mr. Sturgell.
    Senator Lott. Mr. Chairman, before you go on to the next 
Senator, would you allow me just to insert my statement in the 
record?
    The Chairman. Without objection.
    [The prepared statement of Senator Lott follows:]

                Prepared Statement of Hon. Trent Lott, 
                     U.S. Senator from Mississippi

    Thank you Chairman McCain for holding this hearing today on the 
President's nominees to the Federal Aviation Administration, Department 
of Transportation, and the Department of Homeland Security. I have only 
had the opportunity to meet personally with Mr. Sturgell in his current 
role as Senior Counsel to the Administrator of the FAA. It is my 
impression from our conversations that he is extremely qualified to be 
Deputy Administrator and will continue to greatly benefit the FAA.
    I did have the opportunity to hear the testimony of Mr. Shane at 
our first full committee hearing on the state of the airline industry. 
His testimony was both informative and timely. I look forward to 
working with both you and Mr. Frankel as we move forward with FAA 
Reauthorization.
    The 108th Congress will prove to be critical for our nation's 
aviation industry and air passengers. As Chairman of the aviation 
subcommittee, my top aviation policy provision remains a full FAA 
reauthorization--not just a quick extension of the important agency. A 
full reauthorization--money plus policies.
    The subcommittee has already held hearings on the state of the 
airline industry, FAA reauthorizarion, and airline security. I plan to 
hold additional hearings on reauthorization and introduce a bill as 
soon as possible.
    It is my hope that the Administration will quickly provide us with 
their proposal, so Congress can move forward in step with their 
recommendations. Regardless, the Senate will move quickly on this 
issue. As was proven during negotiations on the last reauthorization 
bill, this legislation takes some time and dedication for completion. 
Therefore, it is imperative that we begin the process now.
    The FAA Reauthorization bill will include numerous provisions that 
will help sustain and enhance safety, security, efficiency, and 
competition in the national aviation system. I am particularly 
interested in the air traffic control system and the use of Airport 
Improvement Program (AIP) funds.
    Like everyone else, Members of Congress experience the delays and 
inconveniences associated with congested skies and airports. Congress 
should look into ways to improve the air traffic control system. I 
applaud the FAA for its recent efforts to manage the problem, but this 
situation requires more than tweaking. Billions of dollars have been 
spent on modernizing the system, yet problems remain.
    In my home state of Mississippi, the Jackson International Airport 
reports that the TSA's security regulations are costing the airport 
$45,000 monthly. In order to reconfigure the terminal to meet new 
security requirements, the airport is having to dip into AIP funds. If 
this continues, airport improvement will be deferred and economic 
development will be hampered. This issue needs to be addressed.
    I plan to work hard this year to enact FAA Reauthorization 
legislation, because I believe that aviation is a bipartisan, good 
government matter.
    I look forward to a quick confirmation for each of the nominees and 
working with each of you this Congress.

    Senator Lott. And I will just add that I either know or 
have met with all the nominees, and am familiar with their 
backgrounds. I think this is an excellent group of nominees. I 
am particularly anxious to see the transportation officials be 
confirmed and get on the job. We have a lot of work to do, and 
a crisis in many areas, and I look forward to voting in their 
favor and helping them get started in their new capacities.
    Thank you very much, Senator Dorgan, for allowing me to do 
that.
    The Chairman. Thank you very much, Senator Lott.
    Senator Dorgan.
    Senator Dorgan. Mr. Chairman, thank you very much. I did 
not mean to grin when you talked about the donee versus donor 
States, but I thought you were probably going to get to North 
Dakota there, and you withheld, so I appreciate that.
    The Chairman. $2.16.
    [Laughter.]
    Senator Dorgan. Most of my constituents are in Arizona at 
the moment.
    [Laughter.]
    Senator Dorgan. I assume spending money and contributing to 
your economy, I might add, but they will be back home soon.
    [Laughter.]
    Senator Dorgan. As soon as the first birds of spring come 
back, they will vacate Arizona, but let me say, Mr. Chairman, 
we will reserve for another day the debate about donee versus 
donor States. It is a very serious and important debate, 
especially for States like mine.
    This is a panel of candidates for public service, a couple 
of whom, several of whom have been involved in long public 
service, who are very well-qualified. I am pleased to support 
your nominations. The background of all of the candidates I 
think fit well with the needs of the positions for which they 
have been nominated, so I will be happy to cast an affirmative 
vote, Mr. Chairman, and I am pleased that people with your 
backgrounds come to public service and are willing to serve our 
country at a difficult time.
    Let me ask a couple of questions. One, Mr. Shane, tell me 
how you feel about Amtrak. There are some, perhaps in Congress 
and maybe some in the Administration that say we ought not 
subsidize rail travel. If it cannot make it on its own, it 
ought not make it. How do you feel, for example, about the 
long-haul service at Amtrak? Do you think it is meritorious, 
and we ought to try to find a way to continue it?
    Mr. Shane. I would like very much to find a way to continue 
it. I think we have passed the point where any of us can think 
that intercity rail, passenger rail service can be entirely 
self-sustaining.
    What Secretary Mineta has said, and what we hope to 
enshrine in proposed legislation, that I hope you will see very 
soon, is that our intercity passenger rail system should look a 
lot like other Federal transportation programs. It should be 
predicated on a contribution of the Federal Government in 
partnership with States. It should factor in the possibility of 
competition. It should be based on sound economic principles.
    We think that intercity passenger rail service is an 
essential component of our transportation system. The Secretary 
has said that. The Administration believes that. What we need 
is a model which has some prospect of sustaining that service 
for the benefit of travelers.
    Senator Dorgan. But you generally believe Amtrak is an 
important contribution to our transportation system?
    Mr. Shane. Absolutely.
    Senator Dorgan. Let me ask Mr. Sturgell, I know that the 
FAA Administrator Blakey is with us today, and you and I have 
had a chance to visit. I think you will make a significant 
contribution to the FAA. I want to ask you about essential air 
service, and perhaps also, Mr. Shane and Mr. Frankel, make a 
comment there.
    The Administration's new budget on essential air service 
cuts it by nearly 50 percent, 57 percent versus current year 
funding, and includes a provision that there are no minimum 
service requirements for eligible places. In fact, service may 
consist, among other things, of ground transportation. As I saw 
that, it just struck me as odd, essential air service including 
ground transportation.
    You know, the essential air service program has been around 
a while, and it was part of a promise from deregulation that at 
least some areas of the country and rural areas would be able 
to continue to receive essential air service. Tell me how you 
feel about the EAS program.
    Mr. Sturgell. Senator Dorgan, I think for the first time, 
the EAS program now provides significant opportunities and 
options for smaller communities under the new proposal that has 
come from the Department.
    Senator Dorgan. I know DOT has a significant policy role 
here. Mr. Shane, tell me about using ground transportation for 
satisfaction of essential air service for small communities.
    Mr. Shane. We have been treating the essential air services 
program in a sort of a static way ever since it was created 25 
years ago. It has been an entitlement. Communities have had no 
particular stake in it, vote in it, have had nothing to say 
about it. The communities that were getting service on, I think 
it was October 24, 1978, were entitled to two flights per day 
forever, according to the authorization, and what we are trying 
to do for the first time is suggest that there may well be more 
cost-effective and, in fact, more convenient ways of providing 
the essential linkages that these communities need to the air 
transportation system of the country, so what we are offering 
is a way of leveraging Federal money more effectively, of 
engaging our communities more effectively, of giving them the 
opportunity to have far more convenient connections, not all of 
which have to be by air, not all of which have to be via small 
airplane, could be a more frequent ground service, an 
attractive bus service to the nearest hub airport.
    If you have more frequent service, you are going to get 
more access to the system generally, and these are things that 
we think should be explored. They were explored, I think quite 
effectively, and continue to be explored through the small 
cities pilot program that was funded last year.
    Senator Dorgan. But that also is defunded in the 
Administration's budget, is it not?
    Mr. Shane. It is defunded for this year, that is right. In 
fact, I think the authorization for funding did not extend 
beyond the last year in which it was funded.
    Senator Dorgan. But if you describe that as a bright 
promise, why would it be defunded for this year?
    Mr. Shane. Because we are evaluating the results of it. It 
was a pilot program. The idea was to see what the communities 
would do if, in fact, they could get some money from the 
Federal Government and, interestingly, contribute themselves, 
and they contributed very substantially to the possibility of 
developing new air service to their communities, all of which I 
think are used well for the approach we are taking in this 
budget to the essential air services program as well.
    Senator Dorgan. But you know what the result of the stop-
and-start approach is. Cities and others take a look at that 
and say, well, we do not have any guarantee the Federal 
Government has an interest in that. Yes, you did it one year, 
and you funded it one year, and the next year the President's 
budget zeroes it out, and then you come to the Committee here 
and say that it was something that holds promise. I just think 
that is contradictory.
    Mr. Shane. Well, we proposed funding, I think in three 
separate years. The Congress actually gave us funding only in 
the last year, and again the idea that was embraced in the 
legislation itself was that it be a pilot program, that we 
would actually see what it generated, and until we have 
evaluated the results of it--I do not foreclose the possibility 
of doing it again, but I think we should take a hard look at 
the program as it is played out.
    Senator Dorgan. I want to have in the future a discussion 
with you about the essential air service program. I think it is 
very important, and I am not suggesting there should not be 
some changes, but I am concerned about cutting nearly in half 
the amount of resources. You just cannot do the program if you 
do not have the resources.
    I have two other questions, Mr. Chairman. Dr. McQueary, I 
was interested in the question that was posed by my colleague, 
Senator McCain. On the northern border--he talked about the 
southern border. The northern border is well over 4,000 miles, 
with Canada. Frankly, no one is going to be taking a look at 
every square foot of ground on the northern border to make sure 
terrorists do not find the weakest link and come in, and as a 
result of that we need to, I think, find technology, new 
technologies, new approaches to try to deal with these issues, 
especially with respect to vehicle traffic, truck traffic, 18-
wheel truck traffic, train traffic, the railroad cars that are 
coming in. The question is, what are they hauling? Do they 
contain weapons of mass destruction? Is that the way a 
terrorist would introduce a weapon into our country?
    Can you tell us, do you think there is promise that we will 
find the kinds of technologies that will allow us to have much 
better inspection at our ports, on all borders, but 
particularly at our northern border?
    Dr. McQueary. I think it would be premature for me to make 
a gross generalization about what is possible, but certainly 
from the short time that I have been associated with this 
activity, I have seen work that is going on in sensor 
technology. Networking of sensors, those kinds of things will 
be very important.
    My experience, having come out of looking for Russian 
submarines, suggests that creating opportunities for multiple 
detections is a way of being able to increase the probability 
of being able to detect whatever it is one is interested in, so 
I think we need to look at all possibilities. I certainly would 
welcome any inputs that you or others might have in helping us 
make sure that we are looking at the opportunities to be able 
to solve the problem that you have described.
    Senator Dorgan. Well, I share the Chairman's view that we 
simply could not hire enough people to cover every square foot 
of the border, north and south, and if you do not secure your 
borders, you do not have the capability of making sure that 
someone is not going to introduce a weapon of mass destruction 
into our country.
    Mr. Sturgell, the second week that Administrator Blakey was 
on the job, I met with her and others in the FAA. I am very 
interested, there is a lot of discussion about contracting out, 
and in some areas contracting out proposals I think is 
inappropriate, and I have indicated that. In other areas I 
think they are perfectly appropriate.
    One area that I have been concerned about and interested in 
for some long while, both through this Administration and the 
previous two or three administrations, is the training of air 
traffic controllers and using the skills that are developed now 
at some of our perhaps four or five top schools in the country 
for augmenting the training at the FAA of air traffic 
controllers.
    We, for example, have one of the finest in the Nation. It 
is called the Harvard of the Skies, Grand Forks, North Dakota, 
judged around the world to be one of the finest aviation 
schools in the world. It now is training Norwegian air traffic 
controllers. I have been there, and I have seen Chinese speak 
to Russians on either side of the board in multiple training 
exercises that they have done over many, many years. Is there 
the opportunity, do you think, for the FAA to take a look at 
those circumstances to be able to augment the training that 
exists at the FAA?
    We have run into pretty much a brick wall, not completely a 
brick wall, but you know, the notion that, well, we train them 
all ourselves, and we have a specific curriculum and so on, but 
I think in many ways, we can demonstrate that we can add to 
your capability at a lower price. Is the FAA interested in 
considering that?
    Mr. Sturgell. Senator, you and I discussed this also, and I 
recently did go up to North Dakota and toured the UNDR Space 
College and saw the capabilities there, and they are quite 
impressive, and the work they are doing is very good, and we 
have used them to hire some of our air traffic controllers.
    I think there are a number of groups. The Inspector General 
of GAO, the FAA, we have all identified that we are going to 
need to increase our air traffic controller hiring over the 
next few years to----
    Senator Dorgan. You have very large retirements, is that 
not right?
    Mr. Sturgell. ----[continuing] to meet anticipated 
retirements beginning in the year 2007, so we are currently 
looking at options to conduct that training, whether they be at 
facilities such as you describe, or at our own facility in 
Oklahoma City, but that is being considered and discussed.
    Senator Dorgan. All right. Well, it is a very important 
topic, and one that I think could be very helpful to the FAA. I 
think all of the candidates for Federal service here with 
respect to homeland security, transportation policy, and the 
FAA, these are very important, critical areas. It is important 
we do them right and get it right, and I look forward to 
working with you.
    And I compliment you on your North Dakota connections, and 
my hope is that every distant relative in North Dakota will 
agree with me on the issue of donor versus donee States at some 
point in the future.
    [Laughter.]
    The Chairman. Thank you, Senator Dorgan. We welcome all of 
the citizens of North Dakota who come and spend the winter with 
us. They also use the highways a fair amount as well.
    [Laughter.]
    The Chairman. Senator Lautenberg.
    Senator Lautenberg. Thank you, Mr. Chairman. To all of you 
at the witness table, my compliments. All of you apparently are 
well-qualified to take on these important assignments. It looks 
like approval is a foregone conclusion.
    I come here as a donor. My State makes it possible for 
other States to get into all kinds of programs, because we get 
65 cents on the dollar, and we would be happy to take back, not 
a dollar for dollar----
    The Chairman. 87 cents, according to our figures.
    Senator Lautenberg. Well, our--but this paper says 65, and 
it just was researched by----
    The Chairman. That paper is a piece of pink paper. This is 
from the Department of Transportation.
    [Laughter.]
    The Chairman. You know, when you are Chairman, you have 
lots of latitude.
    [Laughter.]
    Senator Lautenberg. I was once a Chairman, and I liked it.
    [Laughter.]
    The Chairman. You may be again.
    [Laughter.]
    Senator Lautenberg. Anyway, with Senator McCain's help, 
anything can happen.
    [Laughter.]
    Senator Lautenberg. That is the earliest endorsement I have 
had for my next campaign.
    [Laughter.]
    Senator Lautenberg. It is always a pleasure to work with 
Senator McCain, because one cannot say that he does not provoke 
thought as well as discussion, and when we looked at the 
problem of donor-donee, New Jersey is 49th on the list of 
return on the tax dollar, so we feel like we are making a 
contribution, and we understand when States have particular 
problems.
    The Chairman discussed problems on the Arizona border. I 
just know that however they get there, New Jersey has a huge 
number of people, estimated to be over a million, illegals in 
our State, and whether they get there by ship, or even 
outrageous risks to get there in an airplane, in the 
undercarriage somehow or other, things that you would never 
believe possible, but people who are desperate for survival in 
this world will take all kinds of chances, and we would like to 
see as much devoted to keeping those out who should not come in 
except through a process.
    And one of the things that, Dr. McQueary, I ask of you, 
because you are going to have a huge responsibility of 
coordinating all of the activities in the Homeland Security 
Act, and particularly focused on technology, is it within your 
view a good idea to try to develop some policies with INS and 
see if you can help, based on the experience that you are going 
to be developing, exposure to the problem that--for changes in 
immigration policy for this country?
    Dr. McQueary. Sir, I believe that the Science and 
Technology Directorate is really a supplier of technology to 
the other operational directorates within Homeland Security, 
and so the answer to your question is an emphatic yes. I have 
already had generalized discussion, since I am not officially 
in the position yet, with Under Secretary Hutchinson and also 
Mike Brown, who is Acting Under Secretary at the present time. 
Both of those will be important customers for what we do, what 
I hope we can do--I hope I am a part of it--within the Science 
and Technology Directorate, so yes, sir.
    Senator Lautenberg. Your comment and your work is going to 
be essential, because I come out of the corporate world, and 
know how difficult it is to make major changes in one fell 
swoop, and here this is the biggest swoop that has ever hit our 
country, 170,000 people, $37 billion worth of budget, 22 
Departments affected, and we have not really gotten into some 
of the jurisdictional concerns that other Departments of 
Government legitimately have.
    In the area of the essential air service--I am sorry 
Senator Dorgan is not here--I have supported, even though New 
Jersey has an abundance of air service for the size of our 
State. We get an awful lot of traffic, truck traffic coming 
from the south and the west. We are a pipeline for vehicles 
going through our State to connect with the New York 
marketplace or New England, so we are overburdened in many ways 
with the use of our highways for non-New Jersey traffic, and we 
pay a terrific price for it, and one of the things that we 
desperately need is a continuation of Amtrak.
    I remember 9/11 only too clearly, when 700 people from New 
Jersey gave their lives in pursuit of their careers and their 
interests, 700 people in one day from New Jersey were lost, and 
thank goodness Amtrak was able to function that day, because no 
one could have ever dreamed that the entire aviation system in 
this country could be shut down, as it was.
    And when we look at Amtrak and consider its value, it is 
not simply a fiscal consideration, just like essential air 
service is not just a fiscal consideration. It is what kind of 
policy, how do we ensure that remote communities are able to 
communicate in an effective way with the rest of the country, 
with the rest of the world?
    Well, I support essential air service. It is costly in some 
places. The cost per seat is far in excess of what Amtrak 
subsidy might be, and we have never, never spent the money 
necessary to bring the Amtrak system up to the current State of 
technology, and it would make one huge difference if we could 
travel city-to-city, Washington, New York, Boston in this 
Northeast corridor, and other corridors around the country, 
Chicago, St. Louis, and many places, the West Coast, and we 
have to look at Amtrak in the same way that we do things that 
affect the well-being and the functioning of communities, of 
States around the country, whether it is drought, whether it is 
natural disasters of other types, and to make sure that we are 
there to help out when it is necessary.
    And in the case of Amtrak I would plead that case, and I 
sense, Mr. Shane, that you understand the value that Amtrak 
plays in our transportation system, and would encourage you to 
treat that with an open mind and let us meet and discuss what 
we think the needs are. I was a Commissioner of the Port 
Authority of New York and New Jersey before I came to the 
Senate, and am keenly aware of what the value of that intercity 
rail means.
    And last, Mr. Sturgell, we met in my office a week ago, and 
what we saw in terms of the projects, the STARS projects and 
the others, I made a comment at that time, because we have 
tried with the best companies in this country to make 
technology changes to the aviation system and seen failure 
after failure after failure, and it is not that the companies 
were not efficient. It is that the program was not defined in 
an appropriate dimension or steps, and that is that you cannot 
make major changes overnight, and we have tried it with 
healthcare, we have tried it with other things. It took us 
years to get social security organized enough so that the 
records were randomly available, as it should be.
    But the one thing that is not going to help us is to 
privatize the air traffic controller system. We have just gone 
through a major conversion in this country. We took some 25,000 
people and made them public employees virtually overnight, and 
I think the program is working pretty well, and here, having 
just converted the baggage handlers to Government positions, we 
are talking about taking the controllers, and an errant bag is 
a serious problem, but an errant airplane is an unforgivable 
situation that we can do something about, and I would say this, 
and I am going to be working very hard to make sure that for 
any privatization, as the programs go into effect with the FAA, 
that we are going to be examining that proposition truly 
thoroughly.
    I was just looking at a chart, and I for a long time have 
been interested in the controller workforce, and the 
expectation for retirees, looking out just 10 years from now, 
we are looking at the possibility of retiring 10,000 
controllers, 10,000. We have not kept up to our retirement 
needs, our natural attrition needs, and here we are talking 
about a conversion to the private side, where we can buy 
security on the cheap, and I do not see that as something that 
ought to be considered now as we go through the other problems 
of organizing our homeland security function that is so 
essential to get right the first time we do it.
    So, Mr. Chairman, thanks for holding this hearing. These 
are, I think, a group of excellent candidates, and I hope that 
we will move rapidly to approve their confirmation. Thank you.
    The Chairman. Thank you very much, Senator Lautenberg, and 
I look forward to working with you on this equalization of 
funding issue. We may joke a little bit about it, but this is a 
very serious issue, and I thank you for your involvement.
    Briefly, Mr. Shane, Mr. Frankel, TSA, give it a grade, A, 
B, C, D, F. How has it done since we passed the law, and it was 
a massive reorganization, as well as a significant increase in 
Federal employees. Mr. Frankel.
    Mr. Frankel. Mr. Chairman, let me say that this has not 
been an area of particular responsibility of mine, but I must 
say that I think I share in a sense of pride that the 
Department of Transportation has had over the last year-plus in 
setting up the Transportation Security Administration from 
nothing, creating an agency which I am sure we would all 
acknowledge, I mean, just as travelers, as users of the 
transportation system, the aviation system in particular, that 
it is imperfect, but there will be continued improvement now 
under the direction of the Department of Homeland Security, but 
every deadline was met. It has been an incredible achievement, 
and one in which I think the President and Secretary Mineta, 
and Deputy Secretary Jackson, Admiral Loy, all of them I think 
deserve a lot of credit, and I am very proud to have been 
associated and been at the Department while this process was 
going forward.
    The Chairman. Mr. Shane.
    Mr. Shane. I second all of that. I think the whole TSA 
episode is suffused with heroism, starting with the Congress. 
The Congress responded with unbelievable swiftness after 9/11, 
and I have to say, confess as a long time in-and-out member of 
the Executive Branch, you know, we did not start with a notice 
of proposed rulemaking. We started with a set of defined 
requirements, thanks to the Congress.
    Secretary Mineta then assembled a team which began to put 
the flesh on the bones, and notwithstanding the growing pains, 
and some bad press, and a whole variety of things that--we had 
a lot of whining in the beginning. What was done in the space 
of a year I think was remarkable, a small miracle, and the net 
result is a far greater level of security in our aviation 
system than we have ever had in our history.
    The Chairman. Thank you, which brings us to you, Dr. 
McQueary. I still think that there is some technology that 
needs to be developed in order to ease the burden that average 
passengers go through as they try to get on their airplanes on 
time. There are still airports where from time to time, there 
are inordinate delays, and unfortunate ones, that cause people 
to miss their flights, stand in line for long periods of time.
    I share Mr. Franklin and Mr. Shane's assessment of the 
result of the legislation, but I think we are going to have to 
really work hard to develop more technology to make it easier 
for people to get through an airport and on an airplane, but at 
the same time preserve the security that is absolutely 
necessary. Do you agree?
    Dr. McQueary. Yes, sir, I do agree.
    The Chairman. And Mr. Sturgell, I think you will provide a 
lot of experience to the FAA. I continue to be worried about 
the modernization of the air traffic control system. When I 
first came on this Committee, IBM had a contract for several 
billion dollars that, basically they abandoned. The whole 
project was a failure, and we continue to lag very far behind. 
We still have a few air traffic control centers which are using 
very antiquated technology, as you know, and so I would place 
that on your priority list of efforts that need to be 
accomplished.
    It seems to me it should not be that hard, but it certainly 
has been over the last 20 years. Do you agree?
    Mr. Sturgell. I do agree. I think there has been some 
history of problems with major systems, and I can assure you it 
is going to be major focus should I be confirmed as the Deputy.
    The Chairman. Well, I want to not only congratulate but 
thank all of you for your willingness to serve. This is a proud 
time for you and your families. Thank you for your willingness 
to serve this country in very difficult and challenging times 
on our behalf. We will try and mark up and move your 
nominations to the floor of the Senate as rapidly as possible. 
I know of no opposition, and we hope we can get it done, since 
you are very vitally needed in the positions for which you have 
been nominated by the President.
    Thank you. This hearing is adjourned.
    [Whereupon, at 11 a.m., the hearing adjourned.]


                            A P P E N D I X

    Response to Written Questions Submitted by Hon. John McCain to 
                        Dr. Charles E. McQueary

    Question 1. One major issue of controversy during the consideration 
of the Homeland Security Act concerned the creation of university-based 
centers for homeland security. What steps are you willing to take to 
guarantee that university-based research centers are established based 
on a merit-review process?
    Answer. The Act, and the subsequent amendments to the Act, provide 
a set of criteria for the selection of one or more university-based 
centers of excellence. A merit-based review process requires clearly 
stated requirements for each center, transparent source selection 
procedures and criteria approved by the Departments Source Selection 
Authority, and a source selection panel free from bias or the 
perception of bias. If confirmed, I will assure that each of these 
steps are taken.
    Question 2. One of the responsibilities for the Under Secretary for 
Science and Technology in the Department of Homeland Security is the 
establishment of a system for transferring homeland security 
technologies to Federal, state, and local governments, and private 
sector entities. Deployment of these technologies and the speed they 
are adopted are key elements to a successful Science and Technology 
Directorate. Based on your years of bringing commercial research to 
market, what ideas do you have to improve the technology transfer 
process from government sponsored research to the marketplace?
    Answer. There are several steps that can be taken. First, if 
confirmed I will involve the end user at the outset of a program in 
establishing requirements and operational concepts, thus facilitating 
acceptance and seamless integration into the field. Second, I would 
take full advantage of available procurement flexibilities to speed 
commercialization of technology, and hence the development of markets, 
manufacturing efficiencies, and steady improvements.
    Question 3. The Homeland Security Institute, if established, will 
provide some key engineering capabilities such as system analysis, risk 
analysis, and modeling to determine vulnerabilities of the nation's 
critical infrastructure. According to the Homeland Security Act of 
2002, the Institute would terminate in 2005 or 3 years after enactment 
of the Homeland Security Act of 2002. Do you believe that this is 
sufficient time for the Institute to satisfy its requirements as 
originally envisioned by the Act?
    Answer. Sec 312 of the Act provides for the formation of the 
Homeland Security Institute, with the capability for systems analysis, 
risk analysis and modeling and simulation, policy analysis, support for 
exercises and simulations, and other activities that are traditionally 
performed by an FFRDC. These capabilities require specialized and 
dedicated staff focused on the broad range of issues confronting 
homeland security and the Department. The three year sunset clause may 
serve to discourage the acquisition of permanent staff and the 
investment in resources necessary for an organization to compete for 
and conduct such an enterprise. It is also worth noting that Sec 305 of 
the Act provides for the establishment of FFRDCs, without the three 
year sunset clause. If confirmed, I would like to work with Congress to 
examine this issue.
    Question 4. The Under Secretary for Science and Technology is 
responsible for recruiting new science and technology staff. Given the 
overall difficulties that the Federal government has in recruiting 
technical personnel, what new innovative ideas do you have to improve 
the government's ability to recruit in this area?
    Answer. Congress wisely provided the Department tools that will be 
valuable in addressing this issue. For example, Sec 307(b)(6) provides 
HSARPA with 1101 authority, which DARPA has used to great effect to 
recruit highly competent technical staff from industry. I believe it 
will also be possible to induce companies and universities to provide 
people for the S&T Directorate while on sabbatical from their 
respective organizations. Additionally, my experience shows that highly 
capable engineers and scientists are effective in recruiting similarly 
skilled people by assembling an ``A'' team from the beginning, I expect 
the best and brightest will want to join the Directorate. Thus, we must 
maintain high technical standards for those that we recruit into the 
organization to maintain its quality and assure that it is seen as a 
place where the very best come to work with the very best.
    Question 5. If confirmed, one of your first tasks will be to merge 
divisions of the Departments of Energy and Defense, and combine them 
around the nucleus of a new department. Based on your past experience 
as the head of large organizations, what strategies do you intend to 
employ to reassure the employees from the former agencies, while also 
establishing a new identity for your organization?
    Answer. First, it is important to show respect for the 
organizations from which they are moving. Secondly, if confirmed, I 
will have the responsibility for conveying the enthusiasm and 
excitement for the major challenges facing Homeland Security. Lastly, 
we must have an atmosphere that challenges people and provides 
opportunities for professional growth.
    Question 6. If confirmed, the new Director of the Homeland Security 
Advanced Research Projects Agency would report to you. What fields of 
research should be a priority focus for this new agency?
    Answer. The HSARPA will focus on the points articulated by the 
President in his National Strategy for Homeland Security as well as 
direction from Secretary Ridge. Among our priorities are the 
development of advanced radiation detection systems and environmental 
samplers for biological and chemical threats. HSARPA will study the 
problems faced by state and local officials, and develop innovative 
solutions for interoperable communications, personal protection, and 
detection of hazards. HSARPA will work to identify effective methods 
for protecting our infrastructure, detecting explosives in luggage, and 
rapidly scanning containers for threats. Finally, it is important not 
to overlook the conventional missions of the Department; the border 
agencies have a need for innovative detection of contraband such as 
drugs, the Coast Guard in missions such as maritime safety, and the 
Secret Service in protecting the banking system from fraud, and 
protecting our nation's leadership.
    Question 7. One of the lessons learned from Sept. 11 was that many 
of the emergency services could not communicate with each other. Do you 
anticipate any research concerning interoperability standards for 
public safety communications equipment and the use of spectrum?
    Answer. Yes. Enhancing communications capabilities for emergency 
services is an important issue, and a variety of technical solutions 
will deliver shorter term improvements. For example, SAFECOM has a plan 
that calls for the immediate integration of existing network 
infrastructure at all levels of Government utilizing existing 
interoperability solutions as a starting point. SAFECOM is responsible 
for addressing a very complex set of issues that go well beyond 
technology. We are all experiencing a learning curve as we determine 
what it takes to get over fifty thousand public safety agencies at 
federal, state and local levels talking and working together. We have 
the need now, more than ever before, for a common framework to 
facilitate cross jurisdictional, cross-disciplinary communications. 
With over 90% of the Nation's public safety communications 
infrastructure owned and managed at the local and state levels, SAFECOM 
must partner with local and state agencies to develop common processes 
and standards that allow each to communicate with neighboring 
jurisdictions and to coordinate operations across disciplines. SAFECOM 
can help facilitate this process, but those who own and operate their 
own networks need to effect change at every level of government.
    Today we must focus on the integration of existing networks based 
on existing standards. Tomorrow we will focus on migration to next 
generation solutions based on new standards.

                                 ______
                                 

Response to Written Questions Submitted by Hon. John D. Rockefeller IV 
                         to Robert A. Sturgell

FAA/NATCA MOUs
    Question 1. Recently, in a hearing before this Committee, the DOT 
Inspector General noted that there were numerous Memoranda of 
Understanding (MOU) between the FAA and the National Air Traffic 
Controllers (NATCA), suggesting that these side agreements were a 
problem. This was the first time I had heard that MOUs were a problem. 
Do you think that agreements voluntarily entered into between the FAA 
and NATCA, these MOUs, are problems? If so, how would you intend to 
resolve the issue?
    Answer: I believe that we need to understand the full impact of 
these agreements and we are working closely with the FAA's Air Traffic 
leadership and the Inspector General to review all of the agreements 
that we have with NATCA. Once the review is complete, we will work with 
NATCA to address any agreements that require modification. For 
prospective agreements with our unions, the Administrator has 
established an integrated review process that will ensure that the full 
impact is understood and weighed before any agreements are signed.
STARS (Standard Terminal Automation Replacement System)
    Question 2. A recent FAA report on the new air traffic controller 
work stations (STARS), suggested that it was not ready to be fully 
deployed beyond the initial sites, such as Philadelphia. Are there 
technical problems with STARS? Will there be a delay in installing the 
new equipment at other sites because of these ``glitches?''
    Answer: Because Philadelphia is the first large site to use STARS, 
FAA expected some ``glitches'' to be revealed in the first few months 
of use. However, the prognosis is that none of these are serious 
problems that will prevent STARS from being deployed nationwide. The 
issues identified have been resolved and fixes are currently being 
tested at the FAA Technical Center. Based on this testing, FAA expects 
to approve STARS for national deployment later this spring. The next 
site to receive STARS is Portland, Oregon. Even though testing is 
currently ongoing, at this time we do not expect a delay at Portland.

Air Traffic Subcommittee
    Question 3. Jane Garvey, before she left, testified that the Air 
Traffic Subcommittee needed to be restructured. This is the 
Subcommittee that was previously headed by John Snow. Right now, we 
have a 15 member Management Advisory Committee (MAC), headed by Ed 
Bolen of the General Aviation Manufacturers Association, and the 5 
member subcommittee is now without a leader. Do you support eliminating 
the Subcommittee and letting the MAC provide the Administrator with 
guidance on air traffic issues?
    Answer: I do not support eliminating the Subcommittee. However, I 
do support restructuring the Subcommittee as a separate group. Both 
groups serve a purpose, the MAC to provide aviation community advice 
and counsel, and the Subcommittee to provide business expertise to Air 
Traffic Services (ATS). The expertise that the Subcommittee brings will 
enable the ATS to become more performance based, more operationally 
sound, and more customer focused. The Subcommittee has begun to 
concentrate on specific performance metrics that will provide ATS with 
meaningful measurements for success. I would like to point out that 
Edmund ``Kip'' Hawley, named to the Subcommittee in July, is the 
current chairman, having been voted into the position upon Mr. Snow's 
resignation.

FAA Standardization
    Question 4. Administrator Blakey, in her testimony before this 
Committee, stated that one of her top priorities would be to ensure 
standardization among FAA regions and field offices across the country. 
Why isn't there standardization now? What changes will you implement to 
ensure standardization?
    Answer: With an agency as large as the FAA, and as diverse as our 
customer base is, it is essential that the FAA speak with a single 
voice, and both the Administrator and I are committed to ensuring that 
we serve our customers in a more consistent, standard way throughout 
the FAA.
    Last month, the Administrator announced a new customer-service 
initiative that provides written guidance and training to all managers 
and supervisors in our regulation and certification offices throughout 
the country on applying FAA rules and policies in a consistent manner. 
We want to know from our customers if we're not being consistent. We're 
going to let them know that they have the right to ask for review of 
any inspector's decision on any call that's made in the certification 
process; that they can ``buck it up'' to first-line supervisors, field 
office managers, regional division managers, or even to Washington if 
necessary--with no fear of retribution. Information on how to do this, 
names, titles, and phone numbers, will be prominently displayed on the 
FAA website as well as in all our regional and field offices.

                                 ______
                                 

  Response to Written Questions Submitted by Hon. Ernest F. Hollings 
                         to Robert A. Sturgell

    Question 1. We are aware that the FAA has a long standing 
interpretation that would allow the issuance of an Airworthiness 
Certificate to an aircraft even though the producer of this vehicle 
does not hold a Production Certificate, a Type Certificate, or even the 
data that would support the Type Certificate and its underlying Type 
Design. We also have heard that the Airworthiness organization is very 
concerned that in the absence of a Type or Production Certificate, the 
FAA cannot hold a certificated organization responsible for on-going 
airworthiness problems. Without the ability to compel technical support 
for ongoing airworthiness, the FAA has reduced capabilities to design 
corrective actions and to expeditiously draft Airworthiness Directives.
    We are told that the FAA is considering a process involving both an 
ANPRM and NPRM to close this ``interpretative'' loophole, a process 
known to take many years. We are very concerned with the on-going 
safety exposure under these processes and are prepared to draft an 
amendment to the statute that would clarify Congress' intent.
    Pardon the long premise to my question, but obviously the predicate 
was critical to my question. Would the FAA support an effort by this 
Subcommittee to close this loophole by amending the statute in the 
Reauthorization Bill, to eliminate this unnecessary safety exposure and 
to minimize the burdens that the ANPRM/NPRM process would impose on 
your staff?
    Answer: In my judgment, the existing regulations do not pose a 
threat to safety. The aircraft are inspected by the FAA to assure 
conformity to the approved design and airworthiness requirements. As 
with all other aircraft with Standard Airworthiness certificates, the 
FAA has the option to issue airworthiness directives, or amend, suspend 
or revoke the airworthiness certificates of these aircraft. In 
addition, the FAA will not accept new proposals for production of new 
aircraft from spare parts.
    However, in an ongoing effort to improve safety oversight, the FAA 
has recently issued the ANPRM proposing that all new aircraft 
manufactured in the U.S. receive a Standard Airworthiness Certificate 
only if they have been manufactured by the holder, or licensee, of a 
type certificate and a FAA production approval. This would prevent a 
manufacturer that does not hold a type and production approval from 
receiving airworthiness certificates for aircraft assembled from parts.
    I acknowledge that the rulemaking process often takes longer than 
desirable to make needed changes. Therefore, I am, committed to work 
with Congress on needed changes in this area. However, a change in 
direction often requires the subsequent initiation of a rulemaking 
process. Consequently, I think the FAA's issuance of the ANPRM is not 
inconsistent with any modification Congress might consider.

                                 ______
                                 

   Response to Written Questions Submitted by Hon. Frank Lautenberg 
                         to Robert A. Sturgell

    Question 1. I am extremely concerned about the Administration's 
plan to privatize the air traffic control system. As you know, in the 
aftermath of September 11th, the American people demanded one thing in 
particular of their government; they wanted government personnel--not 
private contract firms--to perform security screening of baggage at our 
nation's airports. That is why I was so surprised to find out that the 
Administration has stripped air traffic control of its ``inherently 
governmental'' status last year, setting the stage for privatization. 
To me, that makes no sense, especially after September 11th, when the 
public felt safer with government staff in control rather than private 
contractors. Do you approve of privatizing the air traffic control 
system?
    Australia, Canada and Great Briitain all have privatized systems 
that are now in crisis. Costs have gone up and safety has gone down. 
Since Great Britain adopted privatization--near misses have increased 
by 50 percent and delays have increased by 20 percent. The British 
government has already had to bail out the privatized air traffic 
control company twice. Given this information on experiments abroad, 
does the Administration believe that privatization will save money?
    Answer: I want to assure you that the Department of Transportation 
is not considering privatizing the air traffic control system. I 
understand that you and many of your colleagues are concerned that last 
year air traffic control was determined not to be an inherently 
governmental function. Let me explain how that determination was made 
and why I do not believe it is a precursor to privatization. Under the 
Federal Activities Inventory Reform (FAIR) Act of 1998, every agency 
must develop an annual inventory of its commercial activities versus 
those that are inherently governmental. In accordance with the FAIR 
Act, functions that are inherently governmental involve a sovereign act 
on behalf of the Government or bind the Government to a particular 
course of action. The separation of air traffic, though a critically 
important function, was not deemed to meet that rigorous definition. 
However, although not considered to be an inherently governmental 
function, the vital role air traffic control plays with respect to the 
safety and security of the national airspace system requires that it be 
considered a core function. As such, it is not subject to competition 
and will not be contracted out. I am not aware of any studies conducted 
to determine whether the privatization of air traffic control would 
save the Government money.
  

                                  <all>

</pre></body></html>
